<html>
<title> - A STUDY IN CONTRASTS: HOUSE AND SENATE APPROACHES TO BORDER SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
              A STUDY IN CONTRASTS: HOUSE AND SENATE 
                  APPROACHES TO BORDER SECURITY
=======================================================================


                                HEARING

                               before the

                         SUBCOMMITTEE ON BORDER

                         AND MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2013

                               __________

                           Serial No. 113-28

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
86-033                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Tom Marino, Pennsylvania             Loretta Sanchez, California
Steven M. Palazzo, Mississippi       Beto O'Rourke, Texas
Lou Barletta, Pennsylvania           Tulsi Gabbard, Hawaii
Chris Stewart, Utah                  Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
              Paul L. Anstine, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security...................................     3
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security.......................................................     5

                               WITNESSES
                                Panel I

Hon. John Cornyn, a United States Senator From the State of 
  Texas:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Hon. Xavier Becerra, a Representative in Congress From the State 
  of California:
  Oral Statement.................................................    13
  Prepared Statement.............................................    16

                                Panel II

Mr. Jayson P. Ahern, Principal, Chertoff Group:
  Oral Statement.................................................    19
  Prepared Statement.............................................    22
Mr. Edward Alden, Bernard L. Schwartz Senior Fellow, Council on 
  Foreign Relations:
  Oral Statement.................................................    24
  Prepared Statement.............................................    26
Mr. Richard M. Stana, Former Director, Homeland Security and 
  Justice, Government Accountability Office:
  Oral Statement.................................................    34
  Prepared Statement.............................................    36

                             FOR THE RECORD

Hon. John Cornyn, a United States Senator From the State of 
  Texas:
  Letter From the Border Trade Alliance..........................    12
The Honorable Beto O'Rourke, a Representative in Congress From 
  the State of Texas:
  Statement of the American Civil Liberties Union................    42
The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina:
  Letter From Lamar Smith, a Representative in Congress From the 
    State of Texas...............................................    51
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security:
  Statement of the American Immigration Lawyers Association......    67
  Statement of the National Immigration Forum....................    68
  Article, Forbes................................................    71


  A STUDY IN CONTRASTS: HOUSE AND SENATE APPROACHES TO BORDER SECURITY

                              ----------                              


                         Tuesday, July 23, 2013

             U.S. House of Representatives,
      Subcommittee on Border and Maritime Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Duncan, Marino, Palazzo, 
Barletta, Stewart, Jackson Lee, Sanchez, and O'Rourke.
    Also present: Representative Vela.
    Mrs. Miller. Good morning. The Committee on Homeland 
Security and Subcommittee on Border and Maritime Security will 
come to order. In the interest of time we are going to move 
along, although we are waiting for our second witness here and 
our Ranking Member, but one of our witnesses, Senator Cornyn, 
who we are so appreciative of him appearing before the 
subcommittee today. I know he is on a tight timeline, so we 
will move right along here. We do have a second panel as well 
after our first panel is complete with their testimony.
    Our Nation is in the middle of a very robust, I suppose is 
one good way to characterize it, a very robust debate on the 
best path to reform as we try to reform our broken immigration 
system.
    Certainly an essential part of that debate is how we secure 
the border so that in 10 years or 15 years we are not going to 
be having this same debate again and again. We need to reduce 
the flow of people coming into this country illegally and those 
include those who sneak across the border, across the desert, 
and as well those who overstay their visas, something that our 
colleague, Mr. Barletta has been a champion on certainly.
    So this is more than an immigration issue, it is a National 
security issue, and we need to start by securing the Southern 
Border but that is not the only border that we have, obviously. 
All of our borders, our Northern Border, Southern, of course, 
the maritime environment, these are all dynamic places and once 
you have secured a section of the border it doesn't mean that 
it is secured forever, it can change.
    Without a Nation-wide plan, the drug cartels and the 
smugglers will continue to seek out the point of less 
resistance and then succeed in coming in to our country 
illegally and crossing our borders.
    The American people overwhelming agree that we need to 
secure the border. They have spoken out many, many times about 
that. It is something, unfortunately, we failed to do in 1986.
    Immigration reform in my mind will not happen without the 
public, the American people having a very high degree of 
confidence that their Government is committed to enforcing the 
Nation's immigration laws and following through on our border 
security promises.
    A real border security plan has to be able to answer these 
simple questions, what does a secure border look like, how do 
we get there and most importantly, how do we measure the 
progress of getting there?
    Spending billions of dollars on border security without a 
way to assess progress is really what we have done for the last 
20 years without truly understanding how effective the 
additional resources have been or measuring them. I am 
certainly disappointed that the Senate continued this flawed 
approach with their immigration bill--to the tune of $46 
billion.
    I think without outcome-based metrics, accountability, or a 
standard for success with real teeth, the Senate bill is more 
of the same; it is a Washington solution that will not deliver 
results.
    I do think that additional resources certainly will be 
needed to achieve situational awareness, operational control of 
the border, and to enhance security at our ports of entry. But 
just spending additional resources without a strategy to secure 
the border or means to hold the Department of Homeland Security 
accountable for results creates conditions that I think are 
ripe for waste.
    Doubling the Border Patrol and tearing down hundreds of 
miles of fence just to rebuild it appears tough until you look 
deeper and ask the tough questions: Did the Chief of the Border 
Patrol say that that is what they needed to get the job done, 
or did Senators just come up with those nice round numbers to 
get some additional votes for the immigration bill?
    Here in the House Homeland Security Committee, we have 
taken a radically different approach that addresses security 
based on results and certifiable metrics, not on resources 
alone.
    On a bipartisan basis, we passed a bill that will put us on 
the road to achieving real, tangible, and most importantly, 
verifiable border security. The Border Security Results Act of 
2013 calls on the Department of Homeland Security to finally 
develop and to implement a serious plan to secure the border, 
to develop metrics, and to gain the situational awareness 
needed to understand how the threat at the border evolves.
    The strategy and implementation plan required by this 
legislation will consist of actual analysis to inform how and 
where we apply resources we send to the border. This strategy, 
I believe, will eliminate the ad hoc nature of our spending, 
and in short, it will answer the question: What does a secure 
border actually look like?
    Metrics called for in the bill are long overdue, because 
the American people as well as the Congress have been 
frustrated by this administration, past administrations as 
well, and its inability to come to grips with the need to 
secure our border and how we do so in a measurable, transparent 
way.
    Through our bill, the National labs and border stakeholders 
will be able to offer needed expertise so that what the 
Department of Homeland Security produces actually measures 
border security.
    We cannot continue to rely on faulty measures like how many 
resources we send to the border or the number of people we 
apprehend. Instead, border security can only be based on hard 
and verifiable facts vetted by the independent experts.
    Third-party verification by outside experts is an important 
part of our approach to make sure that Congress and the 
American people aren't being misled and that promises made are 
promises kept.
    Every section of this bill was designed to give Congress 
and the American people a high degree of confidence--
confidence--that we are on the right path. This bill is about 
accountability and real results because the Department of 
Homeland Security's border components must be held to account 
for success, or failure, progress or not.
    This bill is the right way to move forward. We can and we 
must secure the border. The American people deserve no less.
    At this time, the Chairwoman would recognize our Ranking 
Member, the gentlelady from Texas, Ms. Jackson Lee for her 
opening statement.
    Ms. Jackson Lee. Thank you, Madam Chairwoman, very much. 
Obviously I am delighted to see Texas represented in a very 
large way in this committee and at the panel in welcoming 
Senator Cornyn, my Senator. Thank you so very much, Senator, 
for being here and being thoughtful on this very important 
issue not only to the Nation but certainly to Texas.
    Madam Chairwoman, I want to also, because this is a very 
challenging issue, take an opportunity to personally thank you 
for the cooperative way in which we have been able to work on 
this committee and still more work to be done but on this 
committee as it relates to something that many of our Members 
have a diverse and different view and are vigorous sometimes in 
that view.
    Again, I want to acknowledge fellow Texan in Mr. McCaul, 
the Chairperson of the full committee for, again, recognizing 
that we can do things in a bipartisan manner and really come up 
with a product that doesn't just serve Texas, Arizona, and 
places such as those States but serves the Nation.
    Working very closely with the Ranking Member, Mr. Thompson 
who has evidenced an uncanny ability for coming together on 
very, if I might say controversial issues and have worked so 
closely in a bipartisan way, we are a committee that I think is 
a very good example of what is good about the United States 
Congress.
    Madam Chairwoman, let me apologize for being delayed, I was 
in an immigration meeting and I believe that today's hearing is 
a crucial piece of this Congress and this House shedding itself 
from the National perception that there is a stall, that we 
cannot further provide leadership on the concept of 
comprehensive immigration reform.
    So, I thank you for holding this meeting, and I assume that 
it will not get heated but I thank you for holding this, and I 
just want to acknowledge what the meeting was about as I read 
my statement.
    It was about the combined advocacy for comprehensive 
immigration reform from the National Association of 
Evangelicals, from the American nursery and landscape, the 
business community, agricultural community, and certainly from 
the law enforcement community.
    These are crucial elements who are pushing collectively for 
comprehensive immigration reform. So I am very pleased to have 
been an original co-sponsor of one of those bills that will 
contribute to this process. H.R. 1417, the Border Security 
Results Act of 2013, that has been sponsored by again 
Chairwoman Miller, myself, the Chairman, Mr. McCaul, and the 
Ranking Member of the full committee, Mr. Thompson.
    It may come as no surprise that my friend and I work on 
issues even though as we should have disagreement. Texans do, 
but we come together around very important issues. I was glad 
to co-sponsor H.R. 1417 in part to help to foster a bipartisan 
legislative initiative.
    But more importantly I was delighted to be able to work 
across the aisle with staff and Members on this bill that I 
believe has generated a forward-thinking, strong, positive 
effort at securing the border, both Northern and Southern, as I 
have spoken to Chairwoman Miller about the Northern Border, to 
come forth with a bill that will help us in comprehensive 
immigration reform.
    As reported to the House the bill requires that the 
Secretary of Homeland Security submit to Congress and the 
Government Accountability Office a report that assesses and 
describes a state of situational awareness and the operational 
control of our borders. It also requires that not later than 
180 days after the date of the enactment the Secretary of 
Homeland Security submit to Congress our comprehensive strategy 
for gaining and maintaining situational awareness and 
operational control of high-traffic areas of the border within 
2 years and operational control on the entire Southern Border 
of the United States within 5 years.
    Furthermore, the bill requires the Secretary to submit to 
Congress an implementation plan for each of the DHS border 
security components to carry out such strategy and for GAO to 
review those plans and report to Congress on their findings.
    The Secretary determines operational control has been 
achieved in accordance with the Act, the Secretary is to 
certify that to Congress. It is a roadmap that I think is very 
positive and takes in all of the stakeholders that have a 
responsibility for securing the border.
    Again, we were delighted to also offer several thoughtful 
amendments and particularly I was glad that amendments offered 
by my colleagues from the border region were adopted, dealing 
with the impact on border communities and the economics, 
particularly trade.
    I appreciate the bipartisan support for my amendment to 
address the smuggling of people, drugs, and weapons, 
particularly emphasizing human trafficking, as well as civil 
liberties and prohibitions against racial profiling.
    For example, we must acknowledge that achieving such 
control will require new border security resources, and I hope 
Mr. Thompson's amendment will be considered going forward that 
begins to fund this challenge. H.R. 1417 addresses just a 
portion of the challenges facing our Nation with respect to our 
broken immigration system.
    As I said earlier, I am not going to be shy about the need 
for comprehensive immigration reform. I would hope this House 
would not spend its time on satellite bills but come together 
with a comprehensive approach.
    I would hope that beyond anything else that we have the 
opportunity to be able to put forward a comprehensive approach, 
and I would say to the Chairwoman and I would say to the full 
Chairman that I hope that this will be part of that bill.
    We have an obligation to bring these people out of the 
shadows, and I commend the Senate for its comprehensive 
approach but also believe that we can improve on this bill. As 
I close let me indicate that the Senate bill which we view as a 
positive step still has an unworkable hurdle, $46.3 billion for 
border enforcement with 20,000 Border Patrol agents with no 
study as to how they will be trained and additional agents may 
be necessary, but we need to be able to listen to the 
stakeholders.
    The question of militarizing the border may be of concern 
to many of us but we are ready to go. We are ready to move to 
help Arizona and California and New Mexico and Texas and we are 
ready to go to make a great difference in what we are doing.
    In short, there are pros and cons to the approach taken by 
the House and Senate on border security and we can learn from 
both. But I must say, Madam Chairwoman as we go forward, the 
one issue that must be on the table is that this House would 
move forward on comprehensive immigration reform along with the 
Senate for the President to sign; it is one of the greatest 
civil rights moments and need of this century and of our time.
    I look forward to this House being front and center and the 
House Homeland Security Committee being part of helping 11 
million undocumented persons become citizens. With that, Madam 
Chairwoman, I thank you and I yield back.
    Mrs. Miller. Thank you, gentlelady and the Chairwoman now 
recognizes the Chairman of the full committee, the gentleman 
from Texas, Mr. McCaul.
    Mr. McCaul. I thank the Chairwoman Candice Miller for your 
hard work and the Ranking Member, fellow Texan, Sheila Jackson 
Lee. You have worked on this issue prior to this Congress for 
many years to get to the point where we are here today.
    I am also glad that while--when the bill initially passed 
it got little attention, it is now starting to get the 
attention I think it deserves. The LA Times editorial, says ``A 
shocker, House gets something right on immigration.''
    The Border Security Results Act strikes a fair balance 
between border enforcement and fiscal responsibility. I also 
want to thank my fellow Texan and mentor, Senator John Cornyn 
for being here today. I was honored to serve as his deputy 
attorney general for the State of Texas when he was serving as 
attorney general. It is great to see my colleague in front here 
today.
    Securing our border is about much more than illegal 
immigration. It is about safeguarding this country from 
terrorism, drug cartels, weapons, and human smuggling and 
protecting the free flow of legitimate trade.
    According to a Washington Post/ABC poll 80 percent of 
Americans support stricter border control. For years this 
committee has studied this issue and we recently passed a bill 
that will revolutionize the way we look at border security 
operations. Which is in stark contrast to the border security 
approach seen in the Senate bill.
    It is my understanding, Madam Chairwoman, that this hearing 
today is really designed to contrast and compare what the 
Senate passed on border security and what this committee 
passed.
    As the Senate continues to throw money at our porous 
borders we are taking a new fiscally responsible approach. On 
the surface the Senate's bill appears to increase border 
security by adding more agents, more fencing and more spending. 
But it has no real strategy, no metrics and no requirements. It 
spends $46 billion on arbitrary resources with no plan, which 
is exactly what we have done for years without success.
    The Border Security Results Act takes a page from the 
private sector and demands a strategy before we okay a project 
or its budget, which is a smart, fiscally responsible way to 
secure the border. It demands a plan and metrics first using 
technology fencing and manpower and with input from the Coast 
Guard, Border Patrol, border sheriffs, border governors which 
is all presented to the Congress. The requirements in this bill 
are specific, unlike the border security plan which passed out 
of the Senate. H.R. 1417 requires a 90 percent apprehension 
rate at a minimum with visibility of the entire border to 
finally see what we are missing.
    These requirements are set to a tight but achievable time 
line, demanding a plan first followed by detailed 
implementation structure and finally proven results, all of 
which will be verified by the Government Accountability Office.
    The mandated metrics to show the progress of the plan's 
implementation will be developed by an independent National lab 
with expertise in measuring border security and consultation 
with the border governors and experts on the ground. The 
deadlines in this bill are also clear. It requires DHS to 
achieve operational control of the border and high-traffic 
areas in 2 years and 9 months and the entire Southwest Border 
within 5 years.
    These benchmarks will be checked and validated by the 
Government Accountability Office so that the results cannot be 
manipulated by the Department or the administration. Also the 
major county sheriffs and the Southwest Border sheriffs--who 
know the border implicitly and frankly know the border better 
than Members of Congress--support this legislation because they 
know it will finally tackle border security the right way and 
get results. The right way to do this is clear because history 
shows us where we have gone wrong.
    For decades we have thrown money at the problem as the 
Senate did recently without a plan. In the last 10 years we 
have spent more than $75 billion on the border and the last 
time that GAO checked we had operational control of only 44 
percent, and that is a bad return on our investment.
    The Senate bill continues this misguided approach, 
continuing to throw money at different sectors and sections of 
the border that has led to an ad hoc system where holes in the 
border are temporarily patched up and the problem is shifted 
instead of solved. This is demonstrated by the recent spike 
inflow to my home State of Texas in the Rio Grande Valley 
resulting from increased security measures in other parts of 
the border. The fact is there is no National strategy and 
without a National strategy we will never see lasting progress, 
and for years the administration has bought lumber for the 
house without a blueprint. This has led to wasting billions of 
taxpayer dollars.
    It is now time for a thoughtful and deliberative approach. 
I look forward to hearing from the testimony here today, 
particularly my colleague Senator Cornyn on what the Senate did 
versus what he sees in comparison to the bill passed out of 
this committee, and I know that he will offer unique insights 
into that.
    With that, Madam Chairwoman, I yield back.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman recognizes the Ranking Member for a UC 
request?
    Ms. Jackson Lee. Thank you very much, Madam Chairwoman, and 
I know that you will introduce our witness Mr. Xavier Becerra 
just quickly as I present this UC to be able to acknowledge his 
long legacy in human rights and civil rights and his 
significant contribution to what we all hope will be 
comprehensive immigration reform.
    I am delighted to welcome Chairman Becerra here.
    I ask unanimous consent that Mr. Vela be allowed to sit and 
question the witness at today's hearing and acknowledge my 
other Members who are present here today. I ask unanimous 
consent.
    Mrs. Miller. Without objection. Other Members of the 
committee are reminded that opening statements might be 
submitted for the record and as we said we have a very 
distinguished first panel here.
    Senator John Cornyn is the Ranking Member on the 
Subcommittee on Immigration, Refugees, and Border Security 
under the Senate Judiciary Committee. First elected to the 
Senate in 2002, he previously served in Texas as a district 
judge, a member of the Texas Supreme Court and as was mentioned 
by our Chairman as Texas attorney general very well and very 
professionally and honorably, and I certainly would like to 
note as well that Senator Cornyn offered the Senate companion 
to H.R. 1417.
    Mr. Becerra, Representative Becerra, first elected in 1992, 
represents portions of Los Angeles and currently serves as 
chairman of the House Democratic caucus. He previously served 
in the California legislature and as a deputy attorney general 
as well with the California Department of Justice. The 
committee's full written statements will appear in the record.
    The Chairwoman now recognizes Senator Cornyn for his 
testimony and again we are so appreciative of your attendance 
today, sir.

STATEMENT OF HON. JOHN CORNYN, A UNITED STATES SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Cornyn. Madam Chairwoman, thank you and to the 
Members of the committee and to the Chairman of the full 
committee, my friend Congressman McCaul for the opportunity to 
be here today and talk to you about the contrast between the 
House and the Senate approach to border security.
    Since the border is my backyard along with many of the 
Members of this panel, we believe we understand it and that the 
complexity of the border, it strikes me that so much of what 
emanates from Washington tends to treat this in a simplistic 
fashion which does not recognize the importance of both 
security and legitimate trade and commerce which benefits both 
of our countries on both sides of the border.
    As you know over the last 30 years the Federal Government 
has repeatedly promised the American people that our borders 
would be secured, and every time the Federal Government has 
failed to keep that promise.
    Of course after September 11, 2001, the American people 
became understandably more conscious of border insecurity and 
multiple studies have shown that even since that time that our 
borders have remained porous and were failing to interdict more 
than half of the illicit cross-border traffic.
    Last month much of the Senate debate on immigration reform 
centered around the issue of border security and for good 
reason. I simply believe that the American people will not 
accept the sort of immigration reform that I know the Ranking 
Member has advocated for or any form of immigration reform 
unless we regain their confidence and they actually believe we 
will keep our promises. That is why I believe the House 
approach to border security is so critically important, because 
it does guarantee results. It doesn't just throw money at the 
problem. It doesn't just make promises that will not be kept, 
and we all know they will not be kept. It guarantees border 
security results and thereby begins to regain the public's 
confidence.
    While S. 744 throws more than $46 billion of resources at 
the border, as you said it contains no mechanism to ensure that 
these resources will be effectively or properly implemented, no 
accountability, no guaranteed results, just more hollow 
promises emanating from Washington.
    The vast majority of the $46 billion would be spent hiring 
approximately 18,000 new Border Patrol agents, nearly doubling 
the force at a cost of about $40 billion. But without a 
coherent strategy or metrics to measure results adding this 
many new Border Patrol agents could go down as one of the most 
massive wastes of money in the history of the Federal 
Government.
    Unfortunately S. 744 the Senate bill does not stop there. 
The legislation would also require the Department of Homeland 
Security to purchase billions of dollars of specific equipment 
designated by the Congress with no approved plan or strategy 
for deployment.
    S. 744 has no accountability mechanism to ensure that the 
required equipment is actually integrated to achieve results, 
merely that it is deployed. This is a backwards approach that 
will virtually ensure that billions of taxpayer dollars and 
border security resources are wasted. It locks the Border 
Patrol and the Department into more of the same technologies 
and tactics of today which simply have not worked. Fortunately 
Members of this committee and this panel can get it.
    We need smart and sustainable border security, not more of 
the same wasteful and unaccountable border security contained 
in the Senate bill.
    So what would a smart and sustainable border look like? A 
smart border must start with a comprehensive, flexible, border 
security strategy. A smart border must ensure accountability 
for how this strategy would be implemented with objective 
metrics that tell us exactly how many border crossers there are 
and how much contraband is successfully entering the country. 
No more guessing, no more estimating, and no more cooking the 
books.
    A smart border must obtain full situational awareness 
requiring the Department to deploy cutting-edge surveillance 
technology capable of monitoring traffic at every segment of 
the border. This layered and integrated technology would serve 
as a force multiplier for the Border Patrol ensuring they have 
the capability to observe all cross-border traffic and are able 
to efficiently target their enforcement resources.
    But a smart border must also be holistic. It therefore must 
feature fast and dynamic ports of entry that increase 
legitimate trade and travel while interdicting criminals and 
contraband.
    According to a 2009 study by the University of California 
at San Diego approximately 28 percent of illegal immigrant 
traffic enters the United States through our ports of entry. 
But the reason to focus on our ports do not end there. 
Legitimate cross-border commercial traffic and international 
travelers face significant delays due to inadequate 
infrastructure and personnel at the land ports of our Southern 
Border.
    According to Bloomberg U.S.-Mexico truck trade is 
constrained by border-crossing delays that cost the U.S. 
economy $7.8 billion in 2011 alone. The U.S.-Mexico truck trade 
could reach $463 billion by 2020, a 40 percent rise from $322 
billion in 2012. Reaching that level would put the annual delay 
cost of the U.S. economy at $14.7 billion.
    Robust investment, increased physical infrastructure, 
tactical resources, personnel, and partnerships at our ports of 
entry is imperative. These port of entry investments could grow 
our economy, strengthen our security, and vastly improve public 
safety. In other words, port of entry improvements are the 
linchpin to completing a smart border that is holistic and 
sustainable.
    Regrettably the Senate bill ignored the acute need for 
land-port infrastructure investment, but I hope the House will 
fix that and will not make a similar mistake. The targeted 
investments across all sectors of a smart border will deter 
illegal border traffic and allow our Nation to finally gain 
complete operational control of our borders. Operational 
control of each and every sector of the border is the only 
acceptable outcome and we can only achieve and maintain 
operational control of our borders if they are smart, 
sustainable, and accountable.
    Fortunately there is a solution. Over the last 6 months I 
have been proud to work with my friend Chairman McCaul and the 
Chairwoman of this subcommittee, Chairwoman Miller, to craft 
border security legislation which has enjoyed broad bipartisan 
support from the Homeland Security Committee and hopefully 
across the House.
    The Border Security Results Act of 2013 would require the 
Department of Homeland Security to implement a comprehensive 
border security strategy to achieves that situational awareness 
and operational control and it would guarantee that the 
Department of Homeland Security actually achieves these results 
and doesn't fudge on the numbers for the first time ever 
deploying a set of statistically validated and independently 
verified border security metrics.
    These metrics will objectively measure progress and tell us 
exactly how much illegal traffic is successfully getting across 
the border so resources can be deployed efficiently and 
effectively. No more gains, no more empty promises, but real 
results instead.
    For that reason I was proud to serve as the sponsor of the 
Senate version of the Border Security Results Act and was proud 
to push for adding this approach to S. 744, the Senate-passed 
immigration bill, but unfortunately the Senate didn't see the 
wisdom of that provision.
    As the debate over border security and immigration reform 
continues, I do believe that the efforts of this committee and 
the full committee and the House will focus on the wisdom of 
this approach, and I hope this panel and the full panel will 
continue fighting for the Border Security Results Act and the 
Smart Border approach.
    The American people demand real border security first and 
the Border Security Results Act delivers. I stand ready to help 
you and offer my full support for your efforts.
    [The prepared statement of Senator Cornyn follows:]
               Prepared Statement of Senator John Cornyn
                             July 23, 2013
    I appreciate the opportunity to testify today about one of the most 
pressing National security and human rights challenges of our time--
security at our porous borders. As a United States Senator and former 
Attorney General of Texas, which shares a 1,200-mile border with 
Mexico, I understand the dangerous realities on the ground at the 
Southern Border and the long-term importance of gaining control of our 
borders.
    Over the past 30 years, the Federal Government has repeatedly 
promised the American people that they would secure our borders. And 
every time, they have failed. While security at our Nation's borders 
has improved since the September 11 attacks, multiple studies have 
shown that our borders remain porous and that we are failing to 
interdict more than half of illicit cross-border traffic. Meanwhile, 
international criminal organizations and drug cartels repeatedly 
exploit our borders to deliver drugs, contraband, weapons, laundered 
money, and human trafficking victims. And, as Chairman McCaul 
demonstrated in a report last December, these criminal organizations 
are increasingly aligned with international terrorist organizations 
like Hezbollah. The threat is at our door, and we must neutralize it. 
In other words, it is time for the empty border security promises to 
stop, and for the Federal Government to get serious about delivering 
border security results.
    Last month, much of the Senate debate on immigration reform 
centered around this issue, and for good reason: The American people 
will simply not accept immigration reform unless it guarantees border 
security results. Unfortunately, the Senate-passed immigration bill, S. 
744, fails this test completely. While S. 744 throws more than $46 
billion of resources at the border, it contains absolutely no mechanism 
to ensure that these resources will be effective or properly 
implemented. No accountability, no guaranteed results--just more 
Washington, D.C. promises.
    The vast majority of this $46 billion dollars would be spent hiring 
approximately 18,000 new Border Patrol Agents--nearly doubling the 
force at a cost of about $40 billion to American taxpayers. But without 
a coherent strategy or metrics to ensure results, adding this many new 
Border Patrol Agents could go down as one of the most massive wastes of 
funds in the history of the Federal Government. But S. 744 
unfortunately does not stop there. The legislation would also require 
DHS to purchase billions of dollars of specific equipment--with no 
approved plan or strategy for deployment. And S. 744 has no 
accountability mechanism to ensure that the required equipment is 
actually integrated to achieve results. This is a backwards approach 
that would virtually ensure that billions of taxpayer dollars and 
border security resources are wasted. It locks Border Patrol and DHS 
into more of the same technologies and tactics of today--which simply 
have not worked. Fortunately, the members of this panel get it: We need 
smart and sustainable border security--not more of the same wasteful 
and unaccountable border security in S. 744.
    So what would a smart and sustainable border look like? A smart 
border must start with a comprehensive, flexible border security 
strategy. A smart border must ensure accountability for this strategy 
through objective metrics that tell us exactly how many illegal border 
crossers and how much contraband is successfully entering our country. 
No more guessing, no more estimating, no more cooking the books.
    A smart border must achieve full situational awareness--requiring 
the Department of Homeland Security to deploy cutting-edge surveillance 
technology capable of monitoring traffic at every segment of our 
borders. This layered and integrated technology would serve as a force 
multiplier for the Border Patrol, ensuring that they have capability to 
observe all illicit cross-border traffic and are able to efficiently 
target their enforcement resources.
    But a smart border must also be holistic. It therefore must feature 
fast and dynamic ports of entry that increase legitimate trade and 
travel, while interdicting criminals and contraband. According to a 
2009 study by the University of California at San Diego, approximately 
28 percent of illegal immigrant traffic enters the United States 
through our front door--at ports of entry. But the reasons to focus on 
our ports do not end there. Legitimate cross-border commercial traffic 
and international travelers face significant delays due to inadequate 
infrastructure and personnel at the land ports on the Southern Border. 
According to a Bloomberg Government study, U.S.-Mexico truck trade is 
constrained by border crossing delays that cost the U.S. economy $7.8 
billion in 2011. U.S.-Mexico truck trade could reach $463 billion by 
2020, a 44 percent rise from $322 billion in 2012. Reaching that level 
would put the annual delay cost to the U.S. economy at $14.7 billion. 
Robust investment to increase physical infrastructure, tactical 
resources, personnel, and partnerships at our ports of entry is 
therefore imperative. These port of entry investments would grow our 
economy, strengthen our security, and vastly improve public safety. In 
other words, port of entry improvements are the linchpin to completing 
a smart border that is holistic and sustainable. Regrettably, the 
Senate bill ignored the acute need for land port infrastructure 
investment. I hope the House will not make a similar mistake.
    With targeted investments across all sectors, a smart border will 
deter illegal border traffic and allow our Nation to finally gain 
complete operational control of our borders, which should include an 
apprehension rate of at least 90% for illegal border crossers. 
Operational control of each and every sector of our borders is the only 
acceptable outcome, and we can only achieve and maintain operational 
control if our borders are smart, sustainable, and accountable.
    Fortunately, there is a solution. Over the past 6 months, I have 
been proud to work with Chairman McCaul and Chairwoman Miller to craft 
border security legislation that would finally put our Nation on the 
path to smart and secure borders. The ``Border Security Results Act of 
2013'' would require DHS to implement a comprehensive border security 
strategy that achieves situational awareness and operational control of 
our borders. And it would guarantee that DHS actually achieves these 
results and does not fudge the numbers by, for the first time ever, 
deploying a set of statistically validated and independently verified 
border security metrics. These metrics will objectively measure 
progress and tell us exactly how much illegal traffic is successfully 
crossing our borders. No more games, no more empty promises, real 
results.
    For that reason, I am proud to serve as the sponsor of the Senate 
version of the Border Security Results Act, and was proud to push for 
adding this approach to S. 744, the Senate-passed immigration reform 
bill. Unfortunately, the Senate rejected this approach. As the debate 
over border security and immigration reform continues, I hope that 
members of this panel will continue fighting for the Border Security 
Results Act and the ``smart border'' approach. The American people 
demand real border security first, and the Border Security Results Act 
delivers. I stand ready to help you and offer my full support.

    Senator Cornyn. Madam Chairwoman and in conclusion I would 
just ask consent to make part of the record following my 
remarks a letter from the Border Trade Alliance that supports 
the efforts of this subcommittee and the full committee and the 
Border Security Results Act.
    Mrs. Miller. Without objection that will be entered into 
the record.
    [The information follows:]
                 Letter From the Border Trade Alliance
                                     July 22, 2013.
Hon. Candice Miller,
Chairman, Subcommittee on Border and Maritime Security, 311 Cannon 
        House Office Building, Washington, DC 20515.
Hon. Sheila Jackson Lee,
Ranking Member, Subcommittee on Border and Maritime Security, 2160 
        Rayburn House Office Building, Washington, DC 20515.
    Dear Chairman Miller and Ranking Member Jackson Lee: The Border 
Trade Alliance is pleased that the Subcommittee on Border and Maritime 
Security is holding a hearing on the contrasting approaches to border 
security by the House of Representatives and the Senate. The debate 
over immigration reform offers not only an opportunity to improve 
greatly our nation's immigration system, but also to enhance security 
along our northern and southern borders while strengthening our 
nation's economy through greater trade efficiency.
    Since our founding in 1986, the Border Trade Alliance has been 
committed to advancing public policy solutions that enhance the 
environment for commerce across the U.S.-Canada and U.S.-Mexico 
borders. As a result of our over 25 years in cross-border affairs, we 
have observed the impact of our country's broken immigration system on 
our northern and southern borders. We share your belief and that of 
most of your colleagues that border security must be a central 
component of any immigration reform effort. While the legislation 
recently produced by the Senate offers a good starting point, we 
believe that under your leadership the House can pass a bill that both 
increases border security and improves conditions at our borders, 
specifically at our ports of entry, for legitimate trade and travel.
    The BTA respectfully requests that you consider these guideposts as 
your chamber commences debate on immigration reform:
    Canada and Mexico are our largest trading partners. Our 
relationship with them is an economic asset.--The BTA believes we 
should use this opportunity to improve smartly border security while 
looking for ways to increase our economic ties to our neighbors. 
Recognizing our borders for their economic potential, especially our 
border with Mexico, can help spur that country's economic growth and 
stem the tide of illegal immigration. Close relationships between the 
U.S. government and the governments of Canada and Mexico can also aid 
efforts to better understand who and what is coming across our shared 
borders into the U.S.
    Our lagging border infrastructure hurts our economy and threatens 
our security.--Customs and Border Protection estimates that it would 
cost $6 billion to bring our land border ports of entry, which average 
40 years of age, up to the standards necessary to process today's flows 
of trade and travel efficiently and securely. A recent analysis by 
Bloomberg Government estimates that while recent focus has been placed 
on securing the vast areas between our ports, delays at the ports cost 
the U.S. economy $7.8 billion in 2011. Recalling the maxim that cargo 
at rest is cargo at risk, these delays come with a security price as 
well, as loads are exposed to potential theft and sabotage. Any 
immigration reform bill should also include a plan to modernize our 
ports, which have come to be unfortunately characterized for their 
congestion and miles-long traffic backups.
    The private sector and local governments can aid in improving our 
ports of entry.--The trade community is well aware that, absent a 
sudden windfall of financial resources, a major federal investment in 
our country's outmoded ports is unlikely. However, there are private 
sector and local governmental partners who have available resources 
ready to supplement federal dollars to help improve the efficiency and 
security of our ports of entry. Unfortunately, these partners have been 
stymied over murky regulations governing the General Services 
Administration's and CBP's ability to accept financing from third 
parties. A House immigration reform bill should seek innovative ways to 
improve our nation's land border ports by working with outside 
partners.
    We would urge you to consider S. 178 by Sen. John Cornyn and 
companion House legislation, H.R. 1108, by Homeland Security Chairman 
Rep. Michael McCaul and Rep. Henry Cuellar. The Cross Border Trade 
Enhancement Act of 2013 authorizes the Department of Homeland Security 
and the GSA to enter into agreements with third parties to finance 
increased staff levels and the construction or maintenance of 
infrastructure. We believe this bill provides an excellent starting 
point for crafting a creative method for increasing the involvement of 
the private sector and local governments in the future of our land 
ports.
    Staffing resources are needed, but we must be wise in their 
deployment.--The Senate's immigration overhaul seeks to double the size 
of the Border Patrol to approximately 40,000 agents. While there are 
some Border Patrol sectors that need additional resources, the Senate's 
action only highlights the yawning gap between resources granted to 
securing the borders and those devoted to securing our ports, where the 
Senate bill allocates CBP a paltry 3,500 new officers. More CBP 
officers are in near constant need at our ports, where they perform an 
important dual role of processing legitimate freight and travelers that 
improve our economy, while also interdicting potential illegal 
immigrants, smugglers and others who would seek to do our nation harm.
    The BTA is encouraged that this very necessary debate over 
immigration and border security is underway, but we do not want to lose 
this opportunity to make needed reforms along our borders that would 
both improve our security and our economy. Please count on the BTA as a 
resource to your subcommittee as you begin to craft an immigration 
reform bill.
            Sincerely,
                                         Jesse J. Hereford,
                                                          Chairman.
                                           Noe Garcia, III,
                                                         President.

    Mrs. Miller. Senator, we appreciate very much your 
attendance today. We appreciate your thoughtful comments. We 
appreciate your support of our bill certainly, and I look 
forward to continuing to work with you toward our goal of 
border security in achieving that for this Congress and the 
American people certainly. We understand the time constraints 
that you are under if you need to excuse yourself please feel 
free to do so.
    You are welcome to stay of course, but we do understand and 
thanks again.
    At this time the Chairwoman recognizes Representative 
Becerra. Again, we appreciate your time to come to the 
committee and testify as well on the differences between the 
House's approach and the Senate approach.
    The Chairwoman recognizes Representative Becerra.

STATEMENT OF XAVIER BECERRA, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Becerra. Thank you, Madam Chairwoman, and to Chairman 
McCaul as well and to Ranking Member Jackson Lee. I say thank 
you along with all the Members of the committee, thank you for 
letting me be here today to testify along with Senator Cornyn.
    As Senator Cornyn said there are ways that we can do this 
to make the system work for everyone, whether it is at the 
border or at the workplace. We are dealing every day with the 
lives of American people and those who come to this country to 
live the American Dream.
    As this chamber considers a comprehensive reform to our 
Nation's immigration laws for the first time in almost 30 
years, the public support for doing so has never been stronger. 
The American people overwhelmingly support the creation of a 
functioning immigration system that reflects the values of 
America, principally, the values of fairness and competition, 
and the ability to get things done.
    It ensures that those that are caught up in a broken system 
will have the chance to find a path out. Those who have been 
productive members of the society can come out of the shadows 
and work towards the full responsibilities of citizenship.
    We remember, first of all, that we are a Nation of laws and 
that we are a Nation of immigrants. Balancing these two 
important pillars, the U.S. Congress can once again prove that 
when confronted with challenges, we can be a pragmatic and 
forward-thinking body that resolves any issue the American 
people set before us.
    The architecture for immigration reform in our system must 
be comprehensive. It must be responsive to the ever-changing 
dynamics of the world's economy, to migration patterns, to 
innovation and technology, to ensure that America's 
competitiveness and enduring stature in the world, as well as 
in protecting this Nation against evolving threats continues to 
be our paramount priority.
    Simply fixing one aspect of our immigration system ensures 
that we fall short of making our country stronger economically 
and safer from external threats. Therefore, our task here 
should be to fix the whole immigration system, not merely one 
or two broken parts.
    A true immigration reform solution is about more than 
piecemeal fixes, and improving border security is more than 
examining the sum of its parts. Border security is more than 
enforcement, manpower, assets, infrastructure and technology, 
or resources at our borders. Border security depends on a 
number of factors including bi-national relationships, trade 
agreements, foreign aid, and of course, people.
    Achieving border security today requires us to look beyond 
the obvious, to look beyond fences and boots on the ground, and 
even our own borders. In the 20th Century and today, border 
security and immigration to the United States have been 
inextricably tied, with each impacting the other in various 
ways over time, but always one with the other.
    Border security and immigration reform are not an either/or 
proposition. As we build a better, smarter, more accountable 
and efficient border security system and a strategy as well, we 
cannot ignore its ties to the way in which our immigration laws 
address permanent and temporary visas, the reunification of 
families, our Nation's labor market and employment needs and 
interior enforcement mechanisms. To focus on border security 
without focusing on immigration reform is akin to fixing the 
brakes on a car without fixing the engine. You need both to get 
where you are going.
    Although we have not modernized our immigration laws for 
almost 30 years, in that time, our laws have advanced historic 
and wide-reaching border and interior enforcement measures. The 
U.S. Government today spends more on immigration enforcement--
some $18 billion a year--than it does on all other criminal 
Federal law enforcement combined. That is more than the total 
spending for the FBI, the DEA, Secret Service, U.S. Marshals, 
and ATF together.
    Today, net unauthorized immigration from the Southern 
Border is at a 40-year low. We have met or exceeded the border 
security benchmarks of previous immigration reform proposals so 
that today we have over 21,000 Border Patrol agents, over 
21,000 Customs and Border Protection officers, hundreds of 
video surveillance systems, at least nine unmanned aerial 
vehicles and more fencing, barriers, towers, technology and 
other assets than at any time ever before in our Nation's 
history.
    While security and enforcement between our Southern Borders 
and their ports of entry has dramatically improved, the 
security at those ports has faltered. Unauthorized entries are 
now less likely to occur between our southern land ports of 
entry and more likely to occur through those very ports of 
entry, or as a result of legal entries at airports of entry 
that result in visa overstays.
    However, devoting the bulk of resources on apprehending 
desert crossers has limited much-needed resources to prevent 
trafficking of humans, narcotics, currency, and counterfeit 
goods through our ports of entry. The greatest border security 
threat we face today come from Transnational Criminal 
Organizations, not economic migrants crossing the desert.
    Spending on border enforcement between the ports of entry 
has created an imbalance in resources at ports of entry to the 
detriment of our economy. Six million U.S. jobs depend on $500 
billion in yearly cross-border trade with Mexico; 37 of our 50 
States rely on Canada as their largest export market.
    Insufficient resources at ports mean excessive delays for 
commuters, tourists, and merchants and $6 billion in lost 
economic output. Increased border enforcement has had 
extraordinary impact on local communities along our borders. 
Nearly two out of three Americans live within 100 miles of a 
land or coastal border. That is some 200 million people. More 
enforcement on its own will not solve our immigration problems. 
What we need is better, smarter, and more effective border 
enforcement, combined with broad, broader immigration law 
reforms.
    S. 744 was evidence that reaching a bipartisan solution on 
comprehensive immigration reform is entirely within our 
capabilities. I was pleased to see balanced reforms relating to 
permanent and temporary visa programs, family-based and 
employment-based immigration, a worker verification system with 
strong due process provisions, and a workable path to 
citizenship. However, the border security provisions were put 
on steroids and are evidence that more is not a substitute for 
better.
    Building a smarter, more accountable and efficient system 
is imperative. Border security proposals must be agile and 
adaptable to real-time intelligence and on-the-ground needs, to 
changing technologies, operational capabilities and resources, 
to analytical and cognitive criteria, and to stronger 
transparency and accountability and oversight measures, 
something that I think the House bill that came through this 
committee or is working its way through the House to this 
committee is something that we can take a close look at.
    The use of metrics and performance measures in assessing 
and determining whether or not our borders are secure are 
important elements of an overall picture of security and 
effectiveness. Metrics can and should be instructive; however, 
it is unclear whether they are dispositive. Reliance on static 
or fixed metrics alone as absolute evidence of security 
achieved is illusory.
    Data cannot always capture or measure the impact of factors 
which contribute to a complete picture of border security such 
as economic fluctuations, quality of life, intelligence 
gathering, and other cognitive reasoning. Real-time enforcement 
requires agility, flexibility, and responsiveness to an ever-
changing landscape of threats and risk assessments.
    We have seen the ways in which inflexibility in lawmaking 
can lead to perverse incentives and unwanted or hazardous 
results for security and law enforcement, despite our best 
intentions and planning.
    So, Madam Chairwoman, as we consider in the House what we 
do on immigration reform, I think we want to make sure that 
what we are doing is being smart, we are being transparent, and 
we are using the best evidence from the best minds of those on 
the ground to help us move forward with a fix of our border 
security and the entire immigration system.
    Because I think most of us understand that if we get this 
done this year, it won't just be for the good of our National 
security. It will be for the good of our economy and it will 
finally set us on a course of being a country that is, as we 
said before, a Nation of laws but also a Nation of immigrants.
    So I thank you very much for giving me an opportunity to 
come before you today, and I look forward to working with all 
of my colleagues on trying to get to yes in doing a 
comprehensive fix on our broken immigration system.
    [The prepared statement of Representative Becerra follows:]
               Prepared Statement of Hon. Xavier Becerra
                             July 23, 2013
    Good morning and thank you, Chairwoman Miller, and Ranking Member 
Jackson Lee for the opportunity to testify before the subcommittee 
today on approaches to border security. With the recent passage of a 
comprehensive and bipartisan immigration reform bill by the U.S. 
Senate, this hearing is timely.
    As this chamber considers a comprehensive reform of our Nation's 
immigration laws for the first time in almost 30 years, the public 
support for doing so has never been stronger. The American people 
overwhelmingly support the creation of a functioning immigration system 
that reflects our American values of fairness, and ensures that those 
caught up in a broken system over the last several decades, who have 
been productive members of our society can come out of the shadows and 
work towards the full responsibilities of citizenship.
    We are a Nation of laws and a Nation of immigrants. Balancing these 
two important pillars, the U.S. Congress can once again prove that when 
confronted with challenges, we can be a pragmatic and forward-thinking 
body that resolves any issue the American people set before us and 
which reflects our best interests and values as Americans.
    As Congress moves forward, the architecture of the immigration 
system must be one that is comprehensive and built to last. Therefore, 
it must be responsive to the ever-changing dynamics of the world's 
economy, migration patterns, innovation, and technology to ensure 
America's competitiveness and enduring status in the world, as well as 
protecting this Nation against evolving threats. Simply fixing one 
aspect of our immigration system ensures that we will fall short of 
making our country stronger economically and safer from external 
threats. Therefore, our task should be to fix the whole immigration 
system, not merely one or two parts.
    Just as a true immigration reform solution is comprehensive and 
about more than piecemeal fixes, improving border security is more than 
examining the sum of its parts. It is more than enforcement, manpower, 
assets, infrastructure, and technology at our borders. Border security 
depends on a number of factors including bi-national relationships, 
trade agreements, foreign aid, commercial goods and, of course, people. 
Achieving border security today requires us to look beyond the obvious, 
to look beyond fences, boots on the ground, and even our own borders, 
in order to accomplish lasting and better border security.
    For the better part of the 20th Century and today, border security 
and immigration to the United States have been inextricably tied, with 
each impacting the other in various ways over time, but always one with 
the other. Border security and immigration reform are not an ``either/
or'' proposition.
    As we build a better, smarter, more accountable and efficient 
border security strategy and system, we cannot ignore its ties to the 
way in which our immigration laws address permanent and temporary 
visas, the reunification of families, our Nation's labor market and 
employment needs and interior enforcement mechanisms. To focus on one 
without focusing on the other is akin to fixing the brakes on a car 
without fixing the engine: You need both to get where you're going.
    And although we have not modernized our immigration laws for almost 
30 years, in that time, our laws have advanced historic and wide-
reaching border and interior enforcement measures. The U.S. Government 
today spends more on immigration enforcement--$18 billion a year--than 
it does on all other criminal Federal law enforcement combined. That is 
almost a quarter more than total spending for the FBI, DEA, Secret 
Service, U.S. Marshals, and ATF.
    This surge in resources spent at the border continues today with 
diminishing returns. Lawmakers continue to pour increasing resources to 
prevent unauthorized immigration even though net unauthorized 
immigration from the Southern Border is at a 40-year low. We have met 
or exceeded the border security ``benchmarks'' of previous immigration 
reform proposals so that today we have a force of over 21,000 Border 
Patrol agents, over 21,000 Customs and Border Protection Officers, 
hundreds of video surveillance systems, at least 9 unmanned aerial 
vehicles and more fencing, barriers, towers, technology and other 
assets than at any time ever before in our Nation's history.
    While security and enforcement in the desert between our southern 
land ports of entry has dramatically improved, the same cannot be said 
for security at those ports of entry where millions of goods and people 
cross every day. As border enforcement has increased over the last 
several decades, unauthorized entries and contraband are now less 
likely to occur between our Southern Border ports of entry and more 
likely to occur through our land ports of entry, or as the result of 
legal entries at air ports of entry that result in visa overstays.
    However, focusing the bulk of resources on apprehending 
unauthorized desert crossers has come at the cost of resources to 
prevent trafficking of humans, narcotics, currency, and counterfeit 
goods through our ports of entry. The greatest border security threats 
we face today come from Transnational Criminal Organizations (TCOs), 
not economic migrants crossing the desert.
    In addition, spending on border enforcement between the ports of 
entry has created an imbalance in resources at ports of entry to the 
detriment of our economy. Today, 6 million U.S. jobs depend on the $500 
billion in yearly cross-border trade between the United States and 
Mexico. Currently, 37 of our 50 States rely on Canada as their largest 
export market. Insufficient resources at ports of entry result in 
excessive delays for commuters, tourists, and merchants and 
approximately $6 billion in lost economic output.
    Finally, I would be remiss if I did not mention the extraordinary 
impact that increased border enforcement has had on local communities 
along all our borders. Nearly 2 out of 3 Americans live, and nine of 
the top ten largest metropolitan areas are located, within 100 miles of 
a land or coastal border (approximately 197.4 million people).
    At the Southern Border, the rapid ramp-up in border enforcement 
over the last 2 decades has resulted in the division of cross-border 
communities, in security measures that have ignored the culture, voice, 
and input of border residents, increased cases of Border Patrol and CBP 
abuse and corruption, civil rights violations, in more migrant deaths, 
and a militarized border.
    Given the muscular enforcement landscape at the Southern Border, 
the evolution of modern threats, our current economic and security 
needs, and the impact of enforcement on border communities, it begs the 
question of why we are still focused on yester-year responses to the 
exclusion of modern common-sense security measures. More enforcement on 
its own will not solve our immigration problems; just as no laws can 
negate the laws of supply and demand, or the human drive to survive. 
What we need is better, smarter, and more effective border enforcement 
combined with broader immigration law reforms that strengthen our 
economy and Nation.
    The Senate's recent passage of S. 744 the ``Border Security, 
Economic Opportunity, and Immigration Modernization Act,'' was evidence 
that reaching a bipartisan solution on a comprehensive immigration 
reform bill is entirely within our capabilities as legislators. I was 
pleased to see balanced reforms related to permanent and temporary visa 
programs, improvements to family-based and employment-based 
immigration, a worker verification system with strong due process 
provisions and a workable path to citizenship. However, the border 
security provisions were a tone-deaf response to the realities of our 
current state of border security and evidence that ``more'' is not a 
substitute for ``better.''
    I look forward to hearing testimony from today's witnesses on S. 
744, the Senate's comprehensive fix to our broken immigration system 
and H.R. 1417 the Border Security Results Act of 2013. We need a debate 
that takes into consideration previous border security efforts, and in 
the words of Chairwoman Miller ``what a secure border looks like, how 
we get there and how to accurately measure progress and results.'' I 
hope that as we seek to define border security that we acknowledge that 
any legislative measure cannot be a one-size-fits all policy and must 
reflect the diversity and complexity of our borders.
    Building a smarter, more accountable, and efficient way to enforce 
and better secure our border is imperative. Any border security 
proposal must be agile and adaptable to: Real-time intelligence, on-
the-ground needs, changing technologies, operational capabilities and 
resources, analytical and cognitive criteria, and strong transparency, 
accountability, and oversight measures.
    The use of metrics and performance measures in assessing and 
determining whether or not our borders are secure are important 
elements of an overall picture of security and effectiveness. Metrics 
can and should be instructive; however, it is unclear whether they are 
dispositive. Reliance on static or fixed metrics alone as absolute 
evidence of security achieved is illusory.
    It ignores an ever-changing border landscape and does not properly 
account for its effect on international and domestic economies, 
quality-of-life in border communities, the true security of 
communities, the frequency and severity of local criminal activity, 
changes in international land, air, and sea travel and commercial 
operation volumes, and other measures, outcomes, and cognitive 
reasoning that cannot always be truly captured by data.
    In addition, real-time law enforcement requires agility, 
flexibility, and responsiveness to an ever-changing landscape of 
threats and risk-assessments. To hamstring our law enforcement to an 
inflexible metric ignores the nature of law enforcement. We have seen 
the ways in which inflexibility in lawmaking can lead to perverse 
incentives and unwanted or hazardous results for security and law 
enforcement, despite our best intentions and planning.
    Legislative proposals which seek to tie border enforcement to the 
fate of those who would come forward and register for any legalization 
program are of great concern to me. To strive towards achieving the 
highest level of security and effectiveness at our borders is rational 
and reflects our mutual desires as Americans to achieve the best when 
it comes to securing our Nation. But the idea that we would condition 
the fate of 11 million people--who meet all of the rigorous 
legalization requirements that we ask of them--on a trigger linked to 
achieving a fixed border security metric is irrational.
    Any legalization program will ask the undocumented to come out of 
the shadows, undergo background checks, pay taxes, and learn our 
language. It will require them to demonstrate personal responsibility. 
To punish them from adjusting their status based on bureaucratic 
malfunctions or short-comings over which they had no control--even when 
they have met their personal responsibilities--is not consistent with 
our values of justice and fair dealing. To return to the car analogy I 
used earlier, to penalize the safe driver for the manufacturer's defect 
or failure makes no sense.
    We need to fix all the parts of our broken immigration system, but 
what kind of border security measures do we need? We need measures: (1) 
That are responsive to a morphing security environment; (2) that 
promote the robust economic engine of cross-border trade; (3) that 
restore parity to our commercial and security operations by investing 
in ports of entry; (4) that add manpower where we need it, such as 
Customs and Border Protection Officers at land, air, and sea ports or 
Homeland Security Investigators for worksite and visa overstay 
enforcement; (5) that address the most urgent security threats such as 
those posed by transnational organized crime; (6) that consult with 
border communities in developing local and sector-specific solutions; 
(7) that are transparent and fiscally accountable; (8) that promote a 
culture of ethics and integrity; and (9) that protect civil and 
Constitutional rights.
    In conclusion, I thank this subcommittee for its work on the 
important issues related to the security of all our Nation's borders. 
Today's hearing is more critical than ever and as Members of Congress 
we must rise to meet the challenge and the opportunity that the 
American people have placed before us. I am optimistic that we can get 
to a bipartisan solution on a comprehensive fix to our broken 
immigration system that includes a path to citizenship for the 11 
million undocumented individuals within our borders. I look forward to 
working with this committee as we move forward towards a solution that 
respects our values and history as a Nation of immigrants and a Nation 
of laws.

    Mrs. Miller. Thank you very much, Representative. We 
certainly appreciate your testimony and your thoughtful 
comments as well. I appreciate your time here and your 
attendance.
    Mr. Becerra. Thank you.
    Mrs. Miller. At this time, this panel is dismissed, and the 
clerk will prepare the witness table for our second panel, 
which we will take a 1-minute recess here.
    [Recess.]
    Mrs. Miller. The committee will come back to order. Our 
second panel, Mr. Jayson Ahern is retired as the acting 
commissioner of the United States Customs and Border 
Protection, CBP, after service to the country for 33 years. 
While acting commissioner, Mr. Ahern was responsible for the 
daily operations of CBP's 58,000 employee workforce as well as 
managing an operating budget of over $11 billion.
    Mr. Edward Alden is the Bernard L. Schwartz senior felllow 
at the Council on Foreign Relations specializing in U.S. 
economic competiveness, immigration and visa policy, and on 
U.S. trade and international economic policy. Mr. Alden, along 
with two of his colleagues, recently authored a publication 
titled, ``Managing Illegal Immigration to the United States.''
    Mr. Richard Stana--who has been in front of this committee 
many times--we welcome him back. He retired in 2011 of December 
as director of homeland security and justice issues at the U.S. 
GAO. For the 14 years prior to his retirement, he directed 
GAO's work relating to immigration and border security issues. 
An interesting note, he also testified before Congress 65 
times. I am not sure what that is indicative of, but we 
certainly appreciate that. You certainly are a wealth of 
information; currently, a faculty member at the Graduate School 
USA.
    The witnesses' full written statements will appear in the 
record. The Chairwoman recognizes Mr. Ahern for his testimony. 
We certainly thank all the witnesses again for your attendance.

    STATEMENT OF JAYSON P. AHERN, PRINCIPAL, CHERTOFF GROUP

    Mr. Ahern. Great. Thank you very much, Madam Chairwoman. I 
know Chairman McCaul who likely will be back, also Ranking 
Member Jackson Lee. Thank you very much for the opportunity to 
testify today, albeit in a different capacity from the many 
times I was before this committee while serving in many careers 
in Government.
    The efforts of this committee are critically important in 
advancing the dialogue of how we can improve the level of 
security at our borders, is just one key component of a 
critical National strategy, and also one that really does 
enhance the mission of securing and protecting the homeland. 
But I think it is important to state for the record that while 
I am here in my personal capacity today, that I am a principal 
of the Chertoff Group, a global risk management and security 
firm.
    Before addressing some of the specific approaches to 
achieving a higher level of border security, I would like to 
offer my perspective on this matter. It is from the view that 
when we need to look at securing our borders, we need to take a 
look at the air, land, and sea very critically and in a much 
more comprehensive way.
    Too often, the focus has just on the southwest land border 
and more specifically between authorized ports of entry. There 
is not always sufficient attention on the ports themselves. 
This subcommittee is well aware of the current environment and 
the challenges facing U.S. Customs and Border Protection today, 
and as you all know, the agency is responsible for patrolling 
over 7,000 miles of land border and 95,000 miles of coastal 
border.
    At our Nation's ports of entry, CBP interacts with 350 
million travelers in an annual basis and also $2.3 trillion in 
cargo. But, comingled in with that legitimate travel and trade, 
there is a significant amount of criminal activity that gets 
discovered every day and more emerges as we continue to 
strengthen our posture between ports of entry.
    In the last year, CBP Officers arrested 7,700 critically 
violent individuals for serious criminal activity coming 
across. Also there was 145,000 individuals who were determined 
to be inadmissible trying to gain entry through the ports of 
entry. I think in my view, those numbers need to be included in 
the overall calculus when you take a look at between the ports 
of entry during that same period of time, there was 365,000 
apprehensions by the Border Patrol.
    To achieve the level of control that we have today, our 
Government has actually deployed historic levels of increased 
personnel, as well as infrastructure, and some technology. As 
was stated by the previous panel, 21,000 Border Patrol agents 
today are accountable for protecting both the Northern and the 
Southern Borders.
    In 2003, there was just over 10,000, and I would certainly 
posit that the benefit has been realized by the additional 
personnel. However, as we take a look, we need to take a look 
at the other two legs of that three-legged stool. 
Infrastructure, putting the fence, 651 miles of fence on the 
border has actually diminished the threat and greatly mitigated 
what was previously a very open and porous border where we had 
significant amounts of drive-throughs coming across. It 
actually resulted in serious incursions on the border, that 
also resulted in death of our personnel that were trying to 
perform their law enforcement duty. That has been a positive 
change.
    CBPs situational awareness has also been improved due to 
historic levels of technology that has been deployed. Unmanned 
Aircraft Systems are now patrolling our borders routinely and 
are complemented by other ground and truck and other mobile 
surveillance systems that actually increase the capability of 
our front-line personnel to detect and identify more threats as 
they approach the border, but also increase the probability of 
their apprehension.
    While there is certainly more that needs to be done, I 
think it is important to reflect back on the positive things 
that have occurred. But we need to also take a look at the 
ever-changing threat landscape and be prepared not only to 
where the threat is today but anticipate where it will shift in 
the coming months and years to come.
    As we craft strategies or legislation, we need to be 
looking and forecasting where that threat would be in the 
period of time that is in our future versus reflecting back on 
what the current threats are today.
    As we take a look at the critical points of responses, 
doubling the size of the Border Patrol that was suggested in 
one of the versions of the Senate bill, from my experience, I 
will be happy to talk about more of this during some of the 
questions. Before we look at just arbitrarily doubling the size 
of the Border Patrol, I think we need to thoughtfully consider 
how the current level of personnel is being utilized and 
deployed correctly against today's threat, and has there been 
utilization of the resource we have today, versus just asking 
for more or putting more into legislation.
    Again, it is moving those resources against the threat 
versus, you know, where just domains be it land or sea or air. 
I think there also needs to be a further analysis done based on 
some of the very thoughtful resource allocation models that 
have been put together.
    But what are the actual law enforcement positions that are 
needed? It seems to be oftentimes very fashionable to just say 
let's just double the size of the Border Patrol. But I can tell 
you from experience, there was not enough resources put into 
DHS and CBP specifically for pilots to fly the aircraft or boat 
commanders to be able to man the boats that actually are out 
there in the maritime domain, for the threat we are now seeing 
on the Pacific Coast, particularly as we have seen that ship. 
So just we need to thoughtfully consider what positions are 
needed going forward as well as CBP officers at the ports of 
entry; as we have seen this funneling at the port it is 
important to consider what actually is needed for addressing 
the ever-changing threat.
    Miles of fence, we can talk about that, how the mile-by-
mile analysis was done before we just add more and I certainly 
would be happy to talk about some of the strategies there about 
tearing down existing fence and putting new fence in place, but 
also in metrics.
    I would be happy to talk about that a little bit further as 
well to make sure that we really understand what we are asking 
for here. The metric of looking at, ``What is the apprehension 
rate?''--I have spent across four decades of time beginning in 
my career in the 1970s and we have looked at this whether it 
would be for apprehensions or for drug interdiction, what 
actually have caught against the universe and what actually is 
coming through.
    I think there has been new improved methodology and there 
have been many individuals inside and outside of Government 
looking at this. But I think other third-party indicators, 
other smuggling metrics, things of that nature, as well as 
economic indicators are a key that need to be looked at going 
forward.
    I think one last thing and I know that I am at my time, as 
we look at what actually causes the illegal flow of people 
coming across the border, it is crime 101--opportunity, 
opportunity to work in the United States for many of the 
economic migrants is what is that magnet.
    I think as we take a look at any comprehensive border 
strategy, we need to take a look at that and mandating a 
program like E-Verify that would actually go ahead and require 
people to go ahead and enroll their eligibility to work in the 
United States, in my experience, would go ahead and diminish 
the flow that we actually see at the border so that our front-
line personnel can go ahead and focus much more on 
transnational criminal organizations.
    So I will stop at that point and I look forward to taking 
any questions.
    [The prepared statement of Mr. Ahern follows:]
                 Prepared Statement of Jayson P. Ahern
                             July 23, 2013
    I want to thank Chairman McCaul, Ranking Member Thompson, Chairman 
Miller, Ranking Member Jackson Lee, and other distinguished Members of 
the committee and subcommittee for inviting me to testify before this 
committee again, albeit in a different capacity from the many times I 
came before you while serving in Government. The effort of this 
committee is critically important in advancing the dialogue on how we 
can continue to improve the level of security of our borders as just 
one critical component of a comprehensive strategy and one that 
enhances the protection of our homeland. I want to state clearly that I 
am submitting this statement for the record in my personal capacity, 
although, for the record, I am a principal of The Chertoff Group, a 
global security and risk management firm that provides strategic 
advisory services on a wide range of security matters, including border 
security.
    Before addressing some of the specific approaches to achieving a 
higher level of border security, I would like to offer how I view this 
matter. It is from the perspective that we need to look at how to 
secure to our borders more holistically. Too often the focus is just on 
the Southwest land border and more specifically between authorized 
Ports of Entry (POE) but there not always is sufficient attention 
focused on the ports themselves. This subcommittee is well aware of the 
current environment and challenges facing U.S. Customs and Border 
Protection. As you know, the agency is responsible daily for patrolling 
and providing security for over 7,000 miles of land borders and 95,000 
miles of coastal shoreline. At our Nation's Ports of Entry, CBP 
interacts with 350 million travelers entering the United States, along 
with screening $2.3 trillion in cargo; but, comingled in with that 
legitimate travel and trade, there is a significant amount of criminal 
activity that gets discovered every day and more emerges as we continue 
to strengthen our posture between POEs. In the last year, CBP Officers 
arrested 7,700 people wanted for violent crimes along the border and 
prevented 145,000 inadmissible aliens from entering the United States. 
Let me just pause on that for a moment, and offer that is a number that 
we need to monitor more closely as we determine levels of control or 
security of our borders. Further, in my view it also needs to be 
included in the calculus as we measure effectiveness and not just focus 
on apprehensions by CBP between the POEs, which during the same period 
was just under 365,000.
    To achieve the level of control that we have today, and since the 
creation of the Department of Homeland Security, our Government has 
deployed historic levels of increased personnel, infrastructure, and 
technology. Border Patrol personnel are at the highest level in 
history. Currently, over 21,000 Border Patrol Agents are accountable 
for protecting both the Northern and Southern Borders. In 2003, there 
was just over 10,000 agents, and, I would posit, the benefit has been 
realized by this much-needed increase in personnel. For infrastructure, 
CBP personnel are supported by 651 miles of fencing that has greatly 
mitigated the threat of vehicle drive-throughs that once happened with 
great frequency in very porous parts of the Southwest Border. Tactical 
roads have been constructed and complemented with high-intensity 
lighting so that our agents are able to extend patrols to remote areas 
and do so in a more effective fashion than before and thereby 
increasing officer safety. CBPs situational awareness has also been 
greatly improved due to historic levels of technology successfully 
deployed. Unmanned Aircraft Systems (UASs) now routinely patrol our 
border and are complemented by a wide range of other ground, truck, or 
tower-mounted sensors so that CBP personnel are more adept at being to 
detect and identify more threats as they approach our border and also, 
increase the probability apprehension of people looking to enter 
illegally or those smuggling contraband across our borders.
    Although the border is more secure than it has ever been in recent 
history, none of us are satisfied, as we recognize that there is much 
more that needs to be done in order to achieve a comprehensive border 
security plan. We need to address the changing threat landscape and be 
prepared not only for where the threat is today, but anticipate where 
it will shift in the coming months and years. It goes without saying 
that our adversaries are constantly adapting and adjusting to our 
strategies so the U.S. Government needs to be as flexible and 
convertible in our response to the ever-changing patterns of smuggling. 
As the House and the Senate consider approaches to border security, I 
would respectfully advise that this point needs to be carefully 
considered as we make the wisest investment decisions we possibly can 
with the shrinking budget dollars available. It is not about mandating 
response requirements based on today's threat, but more about a risk 
environment that is always changing.
    For example, the most recent Senate bill authorized doubling the 
current number of Border Patrol Agents. From my experience, a more 
prudent first step would be to evaluate how the current deployment of 
personnel is being utilized, and determine, through a review of well-
established resource allocation models, how to reassign agents to where 
the threat has moved versus what appears to be arbitrary increases. 
Further, while in the end there will likely be the need for some 
marginal increases in Border Patrol Agents, other critical law 
enforcement positions need to be thoughtfully considered such as: CBP 
Officers to address the increased threat at the POEs, pilots to fly 
planes and personnel to captain the boats to address the shifting 
threat into the maritime domain. Another reason to study personnel 
needs very closely is that resources are an expensive and a long-term 
commitment. Finally, it would be my recommendation that as personnel 
needs are identified, and as Congress considers resources for border 
security, the Executive branch of government be given the latitude to 
make the determination of where personnel are to be stationed and also 
determine which types of positions are most needed to respond most 
effectively to a shifting threat environment.
    The Senate bill also provides for the construction of additional 
fencing. As with resources, here too is another area where thoughtful 
consideration is required to fully determine what is actually needed. 
In preparation for the ``Secure Fencing Act of 2006,'' a meticulous 
mile-by-mile survey was conducted to ascertain whether adding fencing 
would be a useful addition to the security landscape and, an analysis 
of alternatives (more personnel or technology) included to determine 
how best to address the threat. Tactical fence effectively deters, 
stops, or slows the ability of unauthorized entry across the border and 
the result of the study in 2006 was a subsequent proposal to build 651 
miles of fence. Before allowing additional fencing to be built, it 
makes sense to follow that same mile-by-mile analysis today to ensure 
that it is the best use of resources or consider more investment in 
technology that is perhaps more transportable and able to be relocated 
against our shifting threat.
    At this time, legislation has also been proposed that supports the 
inclusion of a metric to gauge visibility and control of the border by 
quantifying apprehensions into a percentage demonstrating 
effectiveness. The proposed formula suggests that border security 
success can be measured by the number of apprehensions divided by the 
total number of illegal crossings into the United States. As I can 
attest, across the 4 decades I spent in Government, there have been 
numerous studies inside and outside of Government commissioned to try 
and determine the ``flow'' or ``getaway'' rates, all of which have not 
succeeded. At least to this point in time, there is no proven 
methodology to definitively know how many illegal migrants successfully 
entered the United States. Regardless, the aforementioned apprehensions 
will still be a critical measure but other metrics need to be 
considered such as: Intelligence indicators, displacing current 
patterns of smuggling, local border crime rates, and other relevant 
third-party measures. However, while this is being debated we should 
stipulate that while more needs to be done to increase security at our 
borders, it should not be a barrier to producing a comprehensive bill.
    Another important aspect of border security may not be as obvious 
and in this case, it is important to address what motivates illegal 
immigration. Many illegal migrants come to the United States to find 
employment and there is currently no system in place to deter their 
hiring. A successful immigration bill must include a mandatory E-Verify 
program. Not only would this decrease the flow of people coming to the 
United States illegally, it would also allow border agents to focus on 
more serious criminal and smuggling organizations. In addition, it will 
drive more effective employment eligibility compliance by employers and 
help ICE concentrate its finite resources on those who deliberately 
disregard the law. If a mandatory program is implemented, it should be 
done in a thoughtful manner with an emphasis on accuracy and real-time 
updating. If implemented correctly, it will help target investigations, 
deter illegal employment at the employer and employee level and, I 
submit, will reduce the illegal flow of economic migrants.
    Thank you again for the opportunity to contribute my personal views 
on such an important topic. I look forward to answering your questions 
at this time.

    Mrs. Miller. Well, I thank the gentleman for his testimony. 
We look forward to the question period.
    At this time, the Chairwoman recognizes Mr. Alden for his 
testimony.

 STATEMENT OF EDWARD ALDEN, BERNARD L. SCHWARTZ SENIOR FELLOW, 
                  COUNCIL ON FOREIGN RELATIONS

    Mr. Alden. Thank you very much, Madam Chairwoman and the 
distinguished Members of the subcommittee for the opportunity 
to testify.
    My testimony today is drawn largely from research that we 
have done over the past year with two distinguished economists, 
Bryan Roberts and John Whitley, for the recent Council on 
Foreign Relations paper you mentioned, ``Managing Illegal 
Immigration: How Effective is Enforcement?''
    Dr. Whitley is a senior fellow at the Institute for Defense 
Analyses and was the former director of the Office of Program 
Analysis and Evaluation at DHS.
    Dr. Roberts, who is with me here today, is senior economist 
at Econometrica, formerly assistant director of borders and 
immigration at PA&E.
    I am the author of the 2008 book, ``The Closing of the 
American Border,'' which examined U.S. efforts to strengthen 
border security in the aftermath of 9/11, and I was also the 
project director for the 2009 CFR, Independent Task Force on 
U.S. Immigration Policy.
    I have four points.
    First, U.S. border enforcement has become increasingly 
effective, and there is little question that entering the 
United States illegally across the land borders is far more 
difficult and dangerous than ever before. The U.S. Government 
is now 2 decades into an ambitious border build-up that is 
clearly producing results in terms of deterring illegal entry 
and apprehending a greater percentage of those who try.
    Second, the current challenge is one of improving 
effectiveness rather than simply increasing resources. For many 
years the U.S. Border Patrol was badly under-resourced, but 
that is no longer the case. While additional resources may 
indeed be needed, the focus should be on producing results 
rather than simply increasing inputs.
    Third, the metrics for assessing progress need to be 
improved. DHS has made a significant strategic error in failing 
to develop, share, and publicize better performance measures 
for border security. Congress has an opportunity to rectify 
that error.
    Finally, the U.S. Government has many tools for 
discouraging illegal immigration. Better workplace enforcement, 
tracking of visa overstays, and larger and more flexible legal 
entry programs for lower skilled immigrants are all likely to 
do more to reduce future illegal inflows than additional 
investments in border enforcement.
    Illegal entry has fallen sharply over the past decade and 
the U.S. Border Patrol has become better at apprehending those 
who try to enter. Our research used several methodologies for 
calculating apprehension rates for illegal border crossers 
between the ports of entry and the number of successfully 
illegal entries.
    Each of these methods showed a significant increase in the 
probability of apprehension over the past decade and a 
significant decline in the number of illegal entries. While the 
trends are positive, it is difficult to assess the precise 
contribution of border enforcement to reducing illegal inflows.
    The deep U.S. recession and the slow recovery would have 
reduced illegal migration regardless of increased enforcement. 
The most recent research suggests that the great recession, 
improvements in the Mexican economy, and border enforcement 
intensification each accounted for about one-third of the 
decrease.
    How much more can be done through border enforcement?
    As I said, the Border Patrol was underfunded for many years 
and was incapable of responding to the surge in illegal 
migration that we saw beginning in the mid-1960s. In response 
to rising complaints from border States, mainly California and 
Texas, we saw that change in the mid-1990s and there have 
indeed, as we have discussed, been big increases in the number 
of agents and appropriations for border enforcement.
    S. 744 would authorize another near doubling of Border 
Patrol agents, hundreds of miles of new pedestrian fencing, and 
much greater surveillance capabilities at a cost of some $46 
billion.
    While additional surveillance would be welcome, this huge 
addition of resources is not one envisioned by current Border 
Patrol strategic plans. Inputs are also a poor proxy for 
effectiveness. More Government spending is not a measure of 
accomplishment. The Government Performance and Results Act and 
it is in the Modernization Act of that act in 2010 seeks to 
make Federal agencies more accountable for results, in part 
through reporting performance measures.
    The failure by DHS to provide those performance measures 
has made it extremely difficult for Congress to assess progress 
towards key border security goals and to set realistic 
performance goals for the future.
    Congress needs to work with the Border Patrol, with Customs 
and Border Protection officials to improve data collection and 
performance reporting and to strengthen enforcement outcomes. 
H.R. 1417 has a number of positive measures including 
requirements that DHS implement a comprehensive set of metrics 
for measuring security, at and in between ports of entry, 
including effectiveness rates for illegal migration and drug 
seizures. The legislation also calls for external evaluation of 
metrics and progress.
    Finally, to conclude, border enforcement--and this 
reinforces Commissioner Ahern's points--border enforcement 
cannot be looked at in isolation. The decision to migrate 
illegally is a result of many factors including the likelihood 
of finding employment at a higher wage, greater security, 
reunification with family, and the lack of legal immigration or 
temporary work alternatives.
    Stronger border enforcement is only one of many factors 
that may deter a migrant from attempting illegal entry and 
probably not the most significant one. Larger legal programs 
would likely reduce illegal immigration and so, too, 
discouraging employers from hiring unauthorized workers would 
reduce the incentive to migrate illegally.
    Any decision to increase border enforcement should be 
weighed against other alternatives for reducing illegal 
immigration. In a major 2009 study, for instance, Stanford's 
Lawrence Wein and his colleagues suggested that additional 
workplace enforcement was likely at this point to be about 
twice as effective as additional border enforcement in 
deterring future illegal migration.
    I thank you and I would be happy to respond to your 
questions.
    [The prepared statement of Mr. Alden follows:]
                   Prepared Statement of Edward Alden
                             July 23, 2013
    I want to thank Chairman Miller, Ranking Member Jackson Lee, and 
the distinguished Members of the subcommittee for the opportunity to 
testify today on this very important topic.
    The testimony that follows is drawn largely from research I have 
been conducting over the past year with two distinguished economists, 
Bryan Roberts and John Whitley, for a recent Council on Foreign 
Relations paper entitled Managing Illegal Immigration to the United 
States: How Effective is Enforcement? Dr. Whitley is a senior fellow at 
the Institute for Defense Analyses, and the former director of the 
Office of Program Analysis and Evaluation (PA&E) at the Department of 
Homeland Security (DHS), where he led the resource allocation process 
and the measurement, reporting, and improvement of performance. Dr. 
Roberts is senior economist at Econometrica, the current president of 
the National Economists Club, and formerly assistant director of 
Borders and Immigration in PA&E at DHS. I am the author of the 2008 
book The Closing of the American Border, which examined U.S. efforts to 
strengthen border security in the aftermath of the 9/11 terrorist 
attacks, and I was the project director for the 2009 Council on Foreign 
Relations Independent Task Force on U.S. Immigration Policy, which was 
co-chaired by former White House chief of staff Mack McLarty and former 
Florida Governor Jeb Bush.
    I will make four points in my testimony.
    First, U.S. border enforcement has become increasingly effective, 
and there is little question that entering the United States illegally 
across the land borders has become far more difficult and dangerous 
than ever before. The U.S. Government is now 2 decades into an 
ambitious border build-up that clearly is producing results in terms of 
deterring illegal entry and apprehending a greater percentage of those 
who try.
    Second, the current challenge is one of improving effectiveness 
rather than simply increasing resources. For many years the U.S. Border 
Patrol was badly under-resourced, but that is no longer the case. While 
additional resources may be needed, the focus should be on producing 
results rather than simply increasing inputs.
    Third, the metrics for assessing progress in border enforcement are 
under-developed and need to be improved. The Department of Homeland 
Security made a significant strategic error over the past several years 
in failing to develop, share, and publicize better performance measures 
for border security. Congress has an opportunity to rectify that error 
and put the border control mission on a more solid foundation for the 
future.
    Finally, the U.S. Government has many tools for discouraging 
illegal immigration, and border enforcement needs to be seen as just 
one among many. Better workplace enforcement, more effective tracking 
of visa overstays, as well as larger and more flexible legal entry 
programs for lower skilled immigrants are all likely to show greater 
returns in reducing illegal inflows than are large additional 
investments in border enforcement.
    Border security is always going to be a subjective question. There 
is no such thing as perfect security, and the question for policymakers 
is always going to be a difficult one of trading off costs and 
benefits. And in the border environment, there are many different 
security issues--illegal crossings by economic migrants, drug 
smuggling, gang violence, the sanctity of property, and the danger of 
infiltration by terrorists or serious criminals.
    Our research has focused on the issue of illegal entry by migrants, 
and this remains the primary focus of the debate over border security. 
Many in Congress and among the public are concerned that a 
comprehensive immigration reform bill will be followed, as it was after 
the 1986 Immigration Reform and Control Act (IRCA), by another surge in 
illegal migration to the United States.\1\ As a consequence, Congress 
is currently searching for ways to ensure continued progress on border 
security, as reflected in the approaches taken by the Senate in S. 744, 
the recently passed Border Security, Economic Opportunity, and 
Immigration Modernization Act, and by this committee in H.R. 1417, the 
Border Security Results Act.
---------------------------------------------------------------------------
    \1\ Edward Alden, ``Winning the Next Immigration Battle: Amnesty, 
Patrols, and the Future of U.S. Borders,'' ForeignAffairs.com, February 
11, 2013.
---------------------------------------------------------------------------
                     progress on border enforcement
    Illegal entry to the United States has fallen sharply over the past 
decade, and the U.S. Border Patrol has become more effective in 
apprehending those who try to enter illegally. Our research used 
several methodologies for calculating apprehension rates for illegal 
crossers between the ports of entry and the number of successful 
illegal entries. Each of the methods shows a significant increase in 
the probability of apprehension over the past decade, and a significant 
decline in the number of illegal entries. A recent paper by the 
Congressional Research Service (CRS), based in part on data shared with 
CRS by the Department of Homeland Security, showed similar results.\2\ 
The CRS said that ``illegal inflows likely were lower in 2007-2012 than 
at any other point in the last three decades.''
---------------------------------------------------------------------------
    \2\ Marc R. Rosenblum, ``Border Security: Immigration Enforcement 
Between Ports of Entry,'' Congressional Research Service, May 3, 2013.
---------------------------------------------------------------------------
    The declining numbers of those attempting illegal entry has allowed 
the Border Patrol to deal more effectively with those it apprehends. 
Until quite recently, most Mexican nationals were voluntarily returned 
to Mexico, and Border Patrol records based on fingerprint 
identifications showed that many simply tried again to enter. At an 
apprehension rate of 50 or 60 percent, multiple entry attempts by a 
single individual would likely prove successful. An individual who 
faced a one in two chance of arrest, for instance, would have an 88 
percent chance of succeeding if he or she made three attempts. The odds 
of successful entry on multiple attempts only go down sharply when 
apprehension rates are 70 percent or higher.
    In an effort to deter such repeated attempts, the Border Patrol in 
recent years has greatly expanded its ``Consequence Delivery System,'' 
so that most of those apprehended in the vicinity of the border face a 
penalty more severe than simply voluntary return. These consequences 
include expedited removal (which imposes a 5-year ban on any legal re-
entry to the United States and criminal charges if the individual is 
caught again entering illegally); criminal charges and jail time, most 
notably through Operation Streamline; and remote repatriation, in which 
Mexicans arrested near the border are either flown back to their home 
towns in Mexico or are returned in distant border regions (i.e., 
someone arrested in Arizona is returned to Mexico across the border in 
Texas).
    According to data released by DHS to the CRS, voluntary returns 
have fallen from 77 percent of all enforcement outcomes in fiscal year 
2005 (956,470 out of 1,238,554 apprehensions) to just 14 percent in 
fiscal year 2012 (76,664 out of 529,393).\3\ The consequence programs 
appear to have had a significant impact in reducing multiple entry 
attempts. In fiscal year 2012, more than 27 percent of those returned 
voluntarily were arrested a second time; in comparison, re-arrests for 
those who faced a consequence ranged from just 3.8 percent to 23.8 
percent, suggesting that these individuals were deterred from 
subsequent illegal entry attempts.\4\
---------------------------------------------------------------------------
    \3\ Ibid. The number of ``enforcement outcomes'' exceeds the number 
of annual apprehensions because some aliens face more than one outcome, 
such as formal removal along with lateral repatriation. In addition, 
certain aliences apprehended in one fiscal year do not complete their 
case processing until the following years.
    \4\ Of the different consequences, formal removal after a notice to 
appear in court was the most effective in reducing multiple attempts, 
with just a 3.8% recidivism rate in fiscal year 2012. This may be a 
reflection of the fact that most of those so removed are from countries 
other than Mexico, and would face a long return trip to the border to 
make a subsequent attempt. Criminal charges were also associated with 
recidivism rates of 10% or less. The least effective consequence was 
lateral repatriation to another sector of the border, which produced a 
23.8% recidivism rate in 2012.
---------------------------------------------------------------------------
    While the trends are unquestionably positive, it is difficult to 
assess the precise contribution of border enforcement to reducing 
illegal inflows. Researchers have long known that illegal immigration 
is far more responsive than legal immigration to the state of the 
economy and to employment opportunities.\5\ Legal migrants--who often 
wait many years for their green cards--are likely to come to the United 
States whenever the opportunity finally presents itself, regardless of 
economic conditions. Unauthorized migrants, however, tend to follow job 
opportunities.
---------------------------------------------------------------------------
    \5\ See Gordon H. Hanson, The Economic Logic of Illegal 
Immigration, Council on Foreign Relations Special Report No. 26, March 
2007.
---------------------------------------------------------------------------
    The collapse of the U.S. housing market, the spike in unemployment 
during the 2008-0909 recession and the slow recovery since would all 
have reduced illegal migration to the United States regardless of U.S. 
enforcement measures. In addition, somewhat better growth in the 
Mexican economy, which recovered more strongly from the recession than 
did the United States, has also increased employment opportunities in 
Mexico, which remains the largest source of illegal migration to the 
United States. The population of young men aged 15-24, the cohort that 
is most likely to migrate illegally, has also leveled off in Mexico and 
Central America as birthrates have fallen. Disentangling the effects of 
enforcement from these broader economic forces is challenging.
    Recent research, however, indicates that the enforcement build-up 
has had an impact in deterring illegal migration. A 2012 study by a 
team of experts assembled by the National Research Council, for 
example, concluded that ``studies of migration tend to find evidence of 
small but significant deterrent effects of border enforcement.''\6\ 
Empirical analysis of law enforcement specifically for unauthorized 
migrants is lacking, but empirical studies of law enforcement more 
broadly show significant deterrent effects on illegal behavior.\7\ To 
determine whether a potential migrant is deterred from illegal entry, 
data are needed both on potential migrants who decided to migrate and 
those who decided not to, and on the various factors potentially 
influencing their decision. Such analysis is challenging to carry out 
in terms of data availability and technical issues. The most recent 
research on deterrence has been conducted by Scott Borger, Gordon 
Hanson, and Bryan Roberts, who use data from the Mexican national 
household survey for 2002 to 2010.\8\ They identified individuals who 
migrated from Mexico and those who did not, developed measures of 
economic prospects in the United States and in Mexico, assessed U.S. 
border enforcement and the ease of migrating legally, and estimated the 
degree to which these factors affected whether an individual decided to 
migrate illegally in this period. Preliminary results suggest that the 
Great Recession, improvements in the Mexican economy, and border 
enforcement intensification were all significant influences on the 
downturn in illegal immigration since 2003, and that each of these 
factors may have accounted for roughly one-third of the decrease. These 
results suggest that enforcement in recent years has had a more 
significant effect than previous research had concluded.\9\
---------------------------------------------------------------------------
    \6\ Alicia Carriquiry and Malay Majmundar, eds., Options for 
Estimating Illegal Entries at the U.S.-Mexico Border, National Academy 
of Sciences, 2012.
    \7\ See Steven Levitt and Thomas Miles, ``Empirical Study of 
Criminal Punishment,'' in Mitchell A. Polinsky and Steven Shavell eds., 
Handbook of Law and Economics, Vol. 1, 2007.
    \8\ See Scott Borger, Gordon Hanson, and Bryan Roberts, ``The 
Decision to Emigrate from Mexico,'' presentation at 2012 Society of 
Government Economists annual conference, Washington, DC, 2012.
    \9\ The research has not yet been finalized due to the authors 
losing access to internal DHS apprehension record data in mid-2012. 
Researchers need data from individual apprehension records maintained 
by DHS in order to properly analyze illegal immigration into the United 
States. DHS has publicly disseminated all data needed by researchers 
from these records except the ``fingerprint identification number,'' 
which is the number assigned to records for the same individual as 
determined from examination of fingerprints. The fingerprint 
identification number is what permits recidivism analysis to be carried 
out. As this number is an arbitrary designation and cannot be used to 
identify an individual, reasons for not disseminating this information 
to the researcher community are unclear. For additional discussion on 
the need for DHS to provide more extensive access to administrative 
record data, see Carriquiry and Majmundar, Options for Estimating 
Illegal Entries.
---------------------------------------------------------------------------
             are more border enforcement resources needed?
    There is no question that the U.S. Border Patrol was underfunded 
for many decades, and that the lack of resources made it very difficult 
to take effective actions when illegal migration to the United States 
began rising sharply in the mid-1960s. Little was done to redress this 
problem until the mid-1990s, when growing complaints from border States 
such as California and Texas finally forced Federal action. The 
response since then, however, has been dramatic. Border Patrol manpower 
more than doubled in the late 1990s and then again in the late 2000s to 
the current level of just over 21,000 agents. Fencing grew somewhat in 
the 1990s and then dramatically starting in 2006. Currently 651 miles 
of the 1,969-mile Southwest Border are fenced. The Border Patrol also 
makes use of many types of infrastructure and equipment, including 
sensors, night vision equipment, camera towers, patrol vehicles, river 
patrol boats, manned and unmanned aerial vehicles, and horses. After 
decades of underfunding, the Border Patrol now enjoys access to 
resources that better correspond to the demands of its missions. 
Appropriations for the Border Patrol have increased by roughly 750 
percent since 1989, to a current level of $3.7 billion.
    S. 744, the Border Security, Economic Opportunity, and Immigration 
Modernization Act, would authorize roughly another doubling of border 
enforcement resources over the next decade. The bill authorizes the 
expenditure of an additional $46.3 billion over the next 10 years, with 
$30 billion to be spent on adding an additional 19,200 Border Patrol 
agents, and the rest spent primarily on additional pedestrian fencing 
and border surveillance technology. The bill specifies those technology 
acquisitions on a sector-by-sector basis, though it permits the 
Secretary of Homeland Security to reallocate personnel, infrastructure, 
and technology to achieve effective control of the Southern Border, and 
permits the acquisition of alternative technologies deemed equally 
effective.
    This huge addition of resources is not one envisioned by current 
Border Patrol strategic plans. While the strategy developed in 2004 was 
a resource-based one that focused on achieving ``operational control'' 
of the border through increases in agents and technology, the most 
recent May 2012 strategy has switched from resource acquisition and 
deployment to strategic allocation of resources to allow for rapid 
responses to emerging threats. Additional surveillance assets are an 
important part of carrying out this strategy, but big increases in 
manpower are likely not necessary.\10\
---------------------------------------------------------------------------
    \10\ See the description in Rosenblum, Marc R., ``Border Security: 
Immigration Enforcement Between Ports of Entry.''
---------------------------------------------------------------------------
    Inputs are also a poor proxy for effectiveness. The primary 
outcomes for law enforcement activity are the rates at which laws under 
their jurisdiction are broken--the goal of law enforcement, in other 
words, is to reduce the crime rate. Additional resources are often 
needed to achieve that goal, but the addition of resources is not in 
itself a measure of accomplishment. The use of data to drive law 
enforcement strategy and execution has become standard in many local 
police departments. New York City pioneered the effort in 1994 with its 
crime statistics database, CompStat, which requires precinct commanders 
to report statistics for all crimes on a weekly basis, with the clear 
goal of bringing down crime rates.\11\ The results are compared with 
crime statistics over previous periods, and that data is shared in real 
time with the public. The Department of Homeland Security and other 
agencies with responsibility for immigration enforcement, such as the 
Department of Justice and the State Department, need the same kind of 
data-driven revolution in which the focus shifts from inputs to 
results.
---------------------------------------------------------------------------
    \11\ For a more detailed discussion, see John Whitley, ``Five 
Methods for Measuring Unobserved Events: A Case Study of Federal Law 
Enforcement,'' IBM Center for Business and Government, 2012.
---------------------------------------------------------------------------
    The focus on inputs rather than outcomes is not a problem unique to 
immigration enforcement. In K-12 education, for instance, the United 
States spends as much on education as most other advanced countries and 
more than many, but its relative performance has been slipping for 
decades.\12\ In education, the measures of success for many years were 
input-based ones like the student-teacher ratio, rather than 
performance-based measures like the achievement levels of students. 
John Bridgeland and Peter Orszag, who held senior regulatory posts in 
the Bush and Obama administrations respectively, wrote recently that a 
rough calculation shows that ``less than $1 out of every $100 of 
Government spending is backed by even the most basic evidence that the 
money is being spent wisely.'' Far too little research is conducted, 
they argue, to evaluate the effectiveness of Government programs, and 
whether expenditures are actually achieving the desired goals. They 
conclude that ``the first (and easiest) step is simply collecting more 
information on what works and what doesn't.''\13\
---------------------------------------------------------------------------
    \12\ See Rebecca Strauss, Remedial Education: Federal Education 
Policy Progress Report and Scorecard, Council on Foreign Relations, 
June 2013.
    \13\ John Bridgeland and Peter Orszag, ``Can Government Play 
Moneyball?'' Atlantic, July/August 2013.
---------------------------------------------------------------------------
    The Government Performance and Results Act (GPRA), and its recent 
reissue as the GPRA Modernization Act of 2010, seeks to make Federal 
agencies more accountable for results, in part through reporting 
performance measures, which are quantified results related to inputs, 
outputs, and outcomes. Inputs are the resources that agencies expend in 
their operations and are the easiest to measure. Outputs are immediate 
results of agency programs and are also frequently relatively easy to 
measure and report. Outcomes are related to the ultimate goals of what 
agency programs are trying to achieve. Agencies are required by law to 
report performance measures to the public and do so in annual 
performance and accountability reports.
                          performance measures
    In order to assess the effectiveness of border enforcement 
measures, the U.S. Government needs to collect and share better data, 
with Congress, the public, and the external research community. While 
illegal immigration is complex and difficult to manage, the basic 
framework in which illegal immigration occurs can be simply illustrated 
in the diagram below.
                figure 1. illegal immigration framework 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Visitors and immigrants are permitted to enter the United States 
legally at ports of entry, including airports, seaports, and land ports 
on the borders with Mexico and Canada. What the diagram shows is that 
unauthorized immigrants can enter in one of three ways: Through the 
ports of entry, by presenting false documents or evading the screening 
process (i.e., in the trunk of a car); crossing illegally between the 
ports of entry; or by arriving on a legal visa and then overstaying 
that visa or otherwise violating its terms to remain in the United 
States illegally. Unauthorized immigrants can similarly depart in one 
of three ways: They can leave voluntarily; they can be arrested and 
removed; or they can adjust to legal status.\14\ If more unauthorized 
immigrants arrive than depart, then the stock of illegal immigrants 
grows.
---------------------------------------------------------------------------
    \14\ Individuals could also die in the United States while in 
unauthorized status.
---------------------------------------------------------------------------
    In order to enforce the laws and manage illegal migration 
successfully, the United States Government needs to know what is going 
on in each of these boxes. Ideally, the Government should be measuring 
and reporting numbers for each. The following table, however--in which 
the items under ``Outcome'' correspond to each of the nine boxes in the 
diagram--show what was actually reported by DHS in its most recent 
Annual Performance Report.

                 TABLE 1.--PERFORMANCE REPORTING AT DHS
------------------------------------------------------------------------
                                                       Fiscal Year 2011
             Outcome                  Performance     Annual Performance
                                       Measures            Report\1\
------------------------------------------------------------------------
Illegal entry between ports.....  number of           none.
                                   attempted illegal
                                   entries.
                                  number of           partial.
                                   apprehensions.
                                  apprehension rate.  none.
                                  number of           none.
                                   successful
                                   entried.
------------------------------------------------------------------------
Illegal entry at ports..........  number of illegal   none.
                                   entried.
                                  number of           none.
                                   apprehensions \2\.
                                  apprehension rate.  none.
                                  number of           none.
                                   successful
                                   illegal entries.
------------------------------------------------------------------------
Visa overstay...................  number of new visa  none.
                                   overstayers.
------------------------------------------------------------------------
Illegal immigrants resident in    number of illegal   none.
 the United States.                immigrants
                                   resident in the
                                   United States.
------------------------------------------------------------------------
Voluntary departure.............  number of illegal   none.
                                   immigrants
                                   leaving of their
                                   own accord.
------------------------------------------------------------------------
Law enforcement removal.........  number of illegal   partial.
                                   migrants removed.
------------------------------------------------------------------------
Deaths and adjustments..........  number of illegal   none.
                                   immigrants who
                                   dies or becam
                                   legal.
------------------------------------------------------------------------
Legal immigration...............  number of new H2A   none.
                                   and H2B visas
                                   issued \2\.
------------------------------------------------------------------------
\1\ This column indicates whether the performance measures was reported
  by DHS in its fiscal year 2011-2013 Annual Performance Report.
\2\ Although not reported in the DHS Annual Performance Report, some
  data on these measures are available from other sources.
Source: Authors' calculations based on DHS's fiscal year 2011-2013
  Annual Perfomance Report.

    The failure of the Department to provide the necessary performance 
measures has made it extremely difficult for Congress to assess 
progress towards key border security goals, and to set realistic 
performance benchmarks for the future. To take just two examples, in 
May 2011 DHS announced that it was developing a ``Border Conditions 
Index'' (BCI) that would assess the state of security in different 
regions of the border using measures such as illegal flows, wait times 
at ports of entry, and crime and public safety in the border region. 
But as this subcommittee was recently told by DHS, the Department has 
still not finalized the index and has offered no time table for its 
release. Similarly, Homeland Security Secretary Janet Napolitano has 
promised Congress since 2011 to produce and publish a country-by-
country list of the number of visa overstays, based on US-VISIT entry 
records and airline passenger departure records. Visa overstays are 
thought historically to account for as much as 40 percent of the 
unauthorized population in the United States. Research by demographer 
Robert Warren suggests that the number of new overstays has dropped 
sharply over the past decade.\15\ But DHS has yet to release any of its 
own data on this critical issue.
---------------------------------------------------------------------------
    \15\ Robert Warren and John Robert Warren, ``A Review of the 
Declining Numbers of Visa Overstays in the U.S. from 2000 to 2009,'' 
Center for Migration Studies, 2013.
---------------------------------------------------------------------------
    There are some encouraging signs of progress, however. CBP and the 
Border Patrol have shown a growing commitment to improving data 
collection and disseminating the results. The Government Accountability 
Office in December 2012 published a detailed report based on data 
collected by Border Patrol Agents in the field from 2006 to 2011.\16\ 
These data include apprehensions, estimated ``got-aways'' (crossers 
known or suspected to have evaded apprehension and entered the United 
States), and estimated ``turn-backs'' (crossers who returned to Mexican 
territory before being apprehended). Estimates of got-aways and turn-
backs are based on direct visual observation by agents in the field, 
visual observation through cameras, physical evidence of movement 
(collection of which is known as ``sign cutting''), and information 
from local residents believed to be credible. Methods used to collect 
known-flow data are not standardized across Border Patrol sectors, and 
results for sectors cannot be compared, but the Border Patrol has been 
working to standardize collection methods.
---------------------------------------------------------------------------
    \16\ Government Accountability Office, Border Patrol: Key Elements 
of New Strategic Plan Not Yet in Place to Inform Border Security Status 
and Resource Needs, GAO-13-25, December 2012.
---------------------------------------------------------------------------
    The GAO report based on Border Patrol data shows significant 
progress on a sector-by-sector basis over the past 5 years. In the San 
Diego sector, for instance, the number of ``got-aways'' fell from 
52,216 in 2006 to just 4,553 in 2011; in the Tucson sector in Arizona, 
got-aways fell from more than 207,000 in 2006 to just 25,376 in 2011. 
In the sectors that see the largest number of crossings, the 
``effectiveness rate'' (the percentage of illegal crossers who are 
either apprehended or turned back) is quite high--91 percent in the San 
Diego sector, 87 percent in the Tucson sector, and 84 percent in the 
Laredo sector. The Rio Grande Valley sector in southern Texas, which 
has seen an influx of unauthorized migrants from Central America 
transiting through Mexico, had the lowest effectiveness rate at 71 
percent. Border Patrol chief Michael Fisher testified to this 
subcommittee in February that his goal is to achieve 90 percent 
effectiveness in all high-traffic corridors along the Southwest Border.
    The Border Patrol is also planning to using aerial and ground 
surveillance technologies to produce random, statistically valid 
samples of illegal entries along the border, including in remote, 
lightly-trafficked corridors where Border Patrol agents are less likely 
to observe unauthorized traffic. These samples should improve 
significantly the accuracy of estimates of successful illegal entries.
    On visa overstays, DHS has made significant progress in matching 
overseas air arrivals to departures. Airlines are required to share all 
data on departing U.S. passengers, and DHS on a daily basis matches 
these departure records with arrival information recorded through the 
US-VISIT system. If records cannot be matched for an individual whose 
visa has expired, that individual is designated as an ``unvetted 
potential overstay,'' and US-VISIT assigns an adjudicator to check 
other databases to determine whether the person has departed. Until 
recently this has been challenging because of name match difficulties 
arising when an individual uses multiple passports, and because there 
was no automatic link to U.S. Citizenship and Immigration Services 
(USCIS) databases to determine if an individual had sought to adjust 
status and remain lawfully in the United States. DHS is now generating 
on a daily basis a list of potential overstays, and is vetting all 
those individuals. Confirmed overstays will face revocation of their 
visas or prohibitions on non-visa travel, and will be placed on 
enforcement look-out lists.
    Tracking land border exits remains an enormous challenge, but the 
United States and Canada have been working as part of the Beyond the 
Border initiative to share information on land border departures, which 
would allow DHS to identify an individual who, for example, arrived by 
air in New York but departed over the land border to Canada. The 
initial phase of testing produced very positive results in terms of 
matching records.\17\
---------------------------------------------------------------------------
    \17\ Department of Homeland Security/Canada Border Services Agency, 
``Entry/Exit Information System Phase I Joint Canada-United States 
Report,'' May 8, 2013.
---------------------------------------------------------------------------
    Congress needs to work with the Border Patrol and CBP to improve 
data collection and performance reporting, with the goal of continuing 
to improve enforcement outcomes. H.R. 1417 has a number of positive 
measures in this regard, including requirements that the Secretary of 
Homeland Security implement a comprehensive set of metrics for 
measuring the effectiveness of security at and between ports of entry, 
including effectiveness rates for illegal migration and drug seizures. 
The legislation also calls for external evaluation of metrics and 
progress by the Government Accountability Office, the Comptroller 
General and outside research organizations. The U.S. Government should 
measure and report the full range enforcement outcomes in a timely 
fashion, and share those measures as broadly as possible.
                        a comprehensive approach
    Border enforcement cannot be looked at in isolation. The decision 
that an individual makes to migrate illegally is the result of many 
factors, including the likelihood of finding employment at a higher 
wage, greater security, reunification with family, and existence or 
lack of legal immigration or temporary work alternatives. Stronger 
border enforcement--which makes illegal crossings more dangerous and 
costly--is only one of many factors that may deter a migrant from 
attempting illegal entry.
    Consider the following thought experiment. If the United States 
were to remove all quotas on legal immigration, the problem of illegal 
immigration would disappear overnight. By definition, anyone with the 
wherewithal to board a plane or take a bus and arrive in the United 
States would be a legal resident. There would be no need for any form 
of immigration enforcement. Consider the converse. If the United States 
were to eliminate all legal immigration, the problem of illegal 
immigration would become orders of magnitude larger. The Government 
would need a far bigger immigration enforcement effort simply to keep 
down the number of unauthorized migrants. Neither of these extremes is 
plausible, of course, but they underscore the interconnected nature of 
any effort at reforming U.S. immigration laws. Larger legal programs, 
particularly for unskilled workers who have few legal alternatives for 
coming to the United States, would likely reduce illegal immigration. 
So too, more effective means to discourage employers from hiring 
unauthorized workers would reduce the incentive to migrate illegally. 
One of the many lessons from the failure of the 1986 IRCA was that the 
absence of effective worksite enforcement and a legal immigration path 
for most unskilled Mexicans and Central Americans were probably 
significant contributors to the surge in unauthorized migration in the 
1990s. IRCA was in some ways the least optimal policy conceivable for 
deterring illegal migration. It coupled weak enforcement at the 
workplace and at the border with strict quotas on unskilled workers 
that allowed few legal options for migration.
    Thus any decision to increase border enforcement should ideally be 
weighed against other alternatives for reducing illegal immigration. 
Unfortunately, good cost-benefit measures are not currently available, 
which makes it difficult for policy-makers to make optimal choices. It 
is likely, for example, that the payoff from an additional dollar spent 
on workplace enforcement at this point in time would be be larger than 
the payoff from an additional dollar spent on border enforcement. The 
Border Patrol is currently apprehending 50 percent or more of would-be 
illegal crossers, and the number of illegal entry attempts has fallen 
sharply; in some sectors, the average Border Patrol Agents is making 
only a handful of arrests per year. In comparison, just 7 percent of 
U.S. employers are currently enrolled in the E-Verify system to check 
the legal status of new hires, and only 385 employers were fined in 
fiscal year 2011 for hiring violations.\18\ The deterrence gains from 
better workplace enforcement are thus likely to be greater than the 
deterrence gains from still more border enforcement. In a major 2009 
study, Stanford's Lawrence Wein and his colleagues suggested that 
additional workplace enforcement was likely to be about twice as 
effective as additional border enforcement in deterring future illegal 
migration.\19\
---------------------------------------------------------------------------
    \18\ See Andorra Bruno, Immigration-Related Worksite Enforcement: 
Performance Measures, Congressional Research Service, May 10, 2012.
    \19\ Lawrence M. Wein, Yifan Liu, and Arik Motskin, ``Analyzing the 
Homeland Security of the U.S.-Mexico Border,'' Risk Analysis, vol. 29, 
no. 5, 2009, pp. 699-713.
---------------------------------------------------------------------------
    Larger legal immigration or temporary work programs, especially for 
lower-skilled workers who currently have fewer legal migration options, 
are also likely to dissuade illegal migration. In the 1950s, for 
example, the decision by the Eisenhower administration to double to 
400,000 the quota for Mexican workers under the bracero temporary 
worker program appears to have had a significant impact in keeping 
illegal immigration low for more than a decade. Following the 
elimination of that program in 1965, illegal immigration immediately 
began to climb and remained at high levels until the second half of the 
2000s.
    Making better judgments about the effectiveness of different 
measures in reducing illegal migration is especially important when 
budgetary resources are scarce, which is likely to be the situation 
confronting DHS and other Government agencies for many years. For the 
first decade of its existence, Congress threw so much money at DHS that 
it was rarely forced to weigh costs against benefits and make difficult 
decisions on resource deployment. That is no longer the case.
    None of these is, of course, mutually exclusive. Congress may 
choose an ``all of the above'' strategy. But it is important to 
underscore that the impact of border enforcement on illegal migration 
cannot be considered in isolation, and that border enforcement is only 
one of many tools available to policymakers to reduce illegal 
immigration.
    Thank you, and I would be happy to respond to your questions.

    Mrs. Miller. I thank the gentleman for his testimony.
    At this time, the Chairwoman recognizes and again welcomes 
back Mr. Stana for his testimony.

   STATEMENT OF RICHARD M. STANA, FORMER DIRECTOR, HOMELAND 
     SECURITY AND JUSTICE, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stana. Well, thank you, Chairwoman Miller. It is good 
to be back before the subcommittee today to discuss my views 
and perspectives on this specific border security area.
    As you mentioned, I have retired from GAO and I need to say 
my views expressed today are my own and I am not here 
representing the GAO.
    Since the mid-1990s, the U.S. Government has poured 
billions of dollars into various border security measures in an 
attempt to stem the flow of illegal immigrants and contraband 
into our country.
    On a typical day last year, CBP apprehended over 1,000 
illegal immigrants and refused entry to 1,000 other travelers, 
seized about 12,000 pounds of drugs and seized over $0.25 
million of undeclared or illicit currency. Yet, entries of 
illegal immigrants are still substantial and in some instances, 
pose a risk to National security and cross-border trafficking 
of illegal contraband continues to be problematic.
    The lessons learned from previous experience can help 
inform future legislative and agency actions and I would like 
to share some observations and perspectives in a few areas.
    Let's start with defining goals for border control and 
establishing performance measures which are keys to ensuring 
that border security efforts are effectively managed. DHS has 
yet to establish measurable goals that would help it gauge 
success and make appropriate operational and investment 
decisions.
    The Border Patrol uses changes in the number of 
apprehensions and turn backs as an interim measure along with 
other measures for illegal entrants and contraband, but these 
serve to measure activity levels rather than success toward a 
goal.
    Some legislative proposals define border security as a 90 
percent effectiveness rate defined as the sum of alien 
apprehensions and turn-backs divided by total illegal entries. 
The challenge here is how to reliably estimate the total 
illegal entry of people and contraband when current Government 
data and methods of measurement for unknowns lack the desired 
precision and integrity.
    Hopefully, data and estimation techniques will improve over 
time and the total illegal entry figures will become more and 
more reliable.
    Now, let's turn to staffing issues. Several lessons can be 
learned from past ramp-ups that could be considered in the 
current debate. First, it is important to have a sound and 
supportable basis for hiring any new Border Patrol agents 
because expanding the force is costly and time-consuming. DHS 
needs to know the extent that deploying large numbers of 
additional agents would mitigate threats and vulnerabilities 
versus other options.
    Second, an adequate number of experienced supervisors is 
needed to train large numbers of recruits at the Academy and 
with on-the-job training in the sectors. In past ramp-ups, an 
insufficient agent-to-supervisor ratio increased the risk of 
training shortfalls and the risk of not detecting potential 
corruption and unsuitability for the job.
    Similar issues would confront the hiring and training of 
additional CBP officers at the ports of entry. CBP was recently 
several thousand officers short of the prescribed staffing 
levels due to recruitment and retention issues, and CBP was not 
able to ensure that its officers received the required on-the-
job training.
    With respect to technology, in the last 20 years CBP 
deployed billions of dollars worth of technology both at and 
between the Southwest Border ports of entry. In both 
environments, the results achieved have been mixed due to 
issues with the capabilities of the technology, how it was 
selected and deployed, its reliability and how it was used by 
the officers and agents.
    In overseeing technology acquisitions, DHS needs to ensure 
that the underlying assumptions and requirements for technology 
are transparent and sound. The metrics for indicating its 
contribution and success are in place. The intersection of 
technology and staffing inputs, that is the force multiplier 
effect we have heard about, is factored in and flexibility in 
deployment is provided should illegal migration patterns 
change.
    Turning to infrastructure, nearly $3 billion was spent to 
construct about 700 miles of pedestrian and/or vehicle fencing 
along the Southwest Border and millions more are spent annually 
for maintenance and repair.
    Although the fencing appears to have been useful, DHS 
hasn't evaluated the impact of this investment and whether the 
cost of additional fencing would yield a suitable return versus 
other possible investments.
    Among the factors that need to be considered are the extent 
to which additional fencing would mitigate threats and 
vulnerabilities, the cost-effectiveness of various fencing 
design, terrain environmental concern, and whether any required 
land acquisition cost would change the cost-benefit analysis.
    In closing, while the subject of today's hearing is on 
border security, these and other issues need to be assessed in 
the context of a holistic framework if immigration control and 
reform efforts are to yield an efficient, effective, 
economical, and sustainable result.
    In this regard, estimates show that roughly 40 percent to 
50 percent of the illegal immigrant population is made up of 
people who entered the United States legally and overstayed 
their visa. Many illegal immigrants are drawn to the United 
States for work and eventually find jobs with employers who 
have come to rely on this labor pool with little likelihood of 
incurring fines and sanctions.
    To what extent might the broader illegal immigration 
problem be addressed by devoting more resources to interior 
enforcement and an E-Verify system rather than substantially 
increasing staffing and other resources at the border.
    Achieving an appropriate balance between border and 
interior enforcement could help create a credible framework for 
deterring those considering illegal entry and overstay.
    I would be happy to answer any questions the Members may 
have.
    Thank you.
    [The prepared statement of Mr. Stana follows:]
                 Prepared Statement of Richard M. Stana
                             July 23, 2013
    Chairman Miller, Ranking Member Jackson Lee, and Members of the 
subcommittee: I am pleased to be back before the subcommittee today to 
discuss my observations and perspectives on selected border security 
issues. In my previous appearances before the subcommittee I discussed 
GAO products under my supervision as director for homeland security and 
justice issues. I retired from GAO about 18 months ago and although 
some of the information I cite is drawn from GAO products, I am not 
speaking on behalf of GAO and the observations and perspectives I 
present are my own.
    The immigration system is highly complex, with lots of moving parts 
that are necessarily connected and interrelated. Today I will focus my 
remarks on only one facet of this complex system--that of immigration 
enforcement--and within that facet, only on border security measures.
    Since the mid-1990s, the U.S. Government has poured billions of 
dollars into various border security measures in an attempt to stem the 
flow of illegal immigration and contraband into our country. These 
efforts started with initiatives in the El Paso and San Diego sectors 
where about 60 percent of apprehensions were made, then spread to other 
sectors to address the shifts in illegal flows. The good news is that 
as a result of these measures, millions of illegal travelers have been 
turned away; millions of other travelers were apprehended on a variety 
of charges, some serious; millions of pounds of illegal drugs were 
apprehended; and millions of dollars in currency was seized. The bad 
news is that even though apprehensions today are about one-third of the 
950,000 apprehensions made in 2002, illegal entries of immigrants are 
still substantial and in some instances pose a risk to National 
security; travelers have shifted to dangerous terrains to attempt a 
crossing, resulting in injury or death to untold numbers of people; and 
cross-border trafficking of illegal contraband continues to be 
problematic.
    Various proposals that are now being considered by Congress contain 
provisions that are aimed at better securing our Nation's borders. The 
proposals differ in scope, emphasis, and levels of prescriptive 
actions, which include the creation of goals and performance measures 
as well as enhancements in enforcement staffing levels, technology, and 
infrastructure which are expected to be part of the solution. Whether 
Congress decides to specify certain measures or actions or decides to 
leave such decisions to DHS, lessons learned from previous experience 
can help inform legislative and agency actions regarding these issues. 
I'd like to share some observations and perspectives about these 
issues.
    Let me start with goals and performance measurement. Defining goals 
for border control and establishing performance measures for assessing 
related efforts are among the key steps in ensuring that border 
security efforts are effectively managed. The Secure Fence Act of 2006 
defined border security as the ``prevention of all unlawful entries 
into the United States, including entries by terrorists, other unlawful 
aliens, instruments of terrorism, narcotics, and other contraband.'' 
Every Secretary of Homeland Security has expressed the view that this 
was an unreachable goal. Before 2011, the Border Patrol used a security 
performance measure of border miles under operational control to assess 
security between the ports of entry. This measure was intended to 
reflect the Border Patrol's ability to deter or detect and apprehend 
illegal entries at the border or after they occur. Since 2011, the 
Border Patrol has used changes in the number of apprehensions between 
the ports of entry on the Southwest Border as an interim measure for 
border security. It also uses other data to inform this measure, 
including the percentage of estimated known illegal entrants who are 
apprehended, the percentage of estimated known illegal entrants who are 
apprehended more than once (repeat offenders), and the number of 
seizures of drugs and other contraband. DHS is still considering how 
best to define and measure border security. Some legislative proposals 
define border security as a 90 percent ``effectiveness rate'' defined 
as the sum of alien apprehensions and turn-backs divided by total 
illegal entries. This measure recognizes that a zero tolerance rate is 
unrealistic, but the challenge is how to reliably estimate the total 
illegal entries when current Government data and methods of measurement 
for the ``unknowns'' lack the necessary precision and integrity. 
Devising a way to validly assess progress toward meeting program goals 
is necessary if DHS is to make appropriate operational and investment 
decisions. Such performance measurement would also help the Congress 
decide whether the outcomes are acceptable and the next steps in the 
immigration reform arena can be taken. Hopefully, data and estimation 
techniques will improve over time and the total illegal entries figure 
will become more reliable.
    Now I'd like to discuss three types of resources necessary to 
enhancing border security--staffing, technology, and infrastructure. 
Let me start with staffing. Recent immigration reform proposals call 
for hefty increases in Border Patrol staffing, which continues a trend 
started about 20 years ago. In fact, the Border Patrol's 21,000-agent 
force is double the number on board in 2006, and the roughly 3,000 
agents now assigned to the Tucson sector alone is about equal to the 
number that guarded our Southwestern and Northern Borders combined in 
1994. Several lessons can be learned from past ramp-ups in staffing 
that could be considered in the current debate. First, it is important 
to have a sound and supportable basis for the number of new agents to 
be hired and deployed to the border because expanding the force is 
costly and time-consuming. CBP estimated in 2010 that the cost of 
recruiting, hiring, training, equipping, and deploying one Border 
Patrol agent was about $170,000. The time between the first interview 
and agent deployment can be 6 months or more, and it takes several 
recruits to eventually fill one agent opening because many candidates 
are found to be not suitable for the job or drop out before being fully 
trained and deployed. Ramping up the staff would also require 
additional facilities at the Academy to train the agents and at the 
Border Patrol sectors to accommodate their work activities. Further, 
determining the extent to which deploying additional staff will 
mitigate threats and vulnerabilities along the border, and the expected 
benefits to be derived from the added costs of another ramp-up, are 
important. Second, an adequate number of experienced agents is needed 
to train large numbers of recruits at the Academy and to continue with 
on-the-job training and supervision once new agents are assigned to the 
sectors. In some past ramp-ups, an insufficient agent-to-supervisor 
ratio increased the risk of on-the-job training shortfalls and the risk 
that the Border Patrol supervisors would not be in a position to detect 
potential corruption and the mishandling of illegal aliens by new 
agents. Similar issues would confront the hiring and training of 
additional CBP officers at the ports of entry. CBP was recently several 
thousand officers short of the staffing levels prescribed by its 
staffing models due to recruitment and retention issues, and CBP was 
not able to ensure that its officers received required on-the-job 
training. It is important to maintain an appropriate balance between 
resources at and between the ports so any shifts in illegal activity 
could be addressed.
    Turning to technology, in the last 20 years CBP introduced 
technology acquisitions valued in the billions of dollars as part of a 
stepped-up enforcement strategy. At the ports of entry, X-rays, portal 
monitors, and backscatter machines, as well as US-VISIT and pass card 
readers, have enhanced the ability of CBP officers to detect the 
illegal entry of individuals and contraband and have helped to balance 
law enforcement and travel facilitation demands. Between the ports, 
cameras, radar systems, sensors, X-rays, and drones have enhanced the 
Border Patrol's ability to detect and deter illegal crossings and 
contraband trafficking. But in both environments, the results achieved 
by technology deployments have been mixed due to issues with the 
capabilities of the technology, how it was selected and deployed, its 
reliability, and how it was used by officers and agents. In the past, 
DHS's technology acquisition policies have not always been adhered to, 
the basis for technology selection and deployment has not always been 
adequately supported, and the limitations of some technology identified 
in real-world testing called to question its suitability and cost-
effectiveness. Consideration should be given to how the requirements 
for technology are generated, the extent to which new technology will 
mitigate threats and vulnerabilities, what metrics would indicate their 
expected contribution toward stemming illegal crossings and 
trafficking, where technology and staffing inputs intersect and the 
extent to which technology can be a ``force multiplier,'' and what 
flexibility in deployment might be provided should illegal migration 
patterns change.
    Next, let's discuss infrastructure. Nearly $3 billion was spent to 
construct about 700 miles of fencing along the Southwest Border, most 
of which was single-layered fencing built between Imperial Beach, CA, 
and El Paso, TX. In addition to construction costs, the Border Patrol 
incurs maintenance costs to repair fencing breaches. In 2011 alone 
there were over 4,000 breaches of the fence that cost about $7.2 
million to fix, or about $1,800 per breach. CBP built varying types of 
fencing at various locations to stop pedestrians, vehicles, or both 
from crossing the border. The extent to which fencing stopped or 
deterred border crossers is not entirely clear, but it appears to have 
been useful. Fencing may have slowed down crossers so that Border 
Patrol had more time for enforcement actions, and it may have helped 
shift illegal traffic to non-fenced locations, potentially allowing the 
Border Patrol to target its enforcement actions. However, DHS has yet 
to evaluate the contribution of border fencing and other infrastructure 
toward stemming the flow of pedestrians and contraband, as GAO 
recommended several years ago. Without such an evaluation, DHS is not 
in a position to address the impact of this investment and whether the 
cost of additional fencing would yield a suitable return vis-a-vis 
other possible investments across the border or at a particular 
location. Legislative proposals are now under consideration to build 
more fencing, either in new locations or by adding layers to existing 
fencing. Among the factors that need to be considered with these 
proposals are the extent to which additional fencing will mitigate 
threats and vulnerabilities, the costs and effectiveness of fencing 
designs in stemming pedestrian and vehicular traffic, the suitability 
of the terrain for fence construction, environmental concerns, and the 
extent to which any required land acquisition costs would change a 
cost/benefit analysis.
    In closing, while the subject of today's hearing is on border 
security, it is important to look at this facet of immigration 
enforcement in conjunction with the many other moving parts of the 
total immigration system. Border security issues need to be assessed in 
the context of a holistic framework if our efforts to push the 
immigration reform ``reset button'' are to yield an efficient, 
effective, economical, and sustainable result. For example, estimates 
show that roughly 40-50 percent of the illegal immigrant population is 
made up of people who entered the United States legally and overstayed 
their visa. Addressing visa overstays is considered an interior 
immigration enforcement matter and mostly a responsibility of ICE, not 
CBP. Yet, owing to higher priorities, ICE devotes relatively few 
resources to address this issue. To what extent might the broader 
illegal immigrant problem be addressed by devoting more resources to 
interior enforcement rather than substantially increasing the size of 
the Border Patrol? As a second example, illegal immigrants who pass 
through border defenses are drawn to the United States to find 
employment. Many eventually find jobs with employers who have come to 
rely on this labor pool with little likelihood of incurring fines and 
sanctions provided by law, again owing to ICE resource constraints and 
priorities. To what extent could additional resources applied to 
worksite enforcement address illegal immigration as opposed to 
additional resources applied to the Border Patrol? Achieving an 
appropriate balance between border and interior enforcement resources 
could help create a credible framework for deterring those considering 
illegal entry and overstay.
    Chairman Miller, Ranking Member Jackson Lee, and Members of the 
subcommittee, this concludes my prepared statement. I would be happy to 
answer any questions you may have.

    Mrs. Miller. Thank you very much. We certainly, again, 
appreciate all of the testimony, very interesting.
    One of the things in my mind that I think about border 
security and there is a lot of testimony about illegal 
migration, et cetera, what the dynamics of decision making that 
all entails and why they try to come across the border 
illegally.
    Of course, we are all very aware of, the numbers vary, but 
11 million to 12 million, however many illegals that are in the 
Nation. But I will tell you, thinking about border security 
which is really one of the enumerated responsibilities of the 
United States Congress as well, is bigger in my mind than just 
stopping illegals from coming here to get a job in the 
agricultural fields or service industry or whatever.
    Really, if you think about drug interdiction alone, that is 
probably--I mean, I am married to a judge. It is probably in 
the Detroit area, responsible for the huge majority of crime 
that is happening in our Nation, as well as destroying lives.
    But the cost to society and to lives lost and opportunities 
lost, et cetera, you can't even put a dollar amount on it I 
think as well as--also, stopping those who mean us harm, those 
that want to cross our borders, whether it is the Southern 
Border or the Northern Border.
    I talk about Northern Border security a lot more than some 
people want to talk about here. I know we are all focused on 
what is happening at the Southern Border. But if you look at 
the TIDEs list and see, you know, quantify how many hits is 
happening in the Northern Border, it really is quite eye-
opening.
    So for all these reasons, I think it is very, very 
important that border security happen and I understand that the 
debate about comprehensive immigration reform--I am one that 
believes in border security first.
    I think if the Congress and both the House and the Senate 
were actually able to pass a border security bill, hopefully 
this one or something that looks very close to this then I 
think, you know, you would have room to discuss all the other 
portions of this.
    But I guess I would first start as we are really focusing 
on the differences between the House Bill and the Senate bill 
and all of you mentioned this, and Mr. Ahern in particular 
about the surge. Mr. Alden you mentioned about the surge that 
the Senate bill calls for. Over 19,000--19,200 new Border 
Patrol Agents without a lot of thought given to first of all 
how we are currently utilizing the existing workforce, how they 
are bring deployed, measuring their effectiveness, cost-
effectiveness and effectiveness in securing the border.
    Then when you have that kind of a surge, what kind of 
infrastructure is even in place to go out and recruit and hire? 
One of the things the Senate bill is calling for is a polygraph 
test for everybody, I mean, just the mechanics of getting all 
these folks hired on, suited up and ready to deploy, as well.
    I was noticing that in fact, Chairman McCaul was mentioning 
about this L.A. Times Op-Ed today but they were mentioning 
there a so-called border surge proposal would simply throw a 
phenomenal amount of money at border enforcement without 
achieving control of the border. I guess my question is 
particularly to Mr. Ahern and Mr. Alden, do you agree with this 
assessment and what is your thought about this huge surge and 
how it might play out and as well since you invited the 
question Mr. Ahern, the existing workforce and how that is 
being deployed as well.
    Mr. Ahern. Correct and thank you for that. I think that 
clearly before just arbitrary numbers get thrown out there 
needs to be analysis of how the personnel are currently being 
utilized. I mean, the threat as I stated also is ever-changing, 
as we have seen more go into the different domains, we need to 
take a look at the risk assessment and the analysis of that 
versus how we want to deploy our resources against that threat 
going forward. That needs to be Step No. 1 in my view.
    I think the other thing that we need to take a look at is, 
is there the current flexibility needed to move the resources 
today against the threat? I recall very specifically in my 
past, and I have been gone for 3\1/2\ years now that there are 
mandatory minimums that needed to be maintained on the Southern 
Border. Not very wise if you take a look at a shift to the 
maritime domain or to the Northern Border and really did tie 
the hands of an agency head at that point to really redeploy 
the resources as threats ever changed. Also when there are 
mandates in very specific categories and position like Border 
Patrol Agents.
    Again, a head of an organization, if he sees the threat 
changing into ports of entry, the ability to have those 
positions being able to reallocate into where there might be 
the greatest opportunity or need for the enforcement and then 
the serious criminal activity that is occurring but also at the 
same time maintaining that balance of legitimate travel and 
trade. That flexibility was not provided.
    I think going forward those things need to be considered. I 
would be happy to talk in further detail if you would like also 
about the triaging process, the hiring process, the recruiting 
process, the training process that went into and we actually 
did go through that doubling that occurred during the time when 
I was still in Government.
    Mrs. Miller. Mr. Alden.
    Mr. Alden. I would agree with Mr. Ahern. I would just add 
that I think the Senate bill in many ways sort-of goes about it 
backwards. I mean, if you think of the sort-of appropriate 
roles of the Congress and of the agencies that are responsible 
for carrying out the mandates, what you want is for the 
Congress to in effect answer your question that you posed in 
your opening statement, which is: What does a secure border 
mean? How secure do we want the border to be? Set general goals 
and benchmarks and you say to the Border Patrol you say to the 
Customs and Border Protection, this is what we want you to 
achieve.
    Then they are the professionals. They are the ones who have 
to come back and say, ``Well, okay, if that is the level of 
security you want, this is what we need to get there. This is 
the technology we need. This is the manpower. This is the 
support we need.'' They will likely come back with a number and 
say, ``This is what it is going to cost.'' Then, again, it is 
for Congress, for the people's representatives to say, ``Well, 
is that worth it? Is it worth spending that money? Are there 
better ways to spend that money?''
    That should be the dynamic. The Senate bill instead just 
says, ``We are going to give you these resources. We are going 
to give you this technology and go do something with it.'' That 
is not the right order. You really need to be listening to the 
professionals in terms of what they need to carry out their 
mission.
    Mrs. Miller. Mr. Stana. Again, we appreciate your coming 
back. I think you were with GAO. I know you are not now but 
when there was the report that was issued about the operation, 
the percentage of operational control on both our borders.
    Mr. Stana. Right.
    Mrs. Miller. Southern Border 44 percent, the Northern 
Border 2 to 4 percent, I forget exactly but essentially very 
little.
    Mr. Stana. Yes. It was very small.
    Mrs. Miller. Way down in the single digit numerals and yet 
we spent about $75 billion in the last 10 years on border 
security. Of course, this is one of the issues that this 
subcommittee and our full committee has been trying to get out 
of the Department of Homeland Security and Secretary Napolitano 
or whoever her successor will be now is even using the term 
``operational control'' has been under a great amount of 
debate. It has been noted by the Secretary that this was an 
antiquated term, et cetera. But there has to be some term and 
some assessment of what operational control, situational 
awareness, et cetera is happening.
    Now, when you say--I guess, I would just ask you from a 
cost standpoint, what is your thought, your assessment on 
spending $75 billion on border security and here is the Senate 
bill talking about spending another $46 billion, how does that 
strike you as far as cost-effectiveness and actually achieving 
operational control of a larger percentage of the border?
    Mr. Stana. Yes. Well, first with respect to operational 
control, I know they dropped that metric. I never thought it 
was that bad of a metric. It suffers from some of the same 
challenges that current things that they are thinking about. 
But at least it was a metric and it is something you could 
manage toward but that left in 2011, I think, and it was never 
replaced.
    With any resource input the question you always have to ask 
is first, what did you do with what you had? Second, what would 
you do if I gave you more, simply put. Time and again when we 
have looked at these vast resource inputs whether it is 
personnel, fencing, or technology, we are always looking for a 
business case often didn't find one, always looking for the 
roadmap in terms of application of certain types of technology 
vis-a-vis people and so on. It was always in somebody's head. 
It was never anything that was transparent and reviewable. So 
those are problems.
    With respect to people, Mr. Ahern mentioned the problems 
with recruiting that number of people. I think it took maybe 
eight or nine recruits to get one Border Patrol Agent deployed 
because so many wash out. With the lie detector test alone I 
think the wash-out rate in some classes was like 60 percent. 
So, you know, if you are talking about doubling the size of the 
Border Patrol there ought to be a very good sound rationale for 
any increase--$75 billion is a lot of money.
    I looked in the bill and the lay-down, for example, of the 
technology piece where they specified what was going to go to, 
I didn't see the rationale for why when it was part of the 
proposal that was being put forth as part of the SBI program. 
Similarly, the air and marine portion, I never understood the 
basis for the deployments that were specified.
    So, I think a starting point is understanding the business 
case and then getting into evaluating the cost benefits of the 
different inputs. I haven't seen it.
    Mrs. Miller. I appreciate that very much.
    The Chairwoman now recognizes other Members. In accordance 
with our committee rules and practice, we will be recognizing 
Members who were present at the start of the hearing by 
seniority and on the subcommittee.
    The Chairwoman recognizes the gentleman from Texas, Mr. 
O'Rourke.
    Mr. O'Rourke. Thank you, Madam Chairwoman. Before I begin 
with my questions, I would ask unanimous consent to submit for 
the record a statement from the American Civil Liberties Union 
and additionally 50 State-by-State maps* that show how 
interconnected our economy is in the United States with that of 
Mexico.
---------------------------------------------------------------------------
    * The maps have been retained in committee files.
---------------------------------------------------------------------------
    Mrs. Miller. Without objection, and I do have my map that 
you provided me for Michigan, so I appreciate that.
    [The information follows:]
            Statement of the American Civil Liberties Union
                             July 23, 2013
                            i. introduction
    The American Civil Liberties Union (ACLU) is a Nation-wide, non-
partisan organization of more than a half-million members, countless 
additional activists and supporters, and 53 affiliates Nation-wide 
dedicated to preserving and defending the fundamental rights of 
individuals under the Constitution and laws of the United States. The 
ACLU's Washington Legislative Office (WLO) conducts legislative and 
administrative advocacy to advance the organization's goal to protect 
immigrants' rights, including supporting a roadmap to citizenship for 
aspiring Americans. The Immigrants' Rights Project (IRP) of the ACLU 
engages in a Nation-wide program of litigation, advocacy, and public 
education to enforce and protect the Constitutional and civil rights of 
immigrants. The ACLU of New Mexico's Regional Center for Border Rights 
(RCBR) addresses civil and human rights violations arising from border-
related immigration policies. RCBR works in conjunction with ACLU 
affiliates in California, Arizona, and Texas, as well as immigrants' 
rights advocates throughout the border region.
    The ACLU submits this statement to the Subcommittee on Border and 
Maritime Security of the U.S. House of Representatives' Committee on 
Homeland Security for its hearing: ``Study in Contrasts: House and 
Senate Approaches to Border Security.'' As our prior submission for 
this subcommittee's February hearing titled ``What Does a Secure Border 
Look Like?'' did, this statement aims to provide the subcommittee with 
an appraisal of the civil liberties implications of border security. 
For elaboration on how current border enforcement policies affect 
mixed-status families along the border, we also respectfully refer the 
subcommittee to the record of the April 10, 2013 Congressional Ad-Hoc 
Hearing: ``Lines That Divide US: Failure to Preserve Family Unity in 
the Context of Immigration Enforcement at the Border.''\1\
---------------------------------------------------------------------------
    \1\ See, e.g., Written Statement of Vicki B. Gaubeca, Director, 
ACLU of New Mexico Regional Center for Border Rights (April 10, 2013), 
available at http://www.aclu.org/files/assets/
vicki_gaubeca_written_statement-final.pdf.
---------------------------------------------------------------------------
    Since the subcommittee's February hearing, the Senate's passage of 
S. 744, the Border Security, Economic Opportunity, and Immigration 
Modernization Act, has provided a stark template of how not to tackle 
border security. The Senate chose to dismiss the House's careful 
approach based on H.R. 1417, the Border Security Results Act of 2013, 
an approach described by Subcommittee Chairman Candice Miller (R-MI) as 
requiring ``a strategy and an implementation plan to be produced before 
additional resources are expended.''\2\ The last-minute addition to S. 
744 of an amendment sponsored by Senators Corker (R-Tenn.) and Hoeven 
(R-ND), known as the border ``surge,'' added an estimated $38 billion 
in resource spending on border security to the $8.3 billion already 
contained in the bill that went to the Senate floor.\3\
---------------------------------------------------------------------------
    \2\ See statement of July 19, 2013, available at http://
homeland.house.gov/press-release/week-ahead-house-homeland-security-
committee-july-22-26-2013.
    \3\ Congressional Budget Office, Letter to Senator Patrick J. Leahy 
(July 3, 2013), 3, available at http://www.cbo.gov/sites/default/files/
cbofiles/attachments/s744aspassed.pdf.
---------------------------------------------------------------------------
    While the ACLU supported S. 744 because of its overall impact on 
civil liberties, particularly its roadmap to citizenship for what the 
Congressional Budget Office (CBO) estimates to be 8 million aspiring 
Americans,\4\ we made clear that the ``surge'' was anathema to sensible 
border security policy because it would cause massive deterioration in 
the civil and human rights of migrants and border residents.\5\ The 
ACLU continues to support expansive immigration reform that provides a 
welcoming pathway of citizenship to the millions of aspiring citizens 
who contribute daily to their American communities, including for many 
raising their U.S. citizen children and supporting their U.S. citizen 
family members. Border security must not stand in the way of these 
aspirations.
---------------------------------------------------------------------------
    \4\ Congressional Budget Office, Cost Estimate re: S. 744. (June 
18, 2013), available at http://www.cbo.gov/sites/default/files/
cbofiles/attachments/s744.pdf.
    \5\ Laura W. Murphy, ``Our Stance on the Immigration Reform Bill: 
Support for Many Civil Liberties Provisions and Opposition to New 
Border Measures.'' (June 24, 2013), available at http://www.aclu.org/
blog/immigrants-rights/our-stance-immigration-reform-bill-support-many-
civil-liberties-provisions.
---------------------------------------------------------------------------
    The data-driven, bipartisan approach of H.R. 1417 should not be 
undermined by transforming its provisions into a ``trigger'' preventing 
aspiring citizens from earning legal status, or used as an excuse to 
avoid commitment to a pathway for citizenship. H.R. 1417 is flawed, 
however, in assuming a need to achieve a 90 percent ``illegal border 
crossing effectiveness rate'' across the Southwest Border. Such 
benchmarks must only be contemplated upon completion of a thorough 
study of border needs, including documentation and mitigation of the 
civil liberties costs associated with pursuing such a goal through 
expanded resources like drones and other means of surveillance. The 
extent of Congress' focus on border security is truly misplaced at a 
time when border enforcement is at an all-time high and continues to 
have a detrimental impact on border communities. That being said, H.R. 
1417 is an improvement over proposals which seek to increase border 
resources based on no concrete analysis.
    Border security resources should be guided by principles of fiscal 
responsibility, accountability and oversight, and attention to the true 
needs of border communities currently suffering from a wasteful, 
militarized enforcement regime. Experts, including those from the 
Department of Homeland Security, agree that the border is more secure 
than ever.\6\ Border security benchmarks of prior proposed or enacted 
legislation (in 2006, 2007, and 2010) have already been met or 
exceeded.\7\ Congress should proceed unimpeded by border security 
obstacles to the vital task of providing a roadmap to citizenship for 
aspiring Americans in a way that advances our Constitution's principles 
and American values of family unity and due process.
---------------------------------------------------------------------------
    \6\ Testimony of DHS Secretary Napolitano to the Senate Judiciary 
Committee (Feb. 13, 2013), available at http://
www.judiciary.senate.gov/pdf/2-13-13NapolitanoTestimony.pdf.
    \7\ Chen, Greg and Kim, Su. ``Border Security: Moving Beyond Past 
Benchmarks,'' American Immigration Lawyers Association, (Jan. 30, 
2013). Available at: http://www.aila.org/content/
default.aspx?bc=2566743061.
---------------------------------------------------------------------------
 ii. the senate's border security approach in s. 744 is fundamentally 
  flawed. the house should not adopt these excessive, wasteful border 
                        enforcement provisions.
    Quality of life in border communities is guaranteed to suffer 
should the Corker-Hoeven provisions become law. As amended, S. 744 now 
requires tens of billions of dollars in personnel and equipment 
deployment at the border, including drones and other surveillance to 
monitor not only the Southwest Border itself, but also areas extending 
100 miles in, exposing American lands, dwellings, and citizens to 
unreasonable searches and surveillance without the legal protections 
enjoyed by the rest of the country. The U.S. Government has expanded 
the powers of Federal authorities to survey and enter private property, 
board buses and trains, and maintain vehicle checkpoints far from any 
land or sea border by creating ``Constitution-Light'' or 
``Constitution-Free'' zones adjacent to land and sea borders. In these 
zones, Customs and Border Protection (CBP) personnel claim they have 
surveillance, stop, and search authority that would be unconstitutional 
in other parts of the country, despite the fact that two-thirds of the 
American population resides within 100 miles of these borders.\8\
---------------------------------------------------------------------------
    \8\ See ACLU Vote Recommendation Supporting Leahy Amendment 1410 to 
S. 744 (June 20, 2013), available at http://www.aclu.org/files/assets/
aclu_vote_recommendation_re_- leahy_1410_to_s_744_final_6_20_13.pdf.
---------------------------------------------------------------------------
    The border ``surge'' would increase the number of Southwest Border 
Patrol Agents by 19,200 to a total exceeding 38,000--or one for every 
270 feet of the Southwest Border. As Sen. Tom Coburn (R-Okla.), said on 
the Senate floor, the Nation does not need another 20,000 Border Patrol 
Agents: ``What we need is a coherent, smart strategy.''\9\ The border 
``surge'' would also require the completion of 700 miles of border 
fencing, widely recognized by most lawmakers as a failed and costly 
enterprise, and spend $3.2 billion on equipment and technology like 
that used by U.S. forces in Iraq and Afghanistan, such as advanced 
surveillance systems, manned and unmanned aerial vehicles, drones, 
radar, and much more.\10\ It would forever change and militarize border 
communities like El Paso and San Diego, which are among the safest 
cities in America.\11\ Senator John McCain commented: ``We'll be the 
most militarized border since the fall of the Berlin Wall.''\12\ In 
fact, this was an understatement: The wall between the United States 
and Mexico would become seven times longer than the Berlin Wall, with 
four times as many personnel.\13\
---------------------------------------------------------------------------
    \9\ Remarks of Sen. Coburn (June 20, 2013), available at http://
www.youtube.com/watch?v=iz3c2gcAOgQ.
    \10\ See What's Included in ``border surge'' immigration amendment, 
CNN, June 21, 2013, http://politicalticker.blogs.cnn.com/2013/06/21/
whats-included-in-border-surge-immigration-amendment/; see also [sic].
    \11\ See Julian Aguilar, El Paso Again Tops List of Safest U.S. 
Cities, The Texas Tribune, Feb. 5, 2013, available at http://
www.texastribune.org/2013/02/05/el-paso-again-ranked-countrys-safest-
city/; see also 2 U.S.-Mexico Border Cities Boast Lowest Crime Rates, 
New Data Shows, Huffington Post, Feb. 8, 2013, http://
www.huffingtonpost.com/2013/02/08/2-us-mexico-border-
cities_n_2647897.html
    \12\ David Sherfinski, McCain: We'll have ``most militarized border 
since the fall of the Berlin Wall,'' Washington Times, June 25, 2013, 
available at http://www.washingtontimes.com/blog/inside-politics/2013/
jun/25/mccain-well-have-most-militarized-border-fall-berl/.
    \13\ New Border Requirements May Not Save Immigration Bill, CBS 
Miami, June 25, 2013, available at http://miami.cbslocal.com/2013/06/
25/new-border-requirements-may-not-save-immigration-bill/.
---------------------------------------------------------------------------
    Border spending has already grown exponentially over the last 
decade, resulting in widespread and abusive militarization of border 
communities. Last year, House Appropriations Committee Chairman Hal 
Rogers (R-KY), presciently warned about the irrationality of Southwest 
Border security spending: ``It is a sort of a mini industrial complex 
syndrome that has set in there. And we're going to have to guard 
against it every step of the way.''\14\ Border spending has skyrocketed 
over the last decade, far out of proportion to security demands. 
Between fiscal year 2004 and fiscal year 2012, the budget for CBP 
increased by 94 percent to $11.65 billion, a leap of $5.65 billion; 
this followed a 20 percent post-9/11 increase of $1 billion.\15\ By way 
of comparison, this jump in funding is more than quadruple the growth 
rate of NASA's budget and is almost ten times that of the National 
Institutes of Health. U.S. taxpayers now spend more on border and 
immigration enforcement agencies ($18 billion) than on the FBI, DEA, 
ATF, U.S. Marshals, and Secret Service-combined.\16\
---------------------------------------------------------------------------
    \14\ Ted Robbins, ``U.S. Grows an Industrial Complex Along the 
Border.'' NPR (Sept. 12, 2012), available at http://www.npr.org/2012/
09/12/160758471/u-s-grows-an-industrial-complex-along-the-border.
    \15\ Michele Mittelstadt et al., ``Through the Prism of National 
Security: Major Immigration Policy and Program Changes in the Decade 
since 9/11.'' (Migration Policy Institute, Aug. 2011), 3, available at 
http://www.migrationpolicy.org/pubs/FS23_Post-9-11policy.pdf.
    \16\ Meissner, Doris, Kerwin, Donald M., Chishti, Muzaffar and 
Bergeron, Claire. Immigration Enforcement in the United States: The 
Rise of a Formidable Machinery, Migration Policy Institute, January 
2013. Available at: http://www.migrationpolicy.org/pubs/
enforcementpillars.pdf.
---------------------------------------------------------------------------
    Because of ``zero-tolerance'' initiatives like Operation 
Streamline,\17\ which is part of CBP's Consequence Delivery System, the 
Department of Homeland Security (DHS) now refers more cases for Federal 
prosecution than the Department of Justice's (DOJ) law enforcement 
agencies. Federal prisons are already 39 percent over capacity, due in 
large part to indiscriminate prosecution of individuals for crossing 
the border without authorization, often to rejoin their families. The 
majority of those sentenced to Federal prison last year were Hispanics 
and Latinos, who constitute only 16 percent of the population, but are 
now held in large numbers in private prisons.\18\ CBP's spending runs 
directly counter to data on recent and current migration trends. A 
weaker U.S. economy, strengthened enforcement, and a growing Mexican 
economy have led to a dramatic decrease in unauthorized migration from 
Mexico. In fact, net migration from Mexico is now zero or slightly 
negative (i.e., more people leaving than coming).\19\ Apprehensions by 
the Border Patrol declined more than 72 percent from 2000 to 2010, and 
are currently near a 40-year low.\20\ Yet, the number of Border Patrol 
agents has doubled since 2004, from 10,819 to 21,394 in 2012,\21\ with 
about 85 percent of the force deployed at the U.S.-Mexico border.\22\
---------------------------------------------------------------------------
    \17\ See generally ACLU, ``Operation Streamline Issue Brief.'' 
(Feb. 25, 2013), available at http://www.aclu.org/immigrants-rights/
operation-streamline-issue-brief.
    \18\ U.S. Sentencing Commission, 2011 ANNUAL REPORT, Chapter 5, 
available at http://www.ussc.gov/Data_and_Statistics/
Annual_Reports_and_Sourcebooks/2011/2011_An- nual_Report_Chap5.pdf.
    \19\ Philip E. Wolgin and Ann Garcia, ``What Changes in Mexico Mean 
for U.S. Immigration Policy.'' (Center for American Progress, Aug. 8, 
2011), available at http://www.americanprogress.org/issues/2011/08/
mexico_immigration.html.
    \20\ Testimony of DHS Secretary Napolitano to the House Judiciary 
Committee (July 19, 2012); DHS Fact Sheet, ``Apprehensions by the U.S. 
Border Patrol: 2005-2010.'' (July 2011), available at http://
www.dhs.gov/xlibrary/assets/statistics/publications/ois-apprehensions-
fs-2005-2010.pdf; see also Jeffrey Passel and D'Vera Cohn, ``U.S. 
Unauthorized Immigration Flows Are Down Sharply Since Mid-Decade.'' 
(Pew Hispanic Center, Sept. 1, 2010), available at http://
pewhispanic.org/reports/report.php?ReportID=126.
    \21\ United States Border Patrol: Border Patrol Agent Staffing By 
Fiscal Year (2012), available at http://www.cbp.gov/linkhandler/cgov/
border_security/border_patrol/usbp_statistics/usbp_fy12_stats/
staffing_1993_2012.ctt/staffing_1993_2012.pdf.
    \22\ Meissner, Doris, Kerwin, Donald M., Chishti, Muzaffar and 
Bergeron, Claire. Immigration Enforcement in the United States: The 
Rise of a Formidable Machinery, Migration Policy Institute, January 
2013. Available at: http://www.migrationpolicy.org/pubs/
enforcementpillars.pdf.
---------------------------------------------------------------------------
    With so many agents and so few apprehensions, the costs per 
apprehension are at an all-time high. The Yuma, Arizona sector, for 
example, has seen a 95 percent decline in apprehensions since 2005 
while the number of agents has tripled.\23\ Each agent was responsible 
for interdicting just 8 migrants in 2010, contributing to ballooning 
per capita costs. While costs vary per sector, each migrant 
apprehension at the border now costs five times more on average, rising 
from $1,400 in 2005 to over $7,500 in 2011.\24\ In recent years, agents 
have reported widespread boredom, and some have even been disciplined 
for falling asleep on the job.\25\ Despite Border Patrol's doubling in 
size since 2004, overtime costs have amounted to $1.6 billion over the 
last 6 years,\26\ yet in fiscal year 2012, Border Patrol apprehended on 
average 18 people per agent.\27\
---------------------------------------------------------------------------
    \23\ Richard Marosi, ``Plunge in border crossings leaves agents 
fighting boredom.'' Los Angeles Times (Apr. 21, 2011).
    \24\ Immigration Policy Center, Second Annual DHS Progress Report. 
(Apr. 2011), 26, available at http://www.immigrationpolicy.org/sites/
default/files/docs/2011_DHS_Report_041211- .pdf.
    \25\ Richard Marosi, Plunge in Border Crossings Leaves Agents 
Fighting Boredom, Los Angeles Times, Apr. 21, 2011, available at: 
http://articles.latimes.com/2011/apr/21/local/la-me-border-boredom-
20110421.
    \26\ ``Border Patrol overtime, staffing up; arrests down.'' 
Associated Press (Feb. 5, 2012).
    \27\ Chen and Kim, ``Border Security,'' supra.
---------------------------------------------------------------------------
    In this context of already-excessive border spending, the Senate's 
border enforcement build-up would be unacceptably costly in budgetary 
terms. Moreover, it promises to place enormous burdens on our Southwest 
Border communities, especially the daily routines of their brown and 
black residents, who are already being damaged by a Border Patrol that 
routinely engages in racial profiling and uses excessive, even deadly, 
force, including against U.S. citizens.
 iii. h.r. 1417 commendably includes a requirement that dhs assess its 
existing border security technologies and practices and ``their effect 
     on civil rights, private property rights, privacy, and civil 
   liberties,'' as well as review training programs affecting these 
    rights. congress should prioritize requiring cbp to improve its 
           atrocious record of oversight and accountability.
    Unprecedented investment in border enforcement without 
corresponding oversight mechanisms \28\ has led to an increase in human 
and civil rights violations, traumatic family separations in border 
communities, and racial profiling and harassment of Native Americans, 
Latinos, and other people of color--many of them U.S. citizens and some 
who have lived in the region for generations. Stressed border 
communities are a vital component of the half-trillion dollars in trade 
between the United States and Mexico, and the devastating effects of 
militarization on them must be addressed in immigration reform. The 
U.S.-Canada border has experienced an increase in border enforcement 
resources as well, with Northern Border residents often complaining 
about Border Patrol agents conducting roving patrols near schools and 
churches and asking passengers for their documents on trains and buses 
traveling far from border crossings.\29\ Border enforcement must 
prioritize investment in robust and independent external oversight that 
includes border communities' participation.
---------------------------------------------------------------------------
    \28\ Tim Steller, ``Border Patrol faces little accountability,'' 
Arizona Daily Star (Dec. 9, 2012), available at: http://azstarnet.com/
news/local/border/border-patrol-faces-little-accountability/
article_7899cf6d-3f17-53bd-80a8-ad214b384221.html.
    \29\ New York Civil Liberties Union, NYU Law School Immigrant 
Rights Clinic, and Families for Freedom, ``Justice Derailed: What Raids 
on New York Trains and Buses Reveal About Border Patrol's Interior 
Enforcement Practices'' (Nov. 2011), available at http://www.nyclu.org/
news/report-reveals-troubling-border-patrol-tactics-upstate-new-york.
---------------------------------------------------------------------------
a. Oversight and Accountability
    While the Federal Government has the authority to control our 
Nation's borders and regulate immigration, CBP officials must act in 
compliance with National and international legal norms and standards. 
As employees of the Nation's largest law enforcement agency, CBP 
personnel should be trained and held to the highest professional law 
enforcement standards. Systemic, robust, and permanent oversight and 
accountability mechanisms for CBP should be integral to border security 
measures. Indeed, in recent polling, over 90 percent of respondents--
regardless of party affiliation--said they support creating ``greater 
oversight and accountability'' of CBP.\30\
---------------------------------------------------------------------------
    \30\ Belden Russonello Strategists, ``American attitudes on 
immigration reform, worker protections, due process, and border 
enforcement,'' (April 2013), available at: http://cambio-us.org/wp-
content/uploads/2013/04/BRS-Poll-for-CAMBIO-APRIL-16-2013-RELEASE.pdf.
---------------------------------------------------------------------------
    Despite the overwhelming support for greater oversight and 
accountability and the documented history of CBP abuse, investments in 
oversight and accountability mechanisms have not kept pace with the 
growth of CBP. For example, while the CBP budget increased by 97 
percent from fiscal year 2004 to fiscal year 2012, the DHS Office of 
Inspector General's (OIG) budget has increased by only 70 percent 
during this same time period.\31\ Similarly, from fiscal year 2004 to 
fiscal year 2011, the DHS Office for Civil Rights and Civil Liberties 
(CRCL) budget increased only 56 percent.\32\ Overall, the combined 
budget of the OIG and CRCL accounted for less than .005 percent of the 
total DHS budget in fiscal year 2011.
---------------------------------------------------------------------------
    \31\ DHS Office of the Inspector General, ``Fiscal Year 2004 Annual 
Performance Plan, DHS Office of the Inspector General,'' pp. 6 http://
www.oig.dhs.gov/assets/OIG_APP_FY04.pdf; DHS, ``FY 2014 Budget in 
Brief,'' pp. 6 http://www.dhs.gov/sites/default/files/publications/
MGMT/FY%202014%20BIB%20-%20FINAL%20-508%20Formatted%20%284%29.pdf.
    \32\ DHS Office of Civil Rights and Civil Liberties, ``Fiscal Year 
2011 and Annual Report to Congress,'' pp. 6 (June 2012) http://
www.dhs.gov/xlibrary/assets/crcl-annual-report-fy-2011-final.pdf.
---------------------------------------------------------------------------
    The failure to invest in sufficient oversight and accountability 
contributes to continued misconduct and corruption within CBP. There 
are numerous examples of CBP officers making improper arrests, 
detaining people for days incommunicado, subjecting them to coercive 
interrogation, and pressuring them to sign away their rights. In 
addition, a 2012 GAO report found that from 2005 to 2012, CBP had 2,170 
reported incidents of arrests for acts of misconduct, such as domestic 
violence or driving under the influence, and a total of 144 current or 
former CBP employees that were arrested or indicted for corruption-
related activities.\33\ The same report found that CBP's Office of 
Internal Affairs had numerous deficiencies impacting its ability to 
prevent misconduct and appropriately screen new hires. Considering 
these findings, proposals to exponentially increase CBP will likely 
result in increased numbers of CBP officers that have been poorly 
trained or screened, and contribute to overall abuses within the 
agency.
---------------------------------------------------------------------------
    \33\ GAO-13-59 ``Border Security: Additional Actions Needed to 
Strengthen CBP Efforts to Mitigate Risk of Employee Corruption and 
Misconduct,'' Dec 4, 2012.
---------------------------------------------------------------------------
    Similarly, the insufficient funding of oversight and accountability 
mechanisms has resulted in a complete failure of the agency to 
appropriately investigate and respond to complaints. DHS has frequently 
faced a complaint backlog. For example, in March 2012, DHS OIG had 2361 
open investigative cases. Between October 2011 and March 2012, DHS OIG 
closed only 730 cases, or less than a third of their open cases.\34\ In 
order to deal with this backlog, the OIG transferred cases back to CBP 
and ICE for investigation, which raises serious conflict-of-interest 
concerns.
---------------------------------------------------------------------------
    \34\ Id.
---------------------------------------------------------------------------
    In the absence of robust oversight and accountability measures, CBP 
will continue to operate without adequate checks on abuses such as 
racial profiling, excessive use of force, and inhumane short-term 
custody facilities.
b. Racial Profiling
    Racial profiling is rampant as a result of CBP's abuse of its vast 
authority within 100 miles of any land or sea border. While the 
Southwest Border and Florida have been the site of systemic racial 
profiling, this unlawful and ineffective law enforcement practice 
extends to the Northern Border as well. The ACLU of Washington State 
has brought a class-action lawsuit to end the Border Patrol's practice 
of stopping vehicles and interrogating occupants without legal 
justification. One of the plaintiffs in the case is an African American 
corrections officer and part-time police officer who was pulled over 
for no expressed reason and interrogated about his immigration status 
while wearing his corrections uniform.\35\ A local business owner said 
he's ``never seen anything like this. Why don't they do it to the white 
people, to see if they're from Canada or something?''\36\
---------------------------------------------------------------------------
    \35\ Complaint available at http://www.aclu-wa.org/sites/default/
files/attachments/2012-04-26--Complaint_0.pdf.
    \36\ William Yardley, ``In Far Northwest, a New Border Focus on 
Latinos.'' New York Times (May 29, 2012) (emphasis added), available at 
http://www.nytimes.com/2012/05/29/us/hard-by-canada-border-fears-of-
crackdown-on-latino-immigration.html?pagewanted=all.
---------------------------------------------------------------------------
    CBP also aids and abets State and local police racial profiling 
practices, ensnaring U.S. citizens. In February 2011, Tiburcio Briceno, 
a naturalized U.S. citizen, was stopped by a Michigan State Police 
officer for a traffic violation while driving in a registered company 
van. Rather than issue him a ticket, the officer interrogated Briceno 
about his immigration status, apparently based on Briceno's Mexican 
national origin and limited English. Dissatisfied with Briceno's valid 
Michigan chauffeur's license, the officer summoned CBP, impounded 
Briceno's car, and told him he would be deported. Briceno says he 
reiterated again and again that he was a U.S. citizen, and offered to 
show his social security card but the officer refused to look.
    Briceno was released after CBP officers arrived and confirmed that 
he was telling the truth. ``Becoming a U.S. citizen was a proud moment 
for me,'' Briceno has since reflected. ``When I took the oath to this 
country, I felt that I was part of something bigger than myself; I felt 
that I was a part of a community and that I was finally equal to every 
other American. Although I still believe in the promise of equality, I 
know that I have to speak out to make sure it's a reality for me, my 
family and my community. No American should be made to feel like a 
criminal simply because of the color of their skin or language 
abilities.''\37\ Ending CBP's unchecked practices of racial profiling 
must be a priority of immigration reform.
---------------------------------------------------------------------------
    \37\ ACLU of Michigan, ``ACLU Urges State Police to Investigate 
Racial Profiling Incident.'' (Mar. 21, 2012) (emphasis added), 
available at http://www.aclumich.org/issues/racial-justice/2012-03/
1685.
---------------------------------------------------------------------------
c. Excessive Use of Force
    In addition to racial profiling at and beyond the border, incidents 
of excessive use of force are on the rise, with at least 19 people 
killed by CBP officials since January 2010,\38\ including five U.S. 
citizens and six individuals who were standing in Mexico when fatally 
shot. On April 20, 2012, PBS's Need to Know \39\ program explored the 
trend of CBP's excessive use of force, with a focus on Anastasio 
Hernandez Rojas. New footage depicting a dozen CBP personnel 
surrounding and repeatedly applying a Taser and other force to Mr. 
Hernandez--who was shown to be handcuffed and prostrate on the ground 
contrary to the agency's incident reporting--shocked viewers. The San 
Diego coroner classified Mr. Hernandez's death as a homicide, noting in 
addition to a heart attack: ``several loose teeth; bruising to his 
chest, stomach, hips, knees, back, lips, head and eyelids; five broken 
ribs; and a damaged spine.'' CBP's version of events described a 
``combative'' person; force was needed to ``subdue the individual and 
maintain officer safety.''
---------------------------------------------------------------------------
    \38\ Jorge A. Solis, 28, shot and killed, Douglas, AZ (Jan. 4, 
2010); Victor Santillan de la Cruz, 36, shot and killed, Laredo, TX 
(March 31, 2010); Anastasio Hernandez Rojas, 32, tortured to death, San 
Diego, CA (May 28, 2010); Sergio Adrian H. Huereca, 15, shot and 
killed, El Paso, TX (June 7, 2010); Juan Mendez, 18, shot and killed, 
Eagle Pass, TX; Ramses Barron Torres, 17, shot and killed, Nogales, 
Mexico (Jan. 5, 2011); Roberto Perez Perez, beaten while in detention 
and died due to lack of proper medical care, San Diego, CA (Jan. 13, 
2011); Alex Martinez, 30, shot and killed, Whatcom County, WA (Feb. 27, 
2011); Carlos Lamadrid, 19, shot and killed, Douglas, AZ (March 21, 
2011); Jose Alfredo Yanez Reyes, 40, shot and killed, Tijuana, Mexico 
(June 21, 2011); Gerardo Rico Lozana, 20, shot and killed near Corpus 
Christi, TX (Nov. 3, 2011); Byron Sosa Orellana, 28, shot and killed 
near Sells, AZ (Dec. 6, 2011); Alexander Martin, 24, died in car 
explosion that may have been caused by Border Patrol tasers (March 15, 
2012); Charles Robinson, 75, shot and killed, Jackman, ME (June 23, 
2012); Juan Pablo Perez Santillan, 30, shot and killed on the banks of 
the Rio Grande, near Matamoros, Mexico (July 7, 2012); Guillermo 
Arevalo Pedroza, 36, shot and killed, Nuevo Laredo, Mexico (Sept. 3, 
2012); Valerie Tachiquin-Alvarado, 32, shot and killed, Chula Vista, CA 
(Sept. 28, 2012); Jose Antonio Elena Rodriguez, 16, shot and killed, 
Nogales, Sonora (Oct. 11, 2012); and Margarito Lopez Morelos, 19, shot 
and killed, Baboquivari Mountains, AZ (Dec. 2, 2012). This count does 
not include Border Patrol agent Nicholas J. Ivie, 30, who was fatally 
shot by friendly fire near Bisbee, AZ (Oct. 2, 2012).
    \39\ PBS Need to Know special, aired April 20, 2012 and entitled 
``Crossing the line at the border,'' available at: http://www.pbs.org/
wnet/need-to-know/security/video-first-look-crossing-the-line/13597/.
---------------------------------------------------------------------------
    Spotlighting another CBP fatality, the Arizona Republic reported 
earlier this year that ``[a]n autopsy report raises new questions about 
the death of a Mexican youth shot by at least one U.S. Border Patrol 
officer four months ago in Nogales. The Border Patrol has maintained 
that Jose Antonio Elena Rodriguez, 16, was throwing rocks over the 
border fence at agents on the U.S. side when an agent fired across the 
international border the night of Oct. 10. But entry and exit wounds 
suggest that all but one of as many as 11 bullets that struck the boy 
entered from behind, according to the report by two medical examiners 
working for the Sonora Attorney General's Office.''\40\
---------------------------------------------------------------------------
    \40\ Bob Ortega, ``New theory on Border Patrol killing of boy.'' 
Arizona Republic (Feb. 7, 2013), available at http://www.azcentral.com/
news/articles/20130206border-patrol-killing-boy-new-theory.html.
---------------------------------------------------------------------------
    After a Congressional letter signed by 16 Members was sent to DHS 
Secretary Janet Napolitano, DHS Acting Inspector General Charles 
Edwards, and Attorney General Eric Holder,\41\ on July 12, 2012, the 
Associated Press reported that a Federal grand jury was investigating 
the death of Anastasio Hernandez.\42\ Border Patrol's use-of-force 
incidents have attracted international scrutiny with the government of 
Mexico,\43\ the Inter-American Commission on Human Rights,\44\ and the 
Office of the United Nations High Commissioner for Human Rights \45\ 
weighing in.
---------------------------------------------------------------------------
    \41\ Congressional sign-on letter sent May 10, 2012 to Secretary 
Janet Napolitano available at: http://serrano.house.gov/sites/
serrano.house.gov/files/DHSletter.pdf; letter sent to DHS Inspector 
General Charles Edwards available at: http://serrano.house.gov/sites/
serrano.house.gov/files/DHSIGletter.pdf; letter sent to DOJ Attorney 
General Eric Holder available at: http://serrano.house.gov/sites/
serrano.house.gov/files/DoJLetter.pdf.
    \42\ Grand Jury Probes Anastasio Hernandez Border Death, available 
http://www.kpbs.org/news/2012/jul/12/grand-jury-probes-border-death/.
    \43\ See, e.g., Bret Stephens, ``The Paradoxes of Felipe 
Calderon.'' Wall Street Journal (Sept. 28, 2012), available at http://
online.wsj.com/article/SB10000872396390443916104578022440- 
624610104.html?mod=hp_opinion.
    \44\ See ``IACHR condemns the recent death of Mexican national by 
U.S. Border Patrol Agents.'' (July 24, 2012), available at http://
www.oas.org/en/iachr/media_center/PReleases/2012/093.asp.
    \45\ See U.N. Radio, ``United States urged to probe deaths of 
Mexican migrants at border.'' (May 29, 2012), available at http://
www.unmultimedia.org/radio/english/2012/05/united-states-urged-to-
probe-deaths-of-mexican-migrants-at-border/.
---------------------------------------------------------------------------
    It is past time for CBP to reform its use-of-force policy to 
conform with best law enforcement practices, including the mandatory 
use of body-worn cameras by officers, which have been shown to reduce 
both uses-of-force and unfounded complaints against law enforcement 
officers.\46\ CBP must also bring transparency to review of use-of-
force incidents for disproportionality and unreasonableness.
---------------------------------------------------------------------------
    \46\ See Spokane, WA Office of the Police Ombudsman, Body-Worn 
Video & Law Enforcement: An Overview of the Common Concerns Associated 
With Its Use (Feb. 2012), available at http://www.spdombudsman.com/wp-
content/uploads/2012/02/Attachment-G-Body-Camera-Report.- pdf; U.S. 
Department of Justice, Office of Justice Programs, National Institute 
of Justice, A Primer on Body-Worn Cameras for Law Enforcement (Sept. 
2012), available at https://www.justnet.org/pdf/00-Body-Worn-Cameras-
508.pdf; Koppel, Nathan. ``Cameras Keep a Close Watch on the Police.'' 
Wall Street Journal (Feb. 12, 2013), available at http://
online.wsj.com/article/
SB10001424127887323511804578298060326177182.html; Stross, Randall. 
``Wearing a Badge, and a Video Camera.'' New York Times (Apr. 6, 2013, 
available at http://www.nytimes.com/2013/04/07/business/wearable-video-
cameras-for-police-officers.html.
---------------------------------------------------------------------------
d. Short-Term Custody
    Organizations working with immigrants, asylum-seekers, and U.S. 
citizens who have been held in CBP short-term custody facilities 
receive regular reports of civil and human rights violations. These 
include denial of medical care, confiscated medicine such as insulin, 
being held in detention without access to a phone to communicate with 
family members or legal counsel, verbal and physical abuse, coercion 
into signing forms that have not been explained, failure to provide 
copies of legal documents signed, overcrowding, and failure to return 
key belongings and personal identity documents prior to repatriation.
    These violations have been recurring for years and have been widely 
reported.\47\ For example, the University of Arizona's recently-
released report, based on more than 1,000 interviews conducted in 
migrant shelters from Tijuana to Nuevo Laredo (and in Mexico City), 
found that:\48\
---------------------------------------------------------------------------
    \47\ See for example, No More Deaths. Crossing the Line: Human 
Rights Abuses of Migrants in Short Term Custody on the Arizona Sonora 
Border (Sept. 2008), available at: http://www.nomoredeaths.org/Abuse-
Report-Crossing-the-Line/View-category.html; No More Deaths. A Culture 
of Cruelty: Abuse and Impunity In Short-term U.S. Border Patrol Custody 
(2011), available at http://nomoredeaths.org/cultureofcruelty.html; 
Kino Border Initiative. Documented Failures: the Consequences of 
Immigration Policy at the U.S.-Mexico Border (Feb. 2013), available at: 
http://www.jesuit.org/jesuits/wp-content/uploads/Kino_FULL-
REPORT_web.pdf.
    \48\ University of Arizona, In the Shadow of the Wall: Family 
Separation, Immigration Enforcement and Security. (Mar. 15, 2013), 24, 
available at: http://las.arizona.edu/sites/las.arizona.edu/files/
UA_Immigration_Report2013web.pdf.
---------------------------------------------------------------------------
  <bullet> 11 percent reported physical abuse by U.S. authorities.
  <bullet> 23 percent reported verbal abuse by U.S. authorities.
  <bullet> 45 percent did not receive sufficient food while in U.S. 
        custody.
  <bullet> 39 percent had possessions taken and not returned by U.S. 
        authorities.
  <bullet> 26 percent were carrying Mexican identifying documents and 
        had at least one document taken and not returned.
    In addition to extensive documentation, organizations have filed 
numerous administrative complaints and legal claims based on these 
abuses.\49\ In May 2012, the ACLU submitted an administrative complaint 
concerning serious abuses against travelers in CBP custody at ports of 
entry. And in March 2013, Americans for Immigrants Justice filed 
Federal Tort Claims actions on behalf of four immigrants who were held 
in CBP custody. Customs and Border Protection should be required to 
implement and enforce binding short-term custody standards, including 
minimum conditions for detention, like the provision of adequate 
nutrition, appropriate climate, and medical care; dissemination of 
legal rights information in commonly-spoken languages; access to visits 
by lawyers, consular officials and non-Governmental organizations; and 
enforceable policies for credible fear procedures relating to asylum-
seekers.
---------------------------------------------------------------------------
    \49\ ACLU Demands Federal Investigation Into Charges of Abuse by 
Border Agents: Abuse of U.S. Citizens and Non-Citizens Alike 
Necessitates Greater Oversight and Accountability (May 10, 2012), 
available at http://www.aclu.org/immigrants-rights/aclu-demands-
federal-investigation-charges-abuse-border-agents; AI Justice Takes 
Action Against Border Patrol for Abusing Immigrant Women (Mar. 14, 
2013), available at http://aijustice.org/ai-justice-takes-action-
against-border-patrol-for-abusing-immigrant-women.
---------------------------------------------------------------------------
                             iv. conclusion
    The ACLU urges the House to reject S. 744's wasteful resource 
splurge on border security as irrational and damaging to border 
communities. Instead, Congress must prioritize the reduction of abuses 
in the currently-oppressive immigration and border enforcement system. 
That profligate enforcement has cost $219 billion in today's dollars 
since 1986.\50\ By jettisoning proposals for escalated border security 
that clash with civil liberties and thereby creating space for genuine 
immigration reform, Congress can ensure that the roadmap to citizenship 
for aspiring Americans, which is indispensable to true immigration 
reform, is a generous one free of unjust obstacles.
---------------------------------------------------------------------------
    \50\ Robbins, ``U.S. Grows,'' supra.

    Mr. O'Rourke. Wonderful. Thank you. I want to thank you for 
convening this panel and for your leadership on this issue and 
asking in a previous hearing what I think is probably the most 
important fundamental question, which is, what does a secure 
border look like? Then work back from that and decide how we 
want to get there, what we are willing to spend, what we are 
willing to sacrifice in order to achieve that.
    I guess my question is along those lines in terms of we 
talked about a lot of balances that we are trying to strike 
right now especially at the border. One that I think about a 
lot is the balance between seeing Mexico and the U.S.-Mexico 
border as a threat versus an opportunity. That is the reason 
for providing those maps to all the Members.
    I think far too often we exclusively see Mexico as a 
threat, whether it is drug smuggling, human smuggling, the 
potential for terrorist activity crossing our borders. So I was 
hoping to get an answer from the panelists on how you can 
quantify or prioritize that threat if, as I have heard the 
Secretary of Homeland Security on down say that the single 
greatest priority and the reason that we have this committee is 
to ensure that we prevent terrorist attacks in this country.
    Given the fact that those other threats--human smuggling, 
illegal immigration, drug smuggling are significant but 
secondary, I guess, I have to ask the question are we already 
doing too much? Is $18 billion, which is twice what we were 
spending in 2005, is 19,000 or 20,000 Border Patrol Agents, 
which is a doubling over what you had the previous decade at a 
time when net migration from Mexico is zero, when we have 
record low north-bound attempts, when we have record high 
south-bound deportations.
    Are we too fixated on this threat to the exclusion of 
capitalizing on the trade with that country, increasing the 
economic progress on both sides of the border, which I would 
argue would also increase security? If that is the case, how do 
we approach this issue in a more rational, more fiscally 
responsible, more humane manner?
    I guess I will start with Commissioner Ahern.
    Mr. Ahern. Thank you very much. I think one of the points 
to begin with one of your last comments about fiscally 
responsible and even back to the Chairwoman's question on do we 
need more and the process we went through when we doubled the 
size of the Border Patrol and looking at resource deployment 
today.
    I am not sure how widely known it is throughout the 
Congress, the appropriators probably have a pretty good handle 
on this but I am not sure how broadly it is known. The 
positions today are not fully funded. So that might be one of 
the first steps before we look at increasing. You talked about 
fiscal responsibility, let's take a look at the current 
resources we have because as we doubled the size of the Border 
Patrol, those costs were not annualized in the budget each 
year.
    So, as we had mandatory minimums and things of that nature, 
and couldn't go below certain levels, the head of the 
organization had to then take a look at where do you pull 
resources from elsewhere so out of the trade positions to go 
from other locations in air and sea ports to go ahead and make 
sure that we hit those mandatory minimums.
    So, I think one of the first steps would be is take a look 
at the appropriations because I think this year the 
organization had like a $200 million to $300 million salary 
shortfall that needed to be fixed. Then you talk about delays 
for technology-deployment or capital infrastructure 
improvements. You have to pull from those other accounts so you 
are not anti-deficient and you have to pay your salaries and 
benefits first. So I think that is a fiscally responsible thing 
to begin with.
    On the relationship with Mexico and I would also suggest 
that we don't exclude the discussion with Canada as well 
because, again, looking at the border we are not looking just 
at the Southwest Border issue in my view. In my experience you 
take a look at what is occurring both with Canada and Mexico as 
well as our littoral borders with the maritime domain as well 
as the air.
    But speaking of Mexico, there has been tremendous amount of 
discussions over the last several years that I was a part of it 
and I know continued after my departure. I think Secretary 
Napolitano is down there this week to meet with President 
Nieto's cabinet level officials and her counterparts on real 
significant security issues but also equally significant report 
on cross-border trade issues.
    Mexico today is still I think our third-largest trading 
partner. I think as an opportunity we need to continue to find 
ways to expedite legitimate trade, also legitimate travel. I 
think there has been some moves in that regard. But I think, 
you know, some support in those areas could actually be a 
downpayment on future fiscal opportunities as we are able to 
streamline legitimate travel and trade. Does that actually 
become the seed that would grow more opportunities going 
forward?
    So, I think looking at those things and continuing to build 
upon that, because the organization that I was a head of for 
many years does have that responsibility beyond just as far as 
the homeland security, border security mission. But it is also 
to promote and expedite legitimate travel and trade as well. 
That was something that was never excluded in the overall 
thought process and decision-making.
    Mr. O'Rourke. Madam Chairwoman, I am out of time but I 
certainly would like to hear the opinions from the other 
panelists so perhaps we can follow up, either privately or 
afterwards, but thank you. I yield back.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman now recognizes the gentleman from South 
Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman for holding this 
hearing. I think it is very applicable and apropos to what is 
going on.
    To echo the words of Senator Cardyn just a few minutes ago 
the international criminal organizations and drug cartels 
regularly explored our borders not to mention the real 
possibility of foreign terrorist organizations to deliver 
drugs, contraband weapons, laundered money, human trafficking, 
and God only knows what else into this country. Senator Cardyn 
goes on to say that the threat is at our door.
    Madam Chairwoman, I will remind this committee that not 
every person that transits our porous border are Hispanic and I 
question what these other-than-Mexican persons--and that is not 
my term, that is a formal term that is used by CBP and DHS--but 
what these OTM personnel, keep in mind apprehensions are of 
Africans, Asians, and those of Middle Eastern descent as well 
as the Hispanics, what are they coming here for? So I just 
remind the committee about that.
    Congressman Lamar Smith recently sent a Dear Colleague to 
every Member of Congress I assume, with several articles about 
the whole immigration issue and border security issues, and I 
will submit this for the record when I finish my statement.
    Mrs. Miller. Without objection.
    [The information follows:]
Letter From Lamar Smith, A Representative in Congress From the State of 
                                 Texas
                     immigration issues to consider
                                     July 22, 2013.

    Dear Colleague: Much is at stake in the immigration debate. America 
has the most generous immigration system in the world and it should 
continue. However, our immigration system must put the interests of 
America first. The enclosed materials highlight solutions and pitfalls 
to immigration reform, aas well as how Americans view this important 
issue.
    For additional information, please contact Curtis Philp in my 
office.
            Sincerely,
                                               Lamar Smith,
                                                Member of Congress.
   Attachment 1.--National Review Online/Sessions: How GOP Can Turn 
                     Immigration Debate On Its Head
By Jeff Sessions, July 10, 2013 5:29 PM.
http://www.nationalreview.com/corner/353129/sessions-how-gop-can-turn-
        immigration-debate-its-head-jeff-sessions
    The White House and their congressional allies believe that the 
Senate immigration bill can be used as a political cudgel against House 
Republicans.
    They are wrong. If Republicans do the right thing, they will not 
only turn the immigration debate on its head but will begin the 
essential drive to regain the trust of working Americans.
    We already know that the public repudiates the Gang of Eight's 
amnesty-first model by a 4-1 margin. Less discussed is the public's 
broad opposition to the large increases in low-skill immigration--and 
its impact on jobs and wages--that lies at the heart of the Senate 
proposal.
    In their zeal to rush this 1,200-page train wreck through the 
Senate with as many votes as possible, Democrat leadership whipped 
every single member of their conference. After over four years of the 
Obama presidency, wages have continued their painful decline. But the 
same Democrat senators who attacked President Bush for declining wages 
have suddenly fallen silent.
    And so, with unanimous Democrat support, the Senate adopted a bill 
that adds four times more guest workers than the rejected 2007 plan at 
a time when 4.3 million more Americans are out of work and 20 million 
more Americans are on food stamps. The proposal also grants immediate 
work authorization to those here illegally while dramatically boosting 
permanent levels of annual legal immigration in the future. Based on 
Congressional Budget Office data, the bill would grant permanent 
residency to 46 million mostly lower-skill immigrants by 2033.
    The result? CBO says wages would fall for the next dozen years, 
unemployment would rise, and per-capita GNP would be lower for the next 
quarter century.
    Strikingly, wages are lower today than in 1999. Median household 
income has declined 8 percent. One in seven recent college graduates is 
unemployed. One in three Americans without a high-school diploma can't 
find work. The Senate immigration bill--written by the White House, 
Democrat leadership and supported by the entire Democrat conference--
sacrifices the economic interests of these Americans in deference to 
the politicians and business interest who want lower-cost labor.
    If there is any lesson for the GOP to learn from 2012, it's that we 
must do a better job fighting for and connecting with working Americans 
of all backgrounds--immigrant and native-born alike--whose wages have 
fallen and whose employment opportunities have increasingly diminished.
    In pushing for this bill, the Left has abandoned and taken for 
granted the struggling worker. By doing the right thing on immigration, 
the GOP can distance our party from the corporate titans who believe 
the immigration policy for our entire country should be modeled to pad 
their bottom line.
    Consider this story relayed in a recent New York Times article:

``Since John Vretis was let go by an electronics company in November, 
he has made it through the first and second cut of applicants at 
several companies near his home in Moline, Ill. But Mr. Vretis has yet 
to receive an offer. He recently interviewed at a metals company that 
is adding 25 workers a month, but was told it had 4,000 applicants for 
those positions. `I'm 55 and I know that's an issue,' said Mr. Vretis, 
who holds an associate's degree in accounting.''

    With all due respect to Mr. Zuckerberg, Mr. Rove, and the Chamber 
of Commerce, there is not a shortage of workers in America. There is a 
shortage of jobs.
    The failed 1986 amnesty has been much and rightly discussed 
throughout the current immigration debate. But there is an even more 
poignant lesson to be drawn from the Reagan years: One thing that made 
President Reagan such an exceptional leader was the clarity and courage 
with which he gave a fresh voice to the economic concerns and needs of 
his time.
    The GOP is presented with such a moment now. The White House has 
made its central legislative priority a bill that would result in 
decades of stagnant wages, stubborn unemployment, and increasing 
poverty. Instead of joining in that destructive effort, the GOP should 
reject it and demand reforms that encourage self-sufficiency and 
promote rising wages.
    Both as a matter of economic policy and social policy, the best 
course for America is one that helps more of our residents move off of 
welfare, off of unemployment, and into good-paying jobs. We can't 
simply ignore the large number of chronically underemployed Americans. 
Immigration policy should promote--not inhibit--individual opportunity 
and community confidence.
    The Senate immigration bill is Obamacare's 1,200-page legislative 
cousin. It is a disaster on every level. Republicans should make no 
effort to salvage it or to offer even the slightest hope of revival. 
Instead, we should draw sharp and bold contrasts that earn the loyalty 
of our faithful supporters and the newfound respect of the millions of 
working Americans who have turned away.

Jeff Sessions represents Alabama in the United States Senate.
Attachment 2.--Legal and Illegal Immigrants Gain At Native-Born Expense
http://news.investors.com/ibd-editorials/071113-663399-immigrants-gain-
        jobs-while-native-born-lose.htm
    Lost Opportunities.--Immigrants, both legal and illegal, have 
accounted for all the job gains in the U.S. since 2000. With labor 
force participation rates at record lows, why do some tout the benefits 
of importing workers?
    According to a White House report released Wednesday, the 
immigration legislation tinkered together by the Gang of Eight (or Gang 
of Ocho, as critics sneer) would increase real GDP by roughly $700 
billion in 2023 and reduce the federal deficit by almost $850 billion 
over the next 20 years.
    This would happen, we're told, by bringing illegal workers out of 
the shadow economy into the real economy where they'd pay taxes and 
contribute to society.
    The long-term costs are ignored, though. The Heritage Foundation 
reckons the short-term tax boost would lead to a long-term drain of up 
to $6.3 trillion in benefits that legal taxpayers would have to fund 
for legalized immigrants over their lifetimes.
    Indeed, while the Gang of Eight's bill bars amnestied immigrants 
from receiving most federal benefits for 10 years, the time-frame 
supporters tout as providing the boon, the costs will stack up after 
that.
    The Congressional Budget Office analysis of the supposed benefits 
does not take into account the Medicare and Social Security liabilities 
that amnestied illegal aliens will begin accruing immediately.
    While that debate rages, the Center for Immigration Studies has 
released a report questioning the need to import workers or amnesty 
those already here in an economy where the labor force participation 
rate is at a record low, millions have dropped out of the workforce and 
too many are underemployed because they can't find full-time 
employment, a situation ObamaCare already is making worse.
    According to the CIS analysis, 22.4 million immigrants of working 
age held jobs at the beginning of this year, up 5.3 million over the 
total in 2000. Native-born workers with jobs dropped 1.3 million over 
that period, from 114.8 million to 113.5 million.
    ``Given the employment situation in the country, the dramatic 
increases in legal immigration contemplated by the Gang of Eight 
immigration bill seem out of touch with the realities of the U.S. labor 
market,'' say study authors Steven Camarota and Karen Zeigler.
    We agree with that observation.
    The total number of working-age (16-65) natives not working--
unemployed or out of the labor force entirely--was nearly 59 million in 
the first quarter of this year, a figure that has changed little in the 
past three years and is nearly 18 million larger than in 2000.
    According to the CIS report, between the first quarter of 2000 and 
the first quarter of 2013, the native-born population accounted for 
two-thirds of overall growth in the working-age population, but none of 
the net growth in employment among the working-age has gone to natives.
    The overall size of the working-age native-born population 
increased by 16.4 million from 2000 to 2013, and those Americans have 
been hammered by that 1.3 million job drop.
    Before we're accused of being nativist, let us state that legal 
immigrants, particularly those with skills this beleaguered economy 
needs, have always been welcome. But clearly this economy is suffering 
from a shortage of jobs, not workers, and when you consider that 40% of 
illegal aliens are people who came here legally and simply overstayed 
their visa, the Gang of Eight rationale for de facto amnesty is off 
target.
    We ask Tea Party people what books they read and the content of 
their prayers, but we can't track those who overstay their visas? Maybe 
the NSA could help.
    We could have solved much of the immigration problem simply by 
enforcing existing law requiring employers to verify whom they hire and 
for the government to make sure immigrants leave when they're legally 
required to.
    Now that's a job most Americans are willing to do.
                                 ______
                                 
                      Attachment 3.--Kill the Bill
  Passing any version of the Gang of Eight's bill would be worse than 
                            passing nothing.
By William Kristol & Rich Lowry, July 9, 2013 12:00 AM.
http://www.nationalreview.com/article/352919/kill-bill-william-kristol-
        rich-lowry
    We are conservatives who have differed in the past on immigration 
reform, with Kristol favorably disposed toward it and Lowry skeptical. 
But the Gang of Eight has brought us into full agreement: Their bill, 
passed out of the Senate, is a comprehensive mistake. House Republicans 
should kill it without reservation.
    There is no case for the bill, and certainly no urgency to pass it. 
During the debate over immigration in 2006-07, Republican rhetoric at 
times had a flavor that communicated a hostility to immigrants as such. 
That was a mistake, and it did political damage. This time has been 
different. The case against the bill has been as responsible as it has 
been damning.
    It's become clear that you can be pro-immigrant and pro-
immigration, and even favor legalization of the 11 million illegal 
immigrants who are here and increases in some categories of legal 
immigration--and vigorously oppose this bill.
    The bill's first fatal deficiency is that it doesn't solve the 
illegal-immigration problem. The enforcement provisions are riddled 
with exceptions, loopholes, and waivers. Every indication is that they 
are for show and will be disregarded, just as prior notional 
requirements to build a fence or an entry/exit visa system have been--
and just as President Obama has recently announced he's ignoring 
aspects of Obamacare that are inconvenient to enforce on schedule. Why 
won't he waive a requirement for the use of E-Verify just as he's 
unilaterally delayed the employer mandate? The fact that the 
legalization of illegal immigrants comes first makes it all the more 
likely that enforcement provisions will be ignored the same way they 
were after passage of the 1986 amnesty.
    Marco Rubio says he doesn't want to have to come back ten years 
from now and deal with the same illegal-immigration problem. But that's 
exactly what the CBO says will happen under his own bill. According to 
the CBO analysis of the bill, it will reduce illegal immigration by as 
little as a third or by half at most. By one estimate, this means there 
will be about 7.5 million illegal immigrants here in ten years. And 
this is under the implausible assumption that the Obama administration 
would administer the law as written.
    The bill's changes in legal immigration are just as ill considered. 
Everyone professes to agree that our system should be tilted toward 
high-skilled immigration, but the Gang of Eight bill unleashes a flood 
of additional low-skilled immigration. The last thing low-skilled 
native and immigrant workers already here should have to deal with is 
wage-depressing competition from newly arriving workers. Nor is the new 
immigration under the bill a panacea for the long-term fiscal ills of 
entitlements, as often argued, because those programs are 
redistributive and most of the immigrants will be low-income workers.
    Finally, there is the sheer size of the bill and the hasty manner 
in which it was amended and passed. Conservatives have eloquently and 
convincingly made the case against bills like this during the Obama 
years. Such bills reflect a mistaken belief in central planning and in 
practice become a stew of deals, payoffs, waivers, and special-interest 
breaks. Why would House Republicans now sign off on this kind of 
lawmaking? If you think Obamacare and Dodd-Frank are going swimmingly, 
you'll love the Gang of Eight bill. It's the opposite of conservative 
reform, which simplifies and limits government, strengthens the rule of 
law, and empowers citizens.
    There's no rush to act on immigration. The Democrats didn't do 
anything when they controlled all of the elected branches in 2009 and 
2010. The Gang of Eight tells us constantly that we have a de facto 
amnesty for illegal immigrants now. Fine. What's the urgent need to act 
immediately, then?
    The Republicans eager to back the bill are doing so out of 
political panic. ``I think Republicans realize the implications for the 
future of the Republican party in America if we don't get this issue 
behind us,'' John McCain says. This is silly. Are we supposed to 
believe that Republican Senate candidates running in states such as 
Arkansas, North Carolina, Iowa, Virginia, and Montana will be hurt if 
the party doesn't embrace Chuck Schumer's immigration bill?
    If Republicans take the Senate and hold the House in 2014, they 
will be in a much better position to pass a sensible immigration bill. 
At the presidential level in 2016, it would be better if Republicans 
won more Hispanic voters than they have in the past--but it's most 
important that the party perform better among working-class and younger 
voters concerned about economic opportunity and upward mobility. 
Passing this unworkable, ramshackle bill is counterproductive or 
irrelevant to that task.
    House Republicans may wish to pass incremental changes to the 
system to show that they have their own solutions, even though such 
legislation is very unlikely to be taken up by the Senate. Or they 
might not even bother, since Senate Democrats say such legislation 
would be dead on arrival. In any case, House Republicans should make 
sure not to allow a conference with the Senate bill. House Republicans 
can't find any true common ground with that legislation. Passing any 
version of the Gang of Eight's bill would be worse public policy than 
passing nothing. House Republicans can do the country a service by 
putting a stake through its heart.
William Kristol is editor of The Weekly Standard. Rich Lowry is editor 
        of National Review.

    Mr. Duncan. Thank you.
    He states in the letter that our immigration system must 
put the interest of Americans first. The first thing that comes 
to mind is the need for a secure border primarily in the 
southwest region as that is where the majority of illegal 
immigration takes place, a secure border with metrics and 
benchmarks which are verifiable.
    At last glance, we are still a sovereign Nation and America 
should be able to secure our Nation and secure our borders. But 
I will echo the words of the gentleman from Texas, that does 
come with some sort of legitimate trade issues as well. I 
recognize that, and he and I have had good conversations about 
that and so it has got to facilitate that as well.
    We as Americans need to determine who comes in our country, 
how many come in to the United States annually and what they 
come for and how long they stay. We are a Nation of laws and 
the enforcement of laws--excuse me, the enforcement laws are 
already on the books without the need to create more laws in 
the scope of the Senate bill that has passed.
    Let's enforce the laws that we have. This includes 
enforcement of those who overstay their permission slip or 
their visa that they obtained to come into America for a myriad 
of reasons.
    So instead of having certain aspects of our Government 
inquire about the reading habits and prayer content of Tea 
Party groups, why not focus our attention on the 41 percent to 
49 percent of our illegal alien population that are currently 
here, those that have overstayed their visa. Almost half of the 
illegals in this country, America, are folks that we gave a 
permission slip for them to come to this country and they just 
decided to stay.
    They are visa overstays. They have broken the law. We must 
come up with a workable entry-exit system for those we give 
permission to come to our country. So let me be clear, there is 
a difference between legal immigration and illegal immigration. 
Legal immigrants have always been welcome in this country and 
always will be.
    But the way to address illegal immigration is not to take 
the door off the hinges at our Nation's borders. I posed a 
question back home when I speak that mirrors something, I think 
like Mr. Ahern just said, ``What does a secure border look 
like?''
    I think that is a question we all have to ask ourselves, 
``What does a secure border truly look like? Is it a West 
Germany, East Germany border-tight, concrete-steel, concertina-
wire effort?'' If it is, we need to get that in our mind. But 
if it is not, it does have to take into consideration of trade 
and other things and legal immigration issues as well. We have 
to ask ourselves that question as Americans.
    I believe that Chairman McCaul's legislation is a step in 
the right direction. We are talking about the outcome-based 
metrics here, so in my limited time, I ask Mr. Stana: In your 
previous work at GAO, after Secretary Napolitano stopped 
reporting miles under operational control, you warned that the 
absence of measures for border security may reduce oversight 
and DHS accountability, which has proven correct.
    So I ask you: Do you still think that the lack of outcome-
based performance measures have left Congress and the public 
effectively in the dark when it comes to the current state of 
border security?
    Mr. Stana. You certainly need goals and performance 
measures to gauge any program and to understand exactly where 
the next dollar ought to be spent and how successful the last 
dollars were spent. Those goals and measures aren't there now.
    Mr. Duncan. Okay. Are meaningful metrics necessary to 
gaining the trust and support of the American people?
    Mr. Stana. I would assume so. I think they are just good 
management tenets.
    Mr. Duncan. Yes. Absolutely. So those metrics, I think are 
part of this, trying to have two or three different 
organizations all sign off on the fact whether you have a 
secure border or not. I try to take the politicization of it 
out to some degree. Those are aspects of this bill that I like.
    But I do know this, Madam Chairwoman, that I have been to 
the border. I have seen the fencing. I do know there are areas, 
especially in Arizona and Tucson sector that are very 
mountainous. That are like the Rocky Mountains in their height 
and the scope and the depth of their canyons and it is very 
difficult to put fencing there.
    But that one thing that I do know is that fencing will 
create--if you can get up right up to the borders, it will 
create these corridors that then we can focus our personnel in. 
The personnel can be used effectively, not just at the ports of 
entry but also in those canyons, in those mountains, making 
sure that those drug traffickers and other bad guys that are 
bringing folks into this country can be thwarted.
    So we can focus our efforts. I think fencing makes a lot of 
sense in that issue. I think that is one thing the Chairman's 
bill does. So, I appreciate it. I look forward to maybe a 
second round of questioning here, and with that I yield back.
    Mrs. Miller. Thank you, gentleman.
    The Chairwoman now recognizes our Ranking Member, the 
gentlelady from Texas, Ms. Jackson Lee, who is busy running in 
between a couple of meetings this morning.
    Ms. Jackson Lee. I know.
    Madam Chairwoman, let me thank you for your indulgence and 
thank you for placing that on the record that I am in between 
several meetings. But this is a very important hearing. Let me 
thank all of the witnesses for being here.
    Mr. Ahern, please tell Secretary Chertoff that I said 
hello. I have been here long enough to have served when he was 
Secretary of Homeland Security. Let me start with Mr. Stana, 
you have found yourself in this room a number of times. We 
thank you.
    So let me pointedly ask the question, with other elements 
that trace or frame themselves around immigration reforms, the 
number of components to E-Verify: Do we really need border 
security to move forward on immigration? What I am saying is do 
we need a--as you well know, this bill focuses on metrics in a 
study in a thoughtful approach. Do you see the need for a 
trigger when you connect border security and then immigration 
reform? We have to keep waiting and waiting and waiting. Do you 
see other elements that allow us to go forward and do it 
simultaneously or know that it is going to come in order?
    Mr. Stana. Looking back to how the 1986 act was implemented 
I think would be helpful here and maybe Jay remembers that, 
too. But what happened with the 1986 act is a set time 
positive, a date where you had to enter the country by, in 
order to receive temporary permission to stay in a path to LPR 
which, legal permanent residency, which was 5 years.
    So they took the illegal immigrant in the country issue off 
the table relatively quickly. Another thing that they did which 
proved----
    Ms. Jackson Lee [continuing]. They move ahead to get that 
framework going, so you at least know who is supposed to be 
here and who is not supposed to be here.
    Mr. Stana. Yes. They kind of tried to take people out of 
immigration limbo, if you will. But then there were only 3 
million and half of those were ag workers, so it was a 
different situation than today.
    Another thing they did is they publicized the I-9 process 
and the danger of interior enforcement and had education 
programs with employers. The word got out, at least initially 
that the Government was serious about this. In fact, there 
wasn't a whole lot of pressure on the border for the first 2 or 
3 years that the act was enforced until it became apparent that 
the I-9 process could be defeated by false documents and there 
really wasn't much of an enforcement mechanism internally.
    That is when--at least I would connect those dots, the 
pressure came to the border. So I think it is important to 
understand that border security issues are important but you 
can't isolate them from all the other moving parts in the 
immigration reform and immigration control system.
    It is only one of many. Necessarily immigration security 
and immigration control measures at the border aren't the only 
thing that could be successful in controlling and managing 
immigration flows.
    Ms. Jackson Lee. That is a very important point, because I 
think H.R. 1417 speaks directly to that by calling upon a 
roadmap and metrics. I heard the comments about that that is 
not the only thing. I agree with that. Our bill does not 
suggest that metrics technologies are the only thing. We are 
the border security component, and I think we complement very 
well what you have just said other aspects to get regular 
order.
    The Senate bill's regular order deals with how you address 
the now 11 million, which a large part are agriculture and a 
large part are overstays. Clearly, I think those should be 
addressed as well.
    The question of resources: One bill has $46 billion and 
throws money on top of the already enormous amount of money 
which I supported in years past, ramping up Border Patrol 
Agents, because in the 1990s, we weren't there. In the 2000s we 
weren't there, but we did ramp it up.
    Mr. Stana. You know, an interesting statistic along that 
for the last----
    Ms. Jackson Lee. Do you think that, you know, that you can 
do it by just saying let's add another 50,000 Border Patrol 
Agents?
    Mr. Stana. Well, I think we ought to understand what works. 
If it makes sense to add more of a certain component that is 
fine, but if you look at the apprehensions in the Tucson 
sector, despite billions of dollars more in fencing and cameras 
and sensors and radars that was deployed to Tucson, their 
success rate, that is the number of apprehensions per number of 
known entrants, is about the same as it was in the mid-2000s.
    So how does that happen if we had all these other inputs? 
Something is working but something is not working to 
expectation.
    Ms. Jackson Lee. I think that is a good point. Mr. Ahern, 
if I may follow up with you. This whole idea of fencing and 
staffing, we have ports of entry where Americans go through, 
where business people go through, where trucks with goods go 
through. Don't we have to find that balance if we are going to 
make the system actually work?
    I want everybody to also know when we say border security 
and that we have a Northern Border.
    Mr. Ahern. That is right.
    Ms. Jackson Lee. We must never leave that out and I know 
Chairwoman Miller continuously reminds us. Mr. Ahern.
    Mr. Ahern. Yes. Thank you. I will just go ahead and restate 
some of the things that are also in the written testimony and 
also just got briefly, earlier. You do need to take a look at 
all aspects of the border air, land, and sea. I think 
oftentimes there is too much time spent focused on, you know, 
what is occurring on our land border with Mexico, you know?
    Certainly, there is 1,900 miles on that Southern Border. 
But when you take a look at the entire universe to include 
95,000 miles of maritime borders, it is a pretty broad spectrum 
we need to be taking a look at versus isolating on 
particularized threats.
    I think that clearly, when you take a look at moving 
legitimate travel and trade, 350 million people coming across 
our borders and also $2.3 trillion of trade, we need to make 
sure that we make the capital investments for our ports of 
entry.
    Frankly, it is the same elements of the strategy that we 
use to secure the border to where it is between the ports of 
entry today. It is infrastructure. We need to have better 
facilities that are actually able to be contemporary with the 
type of volume and the level of goods that comes through there 
today.
    We need to make sure as far as we have the appropriate 
levels of personnel that we did when we took a look at the 
strategy between the ports of entry. It also introduced new 
technology, ways to go ahead and biometrically verify people 
coming into the country. There are some examples that certainly 
in the air environment. They are doing some of that coming into 
the country on the southern borders, some pilot tests going on 
today, the introduction of higher non-intrusive in technology 
to be able to look at things in an expedited fashion.
    So it is the same three basic principles--infrastructure, 
technology, and personnel, but I do think, as we did the much-
needed ramping-up of the border between ports of entry that was 
done to the detriment of what was occurring in the ports of 
entry. By example I started in the Government for what was the 
former customs service in the 1970s.
    Just only within the last 2 years has the world's largest 
land border port of entry is going through a modernization 
effort. That is a pretty strong statement. I mean, I know that 
there are examples of that across both borders and it is 
something that we do need to take a look at and turn our 
attention to because I would submit that the investments we 
make in personnel, in the technology and in the infrastructure 
would increase travel and trade and therefore have a positive 
economic impact.
    At the same time, those resources are also focused on the 
security threat and the criminal threat of the 7,700 people 
that have been apprehended at the ports for serious criminal 
activity and 145,000 people are actually denied admission 
compared to the universe of 365 between the ports of entry.
    Ms. Jackson Lee. Yes. Just this last quick quote, Madam 
Chairwoman. I just want to finish on this. I also, it looks 
like Mr. Alden wants to answer, but let me just say this. I 
think you are speaking to the approach that H.R. 1417 is 
taking. I assume you looked at that bill. Would you say that?
    Mr. Alden. Yes.
    Ms. Jackson Lee. Yes. I just want to ask this final point. 
In the deliberation that we made in drafting this bill along 
with very important amendments from all of our Members, we also 
thought it was important because we know that our citizens 
travel and business persons travel that we actually sited 
issues dealing with civil liberties as you come across the 
border, the idea of racial profiling as you come across the 
border and the idea of human trafficking, which I think is very 
unique for a border security bill.
    I just want to get a yes or no, whether you think that is 
positive.
    Mr. Ahern. Yes.
    Ms. Jackson Lee. Mr. Alden.
    Mr. Alden. I just wanted to add one quick thing on the 
Tucson sector. If you look at the GAO report from December 
2012, which is tremendously important, this was the first time 
the Border Patrol had shared all of the data that it had been 
gathering for a decade now on people that it apprehends in the 
border region, it does in fact, shows significant increases and 
effectiveness in the Tucson sector over the last 5 or 6 years.
    Now, you can question how much of that is a result from 
enforcement. How much of that is the job became easier because 
with the economic downturn, fewer people were coming. But I 
think it is quite clear looking at the experience of Tucson 
that enforcement can play a significant role in discouraging 
illegal immigration. I think the GAO study from December shows 
that quite clearly.
    Ms. Jackson Lee. Well, I will just say that our bill does 
not run away from enforcement. We are just suggesting that, at 
least I am, that it is comprehensive. Did you want to give a 
yes or no on those issues that I have just said?
    Mr. Alden. I would agree. I think that was an important 
addition to the bill.
    Mr. Stana. Yes. I do agree. I just do want to say that 
although I am not speaking for GAO, you've got to read those 
statistics carefully. They have been misquoted in the 
Washington Post and elsewhere. I know when I read it, I 
couldn't believe that the Washington Post quoted it in the way 
they did. Read them carefully.
    Ms. Jackson Lee. Thank you.
    Thank you, Madam Chairwoman.
    Mrs. Miller. Thank you, gentlelady.
    The Chairwoman now recognizes the gentleman from 
Mississippi, Mr. Palazzo.
    Mr. Palazzo. Thank you, Madam Chairwoman. I want to thank 
our witnesses for being here today. I have enjoyed our Members' 
questions, statements, as well as your testimony.
    I have the great privilege of serving on two, actually, 
three great committees in the House. One, of course, is this 
committee which is tasked with Homeland Security and the other 
is House Armed Services Committee, which is tasked with the 
defense of our Nation both at home and abroad.
    So sometimes I think of things in different ways, not just 
from my past experiences but also from my committee experience. 
I keep hearing that personnel is a serious issue that Customs 
and Border Protection are, you know, recruiting and retaining 
and training Border Patrol agents.
    So then when you look at the Senate bill, it throws a lot 
of resources at the bill for probably political purposes, 
probably trying to get people to embrace it and then there are 
other obvious schemes built-in for, you know, for other 
Members.
    But if we are going to throw 20,000 more Border Patrol 
agents at the border, billions of dollars in more resources, 
and I know we are actually deploying resources that are coming 
back surplus, assets from Iraq and Afghanistan, which is great. 
We shouldn't have to be going out buying more equipment.
    I want to ask you, and I don't know if you have given this 
great thought, there is also another resource that is coming 
back from Iraq and Afghanistan and that is our men and women in 
uniform, specifically, our members of the National Guard.
    They are highly trained, very dedicated, very loyal citizen 
soldiers who aren't afraid to sacrifice their life for this 
country abroad. I think it could be a huge honor for them to 
actually take a historic role in securing our borders in 
partners with other agencies.
    I know there have already been reports of them being 
engaged, working along the border in several areas. One of my 
amendments to this bill is to find--you know, to look at that 
even more and see what the lessons learned were and perhaps how 
they could be greater utilized, especially when you look at the 
fact that unemployment for our men and women in uniform, our 
veterans is around 21 percent. It is a lot greater than the 
National average.
    I think we can--it would be wrong for us not to see if 
there is a way to utilize them. I would just open it up. I 
would love to hear--I mean, we are still exploring the stages. 
As being a member of the National Guard myself, I know I would 
love the opportunity to go down there and work the border, the 
terrain in many areas is very geographically similar to where 
they have been training. I know they can do the job. I know 
they could get operational control. They probably won't require 
a permanent presence or increase in basically the Border Patrol 
by 100 percent.
    So, Mr. Ahern.
    Mr. Ahern. Yes. Thank you very much. I think, going back in 
history, I think back into the 1980s, there was a program 
called Operation Guardian where we have used the National Guard 
to support the mission of the border both at the ports of entry 
as well as between. Right up until I departed we were using the 
National Guard resources.
    We always viewed the National Guard as kind of a temporary 
augmentation of your staffing, to fill gaps in these, 
particularly as we were looking to surge and double the size of 
the Border Patrol in the period of time in the mid-2005, 2006, 
2007 time frame.
    That is an important distinction, I think, that we need to 
talk about, that having them as a temporary measure. I mean, 
they had different authorities, as you well know, and not being 
able to fully deploy and fully to engage in the border mission 
was certainly an issue.
    I think that we clearly could use them for--it was talked 
about previously--about some of the canyon areas where you 
could have entry identification teams, EITs, being able to 
observe pathways of individuals coming across the border and be 
able to then report it to the Border Patrols so they can then 
respond to those individuals coming between the ports of entry.
    But I think, you know, as we look forward, we should be 
looking at finding ways to bring more of them into the full-
time ranks of Customs and Border Protection as many of them 
are. I know that, many times, I was bringing back many of our 
pilots, the maritime commanders, as well as Border Patrol 
agents who had been activated and sent over into Iraq or 
Afghanistan. We think that is a very important thing to 
continue to find ways to bring them into our full-time employ.
    The last thing I would just comment is there has been 
different references in different bills about having DOD 
engaged and actually deploy the mission that they are familiar 
with from working in theater overseas to secure our border. I 
can't state strongly enough how I think that would be unwise to 
do because you would have two competing entities that are out 
there in uncoordinated fashion that could lead to very 
significant security issues and coordination issues as a result 
of not having a single operation commander in charge of those 
resources.
    I think, you know, temporary uses of resources is 
important, find ways to bring them into the organization on a 
full-time basis, but not having dual-levels of reporting out 
into the field.
    Mr. Palazzo. Mr. Ahern, I think you brought up some good 
points. I would love to hear from the others, but my time--I am 
out of time. The surge concept was exactly what we were 
thinking. It was successful in Iraq, Afghanistan. Apparently, 
it has been successful in the border, not a permanent presence. 
But, again, these are citizen soldiers and they want to have a 
role in protecting our borders at home.
    So I hope and I strongly encourage not just the Members of 
this committee, but those that are going to be involved in 
drafting true border security legislation going forward, that 
they just consider the use of the National Guard and how it is 
going to save billions of dollars to the taxpayer and, also, 
hire a veteran, who, at these times in our economy, who really 
need the work; and, maybe, they can even be rolled into the 
full-time Border Patrol force.
    Thank you.
    Mrs. Miller. I thank the gentleman. The Chairwoman now 
recognizes the gentlelady from California.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Madam Chairwoman. I want to thank 
both you and the Ranking Member for working so hard on these 
issues. I had the opportunity to, as you know, chair this 
subcommittee before, so I have worked with these gentlemen 
quite a bit on this. There is a lot of experience in this 
committee. I hope that people will take their lead from this 
subcommittee in particular because we have gone through so 
much.
    I really want to echo the issue of there is not just the 
Southern Border. As we all know, there is the Northern Border, 
which the Chairwoman has been very diligent about trying to get 
attention on that, as well, as all of our seaports--Puerto 
Rico, Hawaii, I mean Guam--I mean, you name it, we have got 
it--Maine, who has got, I don't know, a thousand islands out 
there or something--I am told they--that is the only State I 
haven't visited in our union--but lots and lots of coasts 
including California, which has a long coast, as well as our 
airports.
    I have been probably the largest voice here talking about 
US-VISIT exit and getting that under control. So I think there 
is a lot of places where we can put technology to work, not in 
the way we saw so dismally in SBInet. We have the scars to show 
for that also, but I think, with respect to US-VISIT, for 
example, it would be incredibly important.
    I would like to see the Senate bill really be more 
flexible, Madam Chairwoman, to put some of this money towards 
our land ports, towards E-Verify, towards US-VISIT to really 
get those things under control. So I really thank you for 
bringing your knowledge, and I wish, somehow, Madam Chairwoman, 
we could disseminate this to the rest of our House of 
Representative Members because they really need--they really 
should be sitting here to understand it is a lot more than just 
putting boots on the ground at the border.
    We also went through the pains with Chief Aguilar in going 
from a little bit over 4,000 in the Customs and Border Patrol 
to 23,000 in the Customs and Border Patrol and, you know, the 
whole supervisory and what do they really do.
    One of the things they also found was that these veterans 
who were coming back weren't necessarily the ones who honestly 
were--could pass the test to be brought into the Customs and 
Border Patrol because Customs and Border is different than 
fighting in Iraq. I sit on both of those committees, so we have 
seen that. I guess, you know, I really hope that we get some 
input, Madam Chairwoman, this subcommittee and this committee 
get some input in trying to do this.
    My question to you all is really--and I really want to 
start with our former GAO who spends so much of his time on 
this. Thank you. Thank you from our country's perspective. Who 
should be on the task force or the committee to figure out what 
are the metrics we are going to measure this by? Who do you 
think would be the best people to put in a room and come up 
with the metrics that we really need in order to know that we 
are not getting an SBInet again, that we are not increasing, 
doubling the size of CBP and don't have any way to sustain 
those salaries over the years?
    Who do we need on that committee to do metrics ?
    Mr. Stana. If you are talking about a committee that is 
apart from the Congressional Committees, which I think you are, 
I think I would look for people with a good dose of 
professional skepticism. That could be part of the DHS OIG or 
GAO. It might be people in the private sector who work for 
different organizations who study these things.
    I think the problems occur when we don't follow the rules 
for acquisitions or we don't follow a prescribed way of 
thinking about how to deploy these assets and we don't bring 
people in with the expertise to ask the tough questions. These 
things just seem to have a life of their own all too often. 
Unfortunately, sometimes, the person with the loudest voice in 
the room prevails.
    Mr. Alden. Could I just add that if you look, there is 
potentially a very strong external research community that 
could be a real asset to the Department of Homeland Security. 
If you look at the relationships that the Department of Defense 
has built up over the years with external research, some of 
them in the universities, some in Pentagon-funded organizations 
of various sorts, the Rand Corporation and others, these have 
been tremendously valuable.
    DHS needs to do the same thing. I would urge you to look, 
for instance, at the National Academy of Sciences study that 
tried to look at this question. It assembled a very fine team 
of researchers on that. DHS has some internal capacity in the 
Homeland Security Institute and the Border Center in Arizona.
    So this really needs to be part of this process going 
forward of bringing together people with real expertise on 
issues of measurement, as well as issues of border security, 
and having these people work closely with folks in DHS, have 
access to the data they need to make these judgments.
    I think this will be part of the sort of maturation process 
for DHS to start to develop the same kind of community that DOD 
has to help it do its work more effectively.
    Ms. Sanchez. If the Chairwoman would give me just a few 
extra seconds to ask our commissioner?
    Mr. Ahern. Thank you. I think that, obviously, I began some 
of this view back in the 1970s. When I left Government in 2010, 
I looked at it both inside and outside of Government. So I 
think I need to punt that to someone else at this point.
    But I think one of the things that I think that is very 
important is to find the right group that has the right level 
of knowledge and the right level of objectivity and one that 
will not be biased or directed to come to a specific 
conclusion. I know that is not a real good answer, but I think 
those should be some of the characteristics of a committee.
    But I think one of the things that we need to be careful of 
going forward, and I have observed this again over the years, 
is that I think just coming up with a border metric, whether it 
is operational control, situational awareness, apprehension 
rate, measuring the flow, all these things that are very 
difficult to go ahead and actually make a determination because 
you don't know what the overall getaway rate is, is not to use 
that for a reason to not move forward.
    Ms. Sanchez. So no trigger kind of point per se. But what 
we are talking about is--I mean, I am excited that there is so 
much money that the Senators want to put into this. I don't 
think it should just be on boots on the ground. I think there 
is land ports. There is E-Verify. There is so much we can use 
this money for. But I really don't want to be wasting it the 
way we did on SBInet.
    So who do we put in a grouping that can help us understand; 
let's get it right?
    Mr. Ahern. I think, again, it has to be an external group, 
some Government as well as, perhaps, some representative from 
the Hill as well to make sure that their interests are, you 
know, covered in the discussion, but I think, again, to the 
point of making sure it is not a trigger. I think that we need 
to make sure and stipulate that there is a level of control 
today that we did not have before.
    Whether it is better, you know, or whether it is at the 
highest levels, these are some of the catchphrases that people 
often use, let's stipulate to the fact that there is better 
security today than we have had before. Let's make sure that we 
focus on what other elements are critically important for an 
overall National strategy, to make sure that we look at things 
such as I spoke about earlier in my opening statement is 
looking at what goes on with verification of employment of 
people that want to come into the United States.
    It is a fundamental element of understanding what the 
problems are. The problem is people want to come here to work 
out of some of the population of the people coming across that 
border; others are just part of transnational criminal 
organizations. I will go to that in a second. But if we can 
actually make it more difficult for people to be employed in 
the United States, illegally, through an E-Verify program and 
making sure it is robust and one that actually has good, timely 
response and accurate data that employers will have confidence 
in, that will actually diminish the flow coming across the 
border, I would submit.
    That way, you can then take the resources you currently 
have and not need to require more to focus on those 
transnational criminal organizations that are smuggling drugs, 
smuggling weapons, smuggling money in and out of this country.
    Mrs. Miller. Thank the gentlelady. The Chairwoman now 
recognizes the gentleman from Utah, Mr. Stewart.
    Mr. Stewart. Thank you, Madam Chairwoman. Thank you again 
to the witnesses. It has been a good discussion. I wish we had 
had a little more time to contrast the House's approach to 
border security with the Senate's. I wish Senator Cornyn had 
been able to stay; there were some questions I would like to 
ask him, I mean, heavens, their approach of let's take an 
additional $20 billion and throw it at the problem and hope 
something good happens.
    I think that encapsulates pretty well their approach, and I 
wish we had a little more time to discuss that but perhaps 
another time. Let me talk about something that is quite 
important to many of us out in the West, I represent Utah.
    About 65 percent of my State is controlled by the Federal 
Government, they are Federal lands, about the same of amount of 
Arizona, for example, and if you look at the entire border 
about 40 percent of our Southern Border are designated Federal 
lands of one type or another, much of that is designated as 
wilderness area, particularly in Arizona with all of the 
restrictions that come with the Federal designation like that 
as wilderness.
    It is not just wilderness, there are, in some cases ESA 
restrictions that make it very, very difficult and in some 
cases impossible for CBP to do what we task them to do. How do 
you patrol an area that you can't have access to other than on 
foot in some cases and even in some cases that may be 
restricted?
    The House--we have made some effort to address that 
concern. I am curious, can you tell me whether the Senate bill 
does at all and then would you just comment on whether you 
think it is a good idea or how we could more effectively 
eliminate some of these concerns of taking huge swaths of the 
border and telling people you can't control it because it is 
either wilderness or there are ESA concerns.
    Comments from any of you on that?
    Mr. Ahern. Let me offer a quick one on that. I think when 
we went through particularly we were looking at building the 
fence going back in the 2006 to 2007 time frame as well as the 
tactical roads for patrolling in those areas. There were some 
significant challenges and environmental issues and also 
dealing with Federal lands, Indian reservations, the Tohona 
nation for one in Arizona certainly is a challenge.
    But I would submit that we were able to work through a lot 
of those particular issues and I am not aware of particular 
parts of that border today with the exception of perhaps the 
Tohono Indian nation in Arizona where there is not the ability 
to actually have patrol through those areas.
    I know that there was some legislation suggested that some 
of that authority should be taken from the Department of the 
Interior and put within the Department of Homeland Security. I 
am not sure if that is the wisest move, I think it would be 
more important to study the entire impact of that and what 
might be going on with other Federal land issues but----
    Mr. Stewart. What concerns do you have with that suggestion 
of taking those areas and putting them or giving DHS more 
responsibility for that?
    Mr. Ahern. I guess, it may not be the best response but it 
is one, I think, that is looking at tradition. Then making sure 
that the Cabinet-level department and the agency that was set 
up to deal with those Federal lands was put up for a very good 
reason.
    To extract some of that authority and responsibility to 
place it in another organization for a mission-related 
function, while it be important, I am not sure it is the trump 
that is necessary.
    I think coordination and I believe there has been a higher 
level of coordination between the Cabinet-level secretaries of 
each department. I know as a former agency head we worked 
through many of those issues where it did not become an 
impediment force in the last couple of years before I departed.
    Mr. Stewart. Okay. I appreciate that. I have to 
respectfully disagree with some of your comments but we could--
and understanding that there are differences of opinions on 
this. Others who would be willing to comment?
    Mr. Stana. Yes. I would basically agree with what Jay said. 
I think when there were problems, oftentimes, it was at the 
local level where they were resolved whether the person in 
charge of the law enforcement component of the Bureau of Indian 
Affairs unit or Foreign Service unit. When they could get along 
with the sector chief and come to an agreement on how to 
operate things worked well. If there were personality problems 
it became a real nightmare. The other thing that was mentioned 
I think is a very important point is these law enforcement 
officials that work for the Department of Interior or 
Agriculture or whatever other agency has oversight over the 
Federal land.
    They have other duties in addition to immigration-related 
duties or border security duties that should really not be 
overlooked when you are thinking about where to put that----
    Mr. Stewart. Well, they not only have other duties, they 
have other priorities and border security is in some cases not 
their priority.
    Mr. Stana. You know, I talked with a lot of them at the 
local level dozens of times down there and their problems have 
normally been the lack of communication and a lack of 
coordination. Once it is communicated and coordinated what the 
priorities are, they will let the Border Patrol go onto their 
land and as long as they don't, you know, take advantage of 
that in a bad way. But those things get worked out.
    Mr. Stewart. Would you say then--your opinion that this is 
just essentially not a concern, it doesn't concern you at all?
    Mr. Stana. It is my opinion that it is something you always 
have to watch for and you have to assure that the mechanisms 
for coordination are there and they are working. It is not to 
say that the problem is always going to be solved.
    Mr. Stewart. Yes, it is a concern to you then.
    Mr. Stana. Well, I think it is something that bears 
watching, yes.
    Mr. Stewart. Mr. Alden, do you have any comments on that?
    Mr. Alden. I would have nothing additional to add. I would 
agree.
    Mr. Stewart. Okay. All right. Thank you. Madam Chairwoman, 
I yield back.
    Mrs. Miller. I thank the gentleman for his questions and I 
thank the gentleman for sort of refocusing us again on really 
the purpose of this hearing which is the study and contrast 
between the House and the Senate versions for border security. 
Just my final question before we adjourn here, I would just ask 
each one of you yes or no. You think the House version is the 
proper path forward as opposed to the Senate?
    Mr. Ahern. I think there are many more elements that I 
think that would add to a better plan for border security as 
part of our overall National security plan than I am seeing in 
the Senate version.
    Mrs. Miller. Mr. Ahern--or excuse me, Alden.
    Mr. Alden. On border security in and of itself, I prefer 
the House approach. The challenge is going to be to see how it 
is integrated into some larger piece of legislation if that is 
the way it goes and that will obviously raise many difficult 
issues.
    Mrs. Miller. Mr. Stana.
    Mr. Stana. I don't think it is fair to say that 1417 is the 
only House approach. I think within its limitations I think it 
is a useful document, but I think, again, this is a many moving 
parts and a more holistic approach than just is articulated 
here is something that needs to be considered. There are 
problems with the Senate bill on how some of these resource 
inputs are fashioned.
    Mrs. Miller. I want to thank all of the witnesses, and 
certainly your testimony has been tremendous and we may have 
some additional questions from Members of the committee and we 
would ask you to respond to those in writing. Therefore, 
pursuant to Committee Rule 7(c), the hearing record would be 
held open for 10 days. I would yield at this time to my Ranking 
Member for a UC request.
    Ms. Jackson Lee. Madam Chairwoman, thank you. I might add 
that this has been a very positive hearing and I might add to 
Mr. Stana, I personally as the Ranking Member offer this as a 
component and agree with you that we could have a comprehensive 
approach, but I think this is the strongest component of border 
security which is H.R. 1417.
    I hope you will consider--continue to study this because I 
think you will find that it has a very strong response to what 
we are concerned about. With that, I ask unanimous consent to 
have the statement of the American Immigration Lawyers 
Association and the statement for--excuse me, I am sorry, and 
the National Immigration Forum statements for the record, ask 
unanimous consent that they would be allowed and submitted into 
the record.
    Mrs. Miller. Without objection.
    [The information follows:]
       Statement of the American Immigration Lawyers Association
                             July 23, 2013
    The American Immigration Lawyers Association (AILA) submits this 
statement to the Subcommittee on Border and Maritime Security. AILA is 
the national association of immigration lawyers established to promote 
justice and advocate for fair and reasonable immigration law and 
policy. AILA has over 13,000 attorney and law professor members.
    In recent years, a resource-heavy approach has resulted in a 
dramatic, unprecedented build-up of border security enforcement and a 
massive expenditure of resources. Nonetheless, lawmakers continue to 
call for additional investment of resources on the border. For example, 
the ``border surge'' amendment adopted by Senate bill S. 744 would 
allocate billions of dollars to double an already excessive number of 
Border Patrol Agents and increase technology and infrastructure on the 
Southern Border. Such an approach is a gross expenditure of taxpayer 
funds that is unjustified and may be completely unnecessary. Little to 
no evidence was presented during consideration of S. 744 showing that 
the commitment of resources specified by the bill would be cost-
effective or would significantly improve border safety or National 
security.
    AILA has consistently called for smart border strategies that 
establish clear and reasoned goals for resource allocation and 
enforcement actions at the border. Until a border plan is developed and 
successfully tested to ensure it will actually improve the safety of 
border communities and National security, Congress should refrain from 
prescribing or authorizing specific expenditures for personnel, 
fencing, or other infrastructure on the border.
    In the past, Congress has revisited highly prescriptive border 
enforcement laws. After passing the Secure Fence Act of 2006, Congress 
began questioning the wisdom of the mandatory double-layered fencing 
required under the law and amended it to give DRS more discretion as to 
where and what kind of fencing was appropriate.
    Overly prescriptive legislation would also make it harder for DRS 
to respond quickly and efficiently to changing needs on the borders. In 
testimony before Congress, Michael Fisher, Chief of the U.S. Border 
Patrol, questioned the wisdom of a mandatory 90 percent operational 
control standard saying that it ``wouldn't make sense'' for all 
sectors.
    Any border security plan should be based on performance metrics and 
measurable standards of border safety that are achievable and fiscally 
responsible. House bill H.R. 1417, Border Security Results Act of 2013, 
rightly shifts the focus to an outcome-based measure rather than one 
based on the resources committed to border security. H.R. 1417 requires 
DHS to develop and implement a plan over 2 to 5 years to achieve 
specific border security goals, including reaching a 90 percent 
operational control level in the high-traffic border regions and along 
the Southwest Border.
                 border security and immigration reform
    One problem with H.R. 1417 is its failure to address how border 
security will fit in with reforms to the legal immigration system or a 
legalization plan for the undocumented. Without these key components of 
reform that go hand-in-hand with border security, a massive commitment 
of resources is unlikely to improve border security or reduce illegal 
border crossings. Effective border security cannot be achieved in a 
vacuum--it requires all the moving parts to be improved in order to 
produce a workable result.
    Finally, AILA urges Congress to avoid setting the border security 
requirements in H.R. 1417 as trigger conditions that must be met before 
legalization may move forward. There is widespread consensus that the 
immigration system requires broad reform and that reform should proceed 
as expeditiously as possible. America's economic and National interests 
depend on it. There is no rational policy justification for holding 
certain elements of reform ``hostage'' until others are achieved. More 
specifically, if border security triggers are not well-defined and 
attainable in a reasonable time frame, the legalization of millions 
will be held in an indefinite status and discouraged from coming out of 
the shadows, thus compromising the goals of meaningful and 
comprehensive immigration reform and National security.
                                 ______
                                 
              Statement of the National Immigration Forum
                             July 23, 2013
    The National Immigration Forum works to uphold America's tradition 
as a Nation of immigrants. The Forum advocates for the value of 
immigrants and immigration to the Nation, building support for public 
policies that reunite families, recognize the importance of immigration 
to our economy and our communities, protect refugees, encourage 
newcomers to become new Americans and promote equal protection under 
the law.
    The National Immigration Forum applauds the subcommittee for 
holding this hearing on the matter of American border security and 
urges the committee to look at border security as part of broad 
immigration reform that includes an earned path to citizenship.
    We believe the current conversation around border security and 
immigration reform is different. In the past 2 years, an alliance of 
conservative faith, law enforcement, and business leadership has come 
together to forge a new consensus on immigrants and America. These 
relationships formed through outreach in the evangelical community; the 
development of State compacts; and regional summits in the Mountain 
West, Midwest, and Southeast.
    In early December 2012, over 250 faith, law enforcement, and 
business leaders from across the country came to Washington, DC, for a 
National Strategy Session and Advocacy Day. They told policymakers and 
the press about the new consensus on immigrants and America. In 
February, to support these efforts, the National Immigration Forum 
launched the Bibles, Badges, and Business for Immigration Reform 
Network to achieve the goal of broad immigration reform. Last month, to 
help achieve that goal, this network held a Policy Breakfast and 
Advocacy Day where participants organized 83 Hill meetings (55 with 
Republicans). This was just one event of over 40 that were held all 
over the country in support of immigration reform.
    Last month by a bipartisan vote of 68-32 the United States Senate 
passed S. 744, the ``Border Security, Economic Opportunity, and 
Immigration Modernization Act'' (herein after referred to as S. 744), a 
comprehensive immigration reform that attempts to strike the right 
balance between increased immigration enforcement and border security, 
earned legalization and an opportunity for citizenship, reforms to our 
current family-based and employer-sponsored immigration system, and 
efforts to deal with the current immigration backlog. One of the key 
lessons learned from 1986, besides the need for additional future legal 
avenues in our immigration system, is that all parts of our complex 
immigration system are interrelated, and must be dealt with in a 
cohesive manner, or we will see the results of unintended consequences.
    That is why as the subcommittee discusses border security, it is 
important that the discussion not become singularly focused on 
immigration enforcement. A singular focus on immigration enforcement 
will not result in workable solutions and gives an appearance of an 
attempt to prey upon both our legitimate concerns and prejudices in 
order to score political points. Certainly, we must do what we can to 
ensure that real threats, including terrorists, transnational criminal 
organizations and human traffickers cannot exploit our borders to do 
harm. But at this time of fiscal discipline, continuing to throw 
unlimited sums of money and resources at the border to chase an 
impossible goal is not an effective use of resources. Further, heads of 
border agencies under both Republican and Democratic administrations 
have stated that the best way to improve border security is to fix the 
immigration system by providing legal avenues for workers to enter the 
United States when needed and allow families to reunify. This will 
allow law enforcement and border officials to put fewer resources 
toward economic migrants and more resources toward the true criminal 
and terrorist threats.
    During the debate on the Senate immigration reform legislation, 
specific border security measures were included. The Senate bill, S. 
744, requires that before individuals in Registered Provisional 
Immigrant status can obtain a green card a minimum of 38,405 Border 
Patrol Agents are deployed, stationed, and maintained on the Southern 
Border, 700 miles of pedestrian fencing have been built (including a 
double layer of pedestrian fencing where needed), an electronic work 
verification system has been implemented and an electronic exit system 
is in use at all air and sea ports of entry where U.S. Customs and 
Border Protection (CBP) officers are currently deployed. S. 744 also 
authorizes the deployment of more drones, increases flight hours and 
authorizes hundreds of additional sensors, cameras and Integrated Fixed 
Towers to be stationed along the border.
    The Forum has written extensively on the need for smart enforcement 
at our Nation's borders. To see a more detailed analysis on smart 
enforcement at our borders please see the Forum's papers: ``What Does 
Smart and Effective Enforcement Look Like?'', ``The `Border Bubble': A 
Look at Spending On U.S. Borders'' and ``Cut Here: Reduce Wasteful 
Spending on Immigration Enforcement.'' The Senate bill does not 
necessarily fit our idea of smart border enforcement. However, as part 
of a comprehensive set of initiatives that include significant reforms 
to the legal immigration system and legalization for a large portion of 
the undocumented immigrants in the country, we support the Senate bill. 
This is the nature of compromise, tough decisions were made in the U.S. 
Senate to garner support to pass legislation and we applaud the Senate 
for passing an immigration reform package with a path to citizenship.
    However, as the House takes up the issue of border security, we 
would encourage the House to look closely at the effectiveness, and 
``return on investment'' of the spending on personnel and technology 
for border security.
                           enforcement today
    In recent years, there has been an incredible amount of progress 
improving the level of enforcement at our borders. Accordingly, any 
additional increases in border security should be done in a smart and 
conscientious manner. Millions of dollars have been spent in the last 
decade as more money has been poured into border technology without 
metrics to show how effective these investments have been. In spite of 
this, the measurements we do have show that our border is more secure 
than ever.
    Currently, the entire Southwest Border is either ``controlled,'' 
``managed,'' or ``monitored'' to some degree. A record 21,370 Border 
Patrol Agents continue to be stationed at the border, a number that 
does not include the thousands of agents from other Federal agencies, 
including the Drug Enforcement Agency (DEA), the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives (ATF) , Federal Bureau of 
Investigations (FBI), and other agencies, supplemented by National 
Guard troops.
    As of February 2012, 651 miles of border fencing have been built 
out of the 652 miles that the Border Patrol feels is operationally 
necessary. The fence now covers almost the entire length of the border 
from California to Texas. There is double fencing in many areas. CBP 
relies heavily on technology in order to secure the United States' 
borders and ports of entry.
    CBP now has more than 250 Remote Video Surveillance Systems with 
day and night cameras deployed on the Southwest Border. In addition, 
the agency relies on 39 Mobile Surveillance Systems, which are truck-
mounted infrared cameras and radar. CBP has also sent Mobile 
Surveillance Systems, Remote Video Surveillance Systems, thermal 
imaging systems, radiation portal monitors, and license plate readers 
to the Southwest Border. CBP also currently operates three Predator B 
unmanned aerial drones from an Arizona base and two more from a Texas 
base, providing surveillance coverage of the Southwest Border across 
Arizona, New Mexico, and Texas.
    Prior to August 2006, many persons who were apprehended at the 
border were released pending their immigration hearing. That practice 
was ended in August 2006, and now nearly all persons crossing the 
border illegally are detained. Immigration and Customs Enforcement 
(ICE) is now funded to hold 33,400 individuals in detention at any 
given time. Over the course of the Government's fiscal year 2011, ICE 
reported that it detained more than 429,000 individuals, an all-time 
high and 118,000 more than the 311,000 individuals who were detained in 
2007. For fiscal year 2012, ICE reported that it had removed nearly 
410,000 persons, also a record. That number is approximately 91,000 
more than were removed in 2007. To read more on how the 2007 benchmarks 
have been met, please read the Forum's paper ``Immigration Enforcement 
Today: 2007 Reform Goals Largely Accomplished.''
                      agent training and oversight
    All of the efforts described above have demonstrated that the 
Government can, and is capable, of enforcing our immigration laws. Yet, 
there are still smart, practical enforcement measures that can be 
adopted to further strengthen border security, including providing 
adequate border agent training, providing adequate resources and 
infrastructure at U.S. land ports of entry, establishing sufficient 
oversight mechanisms and procedures to hold agents accountable for 
misconduct, and effective use of border technology.
    The Border Patrol is currently mandated to maintain a minimum of 
21,370 agents at any given time, up from 14,923 in fiscal year 2007. 
But, while the size of the Border Patrol has expanded, so has the 
number of complaints against Border Patrol agents. In 2009, complaints 
increased 50 percent from the previous year, while the size of the DHS 
Office of Inspector General (OIG) grew by only 6 percent that same 
year. Oversight of any agency is crucial to its success, and thus far 
the OIG has been hampered by a lack of resources needed to investigate 
and resolve the growing number of complaints, and has been without 
permanent Inspector General for over 2 years.
    Since 2010, at least a dozen individual media reports have recorded 
Customs and Border Protection employing excessive use of force. In 
addition, CBP has seen as many as 232 criminal indictments of its staff 
for drug-related offenses, fraud, misuse of Government resources and 
theft--all between October 2007 and April 2012. In a December 2012 
report titled ``Border Security: Additional Actions Needed to 
Strengthen CBP Efforts to Mitigate Risk of Employee Corruption and 
Misconduct,'' the Government Accountability Office found that CBP does 
not have an integrity strategy, as called for in its Fiscal Year 2009-
2014 Strategic Plan. It also found significant cultural resistance 
among some CBP components in acknowledging the agency's Internal 
Affairs authority for overseeing all integrity-related activities. CBP 
must develop an effective integrity strategy in light of this 
institutional resistance and its rapid growth and ever-growing number 
of complaints.
    land ports of entry need equal consideration in border security
    Unfortunately, most of the conversations about border security 
focus between the ports of entry, but the ports are an important part 
of our border and National security, as well as our economic security, 
facilitating billions of dollars in international trade each day. As 
enforcement along the border between the ports has increased, illegal 
entry at the ports has increased. A 2012 Texas Border Coalition report 
found that, because enforcement resources have been so focused between 
ports of entry, individuals illegally entering the United States 
through a land port have a 28 percent chance of being apprehended 
whereas someone attempting to do so between the land ports has a 90 
percent probability of being apprehended. This also leaves land ports 
more susceptible to transnational drug and weapons smuggling, as 
increased seizures over the last years has demonstrated. This startling 
report, coupled with long wait times at ports of entry that hinder the 
flow of commerce and trade from Mexico, makes clear the need for 
improvements at our ports of entry, including infrastructure, 
personnel, and technology.
Conclusion
    Continued advancements in enforcement will depend on broader 
reforms to our broken immigration laws so that enforcement resources 
can target real threats. The American people want better immigration 
policy. Multiple National polls over the last month show solid support 
for solutions that include, in addition to reasonable enforcement, 
creating improved and new legal channels for future immigrants and 
establishing tough but fair rules to allow undocumented immigrants to 
stay and continue to work in the United States and eventually earn U.S. 
citizenship. We cannot simply spend or enforce our way to a solution on 
illegal immigration. Border security, while important, is only part of 
the picture. Immigration reforms that promote legal immigration and 
smartly enforce immigration laws can improve the security at the 
border, drying up the customers for criminal enterprises that prey on 
migrants, and letting our border agencies focus on more dangerous 
threats such as terrorists, drugs, weapons, and money.
    Our immigration problem is a National problem deserving of a 
National, comprehensive solution. A piecemeal approach is not the 
answer. The Senate's comprehensive reform legislation includes 
increased interior enforcement and border security, earned legalization 
and a path to citizenship, needed reforms to our current family-
centered and employer-centered immigration system and efforts to deal 
with the current immigration backlog while also setting realistic 
levels for both skilled and necessary lesser-skilled workers. The House 
will likewise need to deal with all of these portions of current 
immigration law and policy. The Forum looks forward to continuing this 
positive discussion on how best to move forward with passing broad 
immigration reform into law. The time is now for immigration reform.

    Ms. Jackson Lee. I ask for an article entitled, ``Why 
Adding 21,000 Border Patrol is a Dysfunctional Plan that Will 
Waste Billions.'' It is an article from June, I think, 2013 
from Forbes and a statement here in this article from Gary 
Jacob, a businessman from Laredo, ask unanimous consent to 
introduce this article into the record.
    Mrs. Miller. Without objection.
    [The information follows:]
         Article Submitted for the Record by Sheila Jackson Lee
Why Adding 21,000 Border Patrol Is A Dysfunctional Plan That Will Waste 
                            Billions--Forbes
http://www.forbes.com/sites/richardfinger/2013/07/21/why-adding-21000-
border-patrol-is-a-dysfunctional-plan-that-will-waste-billions/
    [ . . . ]
    Jacobs: I have seen no evidence of terrorists crossing through 
Mexico. It was Canada not Laredo where some of the 9/11 suicide bombers 
crossed. On the other hand, there is big money in contraband of all 
types including trafficking in human beings. There is ample evidence 
that when a poorly educated opportunistic Congress crams unrealistic 
goals down the throats of honest and well intentioned managers of 
border patrol law enforcement, that they overstress the system.
    Because of the increase in overall border malfeasance, Congress 
passed the Anti-Corruption Act of 2010 which among other things 
requires polygraph tests for all new hires. That was another piece of 
legislation pointed in the wrong direction. Local managers, not out of 
touch with border issues civil servants in Washington, need to be 
designing and implementing recruiting regimens. Our local managers 
could easily have identified who had the appropriate background to 
serve and quickly weed out the mistakes . . . but they can't because of 
Congress.
    To put some numbers to it, in 2010 in a mad rush to hire new 
Customs and Border Protection agents only 1 in 10 were given lie-
detector tests and of those 60 percent failed . . . mind boggling! 
Statistically, right there it says your odds of misbehavior by agents 
increased exponentially. Procedures are now in place and all new 
applicants are taking the (polygraph) test and, get this, almost 70 
percent are failing! The GOA recommends expanding lie-detector tests to 
current employees but at $800 per copy, there are no funds in the 
budget to handle the expense.
    To me, with the statistics just mentioned and with no changes to 
the system, why should we begin an ad hoc program to arbitrarily throw 
20,000 more bodies at this problem. One can almost guarantee that 
without a rational detailed map justifying doubling the size of our 
forces, we will be creating more problems than we are solving. I would 
rather delegate to local CBP leadership how they want to recruit, where 
they want to recruit and how they choose to screen entrants. If they 
can only find 200 per year or 2,000 per year who meet the high 
standards set for the generation of the now senior folks, then that 
will dictate the size of the force . . . When I moved to Laredo and up 
until the reactionary creation of the monster agency Homeland Security, 
corruption cases along the border were few and far between.
    [ . . . ]

    Ms. Jackson Lee. I thank the Chairwoman.
    Mrs. Miller. I thank our Ranking Member. I thank all the 
witnesses again and certainly the committee also. Without 
objection, the committee stands adjourned.
    [Whereupon, at 12:01 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
